<html>
<title> - UNDERSTANDING THE THREAT TO THE HOMELAND FROM AQAP</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







           UNDERSTANDING THE THREAT TO THE HOMELAND FROM AQAP

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2013

                               __________

                           Serial No. 113-34

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-483 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Paul C. Broun, Georgia               Brian Higgins, New York
Patrick Meehan, Pennsylvania, Vice   Loretta Sanchez, California
    Chair                            William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Bennie G. Thompson, Mississippi 
Chris Stewart, Utah                      (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
             Kerry Ann Watkins, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
                  Hope Goins, Minority Staff Director




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    18

                               Witnesses

Mr. Frank J. Cilluffo, Associate Vice President, Director, 
  Homeland Security Policy Institute, The George Washington 
  University:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Ms. Katherine L. Zimmerman, Senior Analyst Critical Threats 
  Project, The American Enterprise Institute:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28
Mr. Brian Katulis, Senior Fellow, Center for American Progress:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37

                                Appendix

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Statement of Robin Simcox, Research Fellow, The Henry Jackson 
    Society......................................................     4
  Excerpt, ``Jihadist Terrorism: A Threat Assessment''...........     6
  Statement of The Jewish Federations of North America...........     9

 
           UNDERSTANDING THE THREAT TO THE HOMELAND FROM AQAP

                              ----------                              


                     Wednesday, September 18, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:06 p.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Higgins, and Keating.
    Mr. King. Good afternoon. The Committee on Homeland 
Security Subcommittee on Counterterrorism and Intelligence will 
come to order.
    The subcommittee is meeting today to hear testimony 
examining the threat to the homeland from al-Qaeda in the 
Arabian Peninsula, AQAP. I now recognize myself for an opening 
statement.
    At the onset of today's hearing I want to express sincere 
sympathies to the families, friends, and coworkers of the 12 
victims and 8 people who were wounded in the shooting at the 
Washington Navy Yard on Monday. Investigations are on-going 
into both the shooter and how he was able to gain access to a 
sensitive military facility, and I fully support those efforts.
    On Dec. 7, 2011, I held a joint hearing with Senator 
Lieberman on the threat to military personnel and facilities 
within the United States. While there is no evidence currently 
or any reason to believe that the tragic events of Sept. 16 
were inspired by ideology, the reality is that our military 
personnel are a target and more needs to be done to address 
security in its ranks and at military facilities.
    Also this month we recognize the 12th anniversary of the 
Sept. 11, 2001 terrorist attacks. In the past 12 years Islamist 
terrorists have carried out additional attacks, including the 
murder of two U.S. Army soldiers at a Little Rock recruiting 
center on June 1, 2009, the murder of 13 people and 42 others 
being injured at a deployment center at Fort Hood on November 
5, 2009, and the attack during the Boston Marathon killing 3 
people and injuring approximately 260 people on April 15, 2013.
    We have been lucky that not all of these attempts resulted 
in the loss of innocent lives. There was the unsuccessful 
detonation of an explosive device on Flight 253 on Christmas 
day 2009, the attempt to detonate a vehicle-borne improvised 
explosive device in Times Square on May 1, 2010, the discovery 
of two bombs hidden in printer cartridges on U.S.-bound cargo 
planes on October 29, 2010, a disrupted plot to smuggle an 
explosive device onto an airline in May 2012, and numerous 
other plots that have been disruptive.
    AQAP, the Yemen-based al-Qaeda affiliate, has been linked 
to most of these either directly or indirectly through 
inspiring home-grown radicals. Most recently the U.S. 
Government closed 22 embassies, mainly in the Middle East and 
North Africa, for weeks due to security concerns relating to a 
threat from AQAP.
    As a result, the U.S. embassy in Yemen remained closed for 
2 weeks. The closure of any U.S. diplomatic facility for even 1 
day, let alone 22, is a decision that is not made lightly. This 
incident should remind all of us what a danger AQAP poses.
    Many reports reveal that intercepted electronic 
conversations between AQAP and al-Qaeda leaders disclose that 
the plans for a major attack during a specific time frame, but 
not details on targets and locations for the attack. While 
additional counterterrorism pressure seems to have disrupted 
the attack in the short term, the situation is a reminder that 
we must remain vigilant, and that al-Qaeda and its affiliates 
remain intent on carrying out an attack against U.S. interests 
and especially against the homeland.
    In the past 12 years, under both the Bush and Obama 
administrations, we have made great efforts to track down and 
remove senior al-Qaeda leaders, including al-Awlaki, Samir 
Khan, and Said al-Shihiri within AQAP, and of course Osama bin 
Laden. Unfortunately, however, in many ways the al-Qaeda 
network is stronger today than it was before 9/11 because it 
has metastasized its footholds in so many locations.
    As the White House and Congress continue to grapple over 
the situation in Syria, it is vital that we do not lose sight 
of the threat posed by AQAP and other al-Qaeda affiliates. That 
is why I look forward to today's hearing from the witnesses 
regarding the on-going threat to the U.S. homeland from AQAP, 
including an evaluation of the current intent and capability. 
Also to review U.S. counterterrorism policy towards the group 
and the lessons learned from the August embassy closures.
    With that I now yield to the distinguished Ranking Member 
of the subcommittee, Mr. Higgins from New York.
    Mr. Higgins. Thank you, Mr. Chairman. I thank you for 
holding this hearing. I would also like to thank the witnesses 
for their testimony.
    According to the director of national intelligence al-Qaeda 
in the Arabian Peninsula is the greatest immediate threat from 
a terrorist group in the United States. Even though the group 
has not been successful in recent years in its plots to attack 
the United States, al-Qaeda in the Arabian Peninsula's reach 
and ability expose our country and our homeland to 
vulnerabilities that make it an extremely dangerous 
organization.
    The United States has attempted to make strides to diminish 
al-Qaeda in the Arabian Peninsula's terror capabilities, but 
the threat from this organization remains.
    In 2011 the United States through a drone strike killed 
Anwar al-Awlaki, who was once considered the most dangerous man 
in the world. Without al-Awlaki, the English-speaking American 
who recruited people to exploit Islam and perform terrorist 
acts, it was thought al-Qaeda in the Arabian Peninsula's 
ability to strike the United States would be weakened.
    However, many in the intelligence community do not believe 
that al-Awlaki's death had a significant impact and the 
National Counterterrorism Center Director Matthew Olsen has 
stated that al-Qaeda in the Arabian Peninsula has the ability 
to attack the United States with little or no warning. Aside 
from al-Awlaki, more than 35 senior leaders of al-Qaeda in the 
Arabian Peninsula have been killed by drone strikes. Yet the 
organization still continues to be a threat to the United 
States.
    Al-Qaeda in the Arabian Peninsula moves fast and recognizes 
targets and opportunities for recruitment and exposure. For 
example, in the wake of the Boston Marathon bombing, the al-
Qaeda recently dedicated an issue of its magazine Inspire to 
the Boston bombings. It praised the bombers and encouraged 
others to emulate the attack. Al-Qaeda in the Arabian Peninsula 
is also not afraid to attack the United States where it can, be 
it on the United States soil or our interests throughout the 
world.
    We saw this summer when the intelligence community 
intercepted a credible threat that al-Qaeda in the Arabian 
Peninsula was planning an attack on the United States 
facilities in the Middle East and North Africa. This threat was 
taken very seriously, was considered imminent. The threat 
prompted the United States and European countries to close 
their embassies in the Middle East and North Africa for days.
    It is astonishing that even though the United States has 
eliminated much of their senior leadership and one of its most 
effective recruiters, the group can still have capability to 
conduct attacks against the United States. It also recognizes 
the economic devastation terrorist acts can bring.
    A terrorist attack in the Buffalo/Niagara Region, which was 
the busiest passenger border crossing with Canada and the 
second-busiest for cargo crossing, would be devastating. 
However, the Department of Homeland Security does not recognize 
the Buffalo/Niagara Region as a high-risk area. Hence, local 
law enforcement in the Buffalo/Niagara Region are left without 
the resources that could possibly be needed if an attack from 
this dangerous organization were to occur.
    As we saw with the Boston Marathon bombings, the role of 
first responders is invaluable to the response. With this 
terrorist group consistently adapting to and seemingly lying in 
wait for an exposure to our vulnerabilities, this Nation should 
be prepared to prevent attacks in all areas and on all fronts.
    I thank the Chairman for holding this important hearing. I 
look forward to the testimony of our expert witnesses.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                           September 18, 2013
    I would like to thank the Chairman for holding this important 
hearing this afternoon.
    I would also like to thank the witnesses for their testimony.
    According to the director of national intelligence, al-Qaeda in the 
Arabian Peninsula is the greatest immediate threat from a terrorist 
group to the United States. Even though the group has not been 
successful in recent years at its plots to attack the United States, 
al-Qaeda in the Arabian Peninsula's reach and ability to expose U.S. 
homeland security vulnerabilities makes it an extremely dangerous 
organization. The United States has attempted to make strides to 
diminish al-Qaeda in the Arabian Peninsula's terror capabilities, but 
the threat from this organization remains.
    In 2011, the United States, through a drone strike, killed Anwar 
al-Awlaki who was once considered the most dangerous man in the world. 
Without al-Awlaki, an English-speaking American who recruited people to 
exploit Islam and perform terrorist acts, it was thought al-Qaeda in 
the Arabian Peninsula's ability to strike the United States would be 
weakened. However, many in the intelligence community do not believe 
that al-Awlaki's death had a significant impact and National 
Counterterrorism Center Director Matthew Olsen has stated that al-Qaeda 
in the Arabian Peninsula still has the ability to attack the United 
States with little or no warning. Aside from al-Awlaki, more than 35 
senior leaders of al-Qaeda in the Arabian Peninsula have been killed by 
drone strikes, yet the organization still continues to be a threat to 
the United States.
    Al-Qaeda in the Arabian Peninsula moves fast and recognizes targets 
and opportunities for recruitment and exposure. For example, in the 
wake of the Boston Marathon bombings, al-Qaeda in the Arabian Peninsula 
dedicated an issue of its magazine, Inspire, to the Boston bombings. It 
praised the bombers and encouraged others to emulate the attack. Al-
Qaeda in the Arabian Peninsula is also not afraid to attack the United 
States where it can, be it on United States soil or our interests 
abroad.
    We saw this summer when the intelligence community intercepted a 
credible threat that al-Qaeda in the Arabian Peninsula was planning on 
attacking United States facilities in Middle East and North Africa. 
This threat was taken very seriously and was considered imminent. The 
threat prompted the United States and European countries to close their 
embassies in the Middle East and North Africa for several days.
    It is astonishing that even though the United States has eliminated 
much of their senior leadership and one of its most effective 
recruiters, the group can still have the capability to conduct attacks 
against the United States. It also recognizes the economic devastation 
terrorist acts can bring. A terrorist attack in the Buffalo/Niagara 
region, which has the busiest passenger border crossing with Canada and 
second-busiest cargo crossing would be devastating. However, the 
Department of Homeland Security does not recognize the Buffalo/Niagara 
region as a high-risk area. Hence, local law enforcement in the 
Buffalo/Niagara region are left without the resources that could 
possibly be needed if an attack from this dangerous organization were 
to occur.
    As we saw with the Boston Marathon bombings, the role of first 
responders is invaluable to the response. With this terrorist group 
constantly adapting to and seemingly lying in wait for an exposure to 
our vulnerabilities, this Nation should be prepared to prevent attacks 
in all areas and on all fronts.
    Thank you and thank you Mr. King for holding this important 
hearing.

    Mr. King. I thank the Ranking Member.
    Just to get one bit of business out of the way, it is 
apparent for today's hearing we use information provided by 
additional security experts.
    I ask unanimous consent to include in the hearing record 
one testimony for the record on the threat posed by AQAP 
written by Robin Simcox with the Henry Jackson Society, and 
excerpts on the threat from AQAP from September 2013 report 
released by the Bipartisan Policy Center. Additionally I ask 
unanimous consent to include a letter and report from the 
Jewish Federation of North America regarding the continued 
terrorist threats to the Jewish community.
    Without objection these items will be included in the 
record.
    [The information follows:]
 Statement of Robin Simcox, Research Fellow, The Henry Jackson Society
    The threat to the U.S. homeland from al-Qaeda in the Arabian 
Peninsula (AQAP) is real, sustained, and likely to be enduring. AQAP is 
today the most aggressive branch of al-Qaeda, and a severe security 
threat within Yemen.
    However, the threat from the group is not restricted to its own 
borders. It is also the al-Qaeda group most capable of carrying out an 
attack against not only the U.S. homeland, but the Western homeland 
more broadly.
    AQAP's creation was announced in January 2009, following a merger 
between al-Qaeda's Yemeni and Saudi branches. Its leadership is largely 
made up of experienced and dedicated jihadist fighters whose 
connections to al-Qaeda predate 9/11.
    The group's emir, Nasir al-Wahayshi, is a former secretary to Osama 
bin Laden who connected with al-Qaeda in Afghanistan in the 1990s. 
Earlier this year, he was promoted to the role of al-Qaeda's ``general 
manager'', a sign of his increased influence within the group. The 
group's former deputy emir--the recently deceased Said al-Shehri--also 
fought in Afghanistan.
    Furthermore, AQAP's military chief, Qasim al-Raymi, attended al-
Qaeda training camps in Afghanistan in the 1990s, as did Ibrahim al-
Rubaish, a senior AQAP theologian.
    The explosives expert within the group is a Saudi named Ibrahim al-
Asiri, although he has now likely passed his expertise on to others. It 
was he who constructed the bomb that AQAP recruit Umar Farouk 
Abdulmutallab had concealed in his underwear and unsuccessfully 
attempted to detonate on a flight headed to Detroit, Michigan, on 
Christmas day of 2009.
    Al-Asiri was also likely involved in the construction of bombs 
discovered in U.S.-bound cargo planes on 29 October 2010, that were 
discovered during stopovers in the United Arab Emirates and the United 
Kingdom; as well as the second underwear bomb plot, that was thwarted 
in April 2012 when an AQAP plan to bomb a flight headed to the United 
States was thwarted by a Saudi agent that infiltrated the group.
    One man partially responsible for AQAP's focus on the West was the 
American-born cleric, Anwar al-Awlaki. For example, it was he who, 
while in Yemen, assessed Abdulmutallab's dedication to jihad; and his 
instructions or sermons have inspired a host of others to attempt 
terrorist attacks within the West itself.
    One of these attacks led to a tragic loss of life, when Major Nidal 
Hasan, a U.S.-born army Major shot and killed 13 people in November 
2009 at Fort Hood army base in Killeen, Texas. Hasan and al-Awlaki were 
in e-mail contact prior to the attack.
    There are numerous other examples of al-Awlaki's influence. Rajib 
Karim, a British Bangladeshi, was in e-mail contact with al-Awlaki in 
January and February 2010. Karim worked for British Airways and 
discussed with al-Awlaki how his access to aviation information could 
facilitate a terrorist attack. Karim has since been jailed for 30 
years.
    Others were inspired to act by al-Awlaki's rhetoric, such as Faisal 
Shahzad, who planted a bomb in New York's Times Square on 1 May 2010. 
He has now been sentenced to life in jail.
    Another who had been persuaded to act--in part because of al-
Awlaki's on-line sermons--was Roshonara Choudhry, who was convicted for 
attempting to murder Labour Member of Parliament Stephen Timms at his 
constituency surgery in London on 14 May 2010.
    Al-Awlaki was killed in a U.S. drone strike in al-Jawf, on 30 
September 2011. However, the dissemination of his rhetoric--as well as 
the appeal to Western audiences that Inspire, AQAP's English-language 
magazine, has--means that the threat to the Western homeland by no 
means ends with his death.
    However, the group's ambitions do not begin and end with attacks 
against the United States. AQAP regards itself as an alternative 
government to that in Sana'a. Therefore, it has attempted to gain, and 
then control, territory within Yemen.
    Between March 2011 and June 2012, it controlled towns in the 
provinces of Abyan and Shabwa in southern Yemen, subsequently declaring 
them Islamic ``emirates''.
    Aware of al-Qaeda's divisive reputation, AQAP introduced themselves 
to locals in Yemen as members of Ansar al-Sharia. They empowered local 
jihadists and rebranded their movement with a positive message that 
they could restore peace and justice to the area, while also providing 
key services. They achieved some success with this, providing food, 
water, and electricity. This only served to highlight the shortcomings 
of the government in Sana'a, who proved incapable of providing such 
basics for the population it purports to govern.
    A June 2012 government offensive removed AQAP control from its 
southern ``emirates''. However, by mid-2013, AQAP had once again begun 
to control territory: This time, in Hadramout, eastern Yemen.
    While the government is capable of expelling the group from these 
areas militarily, this has led to AQAP dispersing its presence even 
more widely throughout Yemen. It now largely focuses on ``hit-and-run'' 
attacks against the government's military and counterterrorism 
officials, often employing tactics as crude as ``drive-by'' motorcycle 
shootings.
    It is vital to understand that the threat to the West from AQAP is 
on-going. In August 2013, it was (in part) a response to intercepted 
communications between Ayman al-Zawahiri, al-Qaeda's emir, and Nasir 
al-Wahayshi, that led to the U.S. Government shutting down its 
embassies across the Middle East and North Africa and issuing a global 
travel warning to its citizens. Al-Zawahiri and al-Wahayshi were 
believed to be discussing a large plot against Western targets and 
government infrastructure in Yemen.
    The U.S. Government response must be an all-encompassing policy 
that can address both terrorism issues as well as problems specific to 
Yemen that may be facilitating the group's growth.
    Attempts must be stepped up to aid the development of Yemen's 
economy and its basic infrastructure, as well as encourage the creation 
of a genuinely representative and democratic government. This should be 
backed up by a limited number of drone strikes against AQAP's key 
leaders. These strikes may be controversial within Yemen, but remain 
vital in disrupting AQAP's activities. The strikes should be carried 
out alongside the stepped-up counterterrorism training to Yemeni 
government forces.
    While America may take the lead on these issues, the entire effort 
will require support from key partner nations across the Middle East, 
Africa, and Europe if it is to be successful.
    Ultimately, the security of all those threatened by AQAP will be 
greatly enhanced if a cohesive, co-ordinated policy--that addresses 
both security and development issues--is formulated.
                                 ______
                                 
         Excerpt Submitted For the Record by Hon. Peter T. King
                jihadist terrorism: a threat assessment
A Report From the Bipartisan Policy Center, September 2013
            Chapter 3: The International Threat
                                 ______
                                 
                  2. al-qaeda in the arabian peninsula
Threat Assessment
    Because AQAP remains interested in launching attacks against the 
West, and its chief bomb-maker, Ibrahim al-Asiri, remains at large, 
senior American counterterrorism and defense officials, including 
Director of National Intelligence James Clapper and former Secretary of 
Defense Leon Panetta, have assessed that al-Qaeda's affiliate in Yemen 
poses the greatest immediate threat from a jihadist group to the United 
States.\74\ In testimony before the U.S. Senate Select Committee on 
Intelligence in January, Clapper said that while AQAP is under attack 
in Saudi Arabia and Yemen, ``the group continues to adjust its tactics, 
techniques and procedures for targeting the West.''\75\ However, AQAP 
has not attacked a U.S. target since its October 2010 attempt to plant 
bombs hidden in printer cartridges on cargo planes destined for the 
United States. And while the organization gained significant territory 
in Yemen as it exploited the popular uprising in the country in 2011, 
it also lost these gains within about a year.
---------------------------------------------------------------------------
    \74\ Schmitt, Eric. ``Intelligence Report Lists Iran and 
Cyberattacks as Leading Concerns.'' The New York Times. January 31, 
2012. http://www.nytimes.com/2012/02/01/world/intelligence-chief-sees-
al-qaeda-likely-to-continue-fragmenting.html?pagewanted=all&_r=0.
    \75\ Garamone, Jim. ``Terror Threat Potent, But Dispersed, 
Intelligence Chief Says.'' American Forces Press Service. March 13, 
2013. http://www.defense.gov/news/newsarticle.aspx?id=119522.
---------------------------------------------------------------------------
    Nonetheless, AQAP presents a lesson of how terrorist groups in the 
21st century can become more lethal and shift their focus abroad more 
quickly than their 20th-century counterparts. It took core al-Qaeda a 
full decade from its founding to launch its first significant 
international terrorist attack--the 1998 bombings of U.S. embassies in 
Kenya and Tanzania. By comparison, it took AQAP less than nine months 
from its from its emergence out of the remnants of decimated al-Qaeda 
cells in Saudi Arabia in 2009 to launch its first transnational attack, 
the near-miss assassination of the senior Saudi prince responsible for 
counterterrorism, and less than a year to launch its first attack 
against the United States, another near-miss, but one that, on 
Christmas Day 2009, shook American confidence that the terrorist threat 
to commercial aviation had receded. Had the AQAP suicide terrorist, a 
young Nigerian man recruited into the group by al-Awlaki been 
successful, nearly a decade's worth of successes in the war on al-Qaeda 
and its allies could have been reversed in a matter of minutes.
AQAP Activities Since 2009
    In the last few years, while core al-Qaeda declined in Pakistan, 
AQAP strengthened in Yemen.\76\ AQAP's core membership grew from 
approximately 300 members in 2009 to around 1,000 in 2012, as hundreds 
of tribesmen joined AQAP in the fight against the U.S.-backed Yemeni 
government.\77\ Then-National Security Council spokesman Tommy Vietor 
stated in May 2012 that, ``while AQAP has grown in strength . . . many 
of its supporters are tribal militants or part-time supporters who 
collaborate with AQAP for self-serving, personal interests rather than 
affinity with al-Qaeda's global ideology. The portion of hard-core, 
committed AQAP members is relatively small.''\78\
---------------------------------------------------------------------------
    \76\ Schmitt, Eric. ``As Al-Qaeda Loses a Leader, Its Power Shifts 
From Pakistan.'' The New York Times. June 7, 2012. http://
www.nytimes.com/2012/06/08/world/asia/al-qaeda-power-shifting-away-
from-pakistan.html?_r=1&.
    \77\ Johnsen, Gregory D. The Last Refuge: Yemen, al-Qaeda, and 
America's War in Arabia. New York: W.W. Norton & Company, 2013.
    \78\ Raghavan, Sudarsan. ``In Yemen, U.S. Airstrikes Breed Anger, 
and Sympathy for al-Qaeda.'' The Washington Post. May 29, 2012. http://
articles.washingtonpost.com/2012-05-29/world/35456187_1_aqap-drone-
strikes-qaeda.
---------------------------------------------------------------------------
    In the summer of 2010, AQAP increased its attacks in Yemen, 
assassinating dozens of Yemeni security officials while simultaneously 
plotting to place printer cartridges containing explosives on U.S.-
bound flights. The packages were intercepted on October 29 while en 
route to the United States due to a tip from Saudi intelligence.\79\ 
AQAP also launched Inspire magazine in July 2010 and established the 
Arabic-language al-Madad News Agency in 2011.\80\
---------------------------------------------------------------------------
    \79\ Shane, Scott. ``Qaeda Branch Aimed for Broad Damage at Low 
Cost.'' The New York Times. November 20, 2010. http://www.nytimes.com/
2010/11/21/world/middleeast/21parcel.html.
    \80\ ``Counterterrorism 2013 Calendar: Al-Qa'ida in the Arabian 
Peninsula (AQAP).'' National Counterterrorism Center. http://
www.nctc.gov/site/groups/aqap.html.
---------------------------------------------------------------------------
    In March 2011, when Yemen's then-President Ali Abdullah Saleh 
sanctioned the killing of Arab Spring--inspired protesters in the 
Yemeni capital, Sana'a, his allies turned against him and a substantial 
portion of his army deserted.\81\ Soldiers in the south, who hadn't 
been paid in weeks, abandoned their posts, leaving the area open for 
AQAP to move in.\82\ Other troops returned to Sana'a to support the 
government there. The United States was forced to pull some Special 
Operations Forces out of Yemen, and counterterrorism training there 
slowed dramatically.\83\ Fighters from Jordan, Saudi Arabia, and 
Somalia are believed to have joined the insurgency, and in the spring 
of 2011, AQAP gained control of two Yemeni provinces and increased 
their presence in ten more.\84\
---------------------------------------------------------------------------
    \81\ Stier, Eric. ``In Yemen, top military commanders defect from 
Saleh regime.'' Christian Science Monitor. March 21, 2011. http://
www.csmonitor.com/World/Middle-East/2011/0321/In-Yemen-top-military-
commanders-defect-from-Saleh-regime.
    \82\ Johnsen, Gregory D. The Last Refuge: Yemen, al-Qaeda, and 
America's War in Arabia. New York: W.W. Norton & Company, 2013.
    \83\ Schmitt, Eric. ``U.S. Teaming With New Yemen Government on 
Strategy to Combat Al-Qaeda.'' The New York Times. February 26, 2012. 
http://www.nytimes.com/2012/02/27/world/middleeast/us-teaming-with-
yemens-new-government-to-combat-al-qaeda.html?_r=0.
    \84\ Swift, Christopher. ``To Defeat Al-Qaeda, Win in Yemen.'' 
Bloomberg View. June 21, 2012. http://christopher-swift.com/
publications/to-defeat-al-qaeda-win-in-yemen.
---------------------------------------------------------------------------
    In a sign that AQAP may have learned from some of the mistakes 
other al-Qaeda affiliates have made in the past, it has provided some 
services to Yemeni citizens. It has also, on occasion, operated without 
using the al-Qaeda name, a brand that even bin Laden understood to be 
deeply tarnished. For instance, AQAP operates under the name ``Ansar 
al-Sharia'' when reaching out to Yemeni locals and aims to demonstrate 
its adherence to Islamic law.\85\ According to Christopher Swift, a 
Georgetown University researcher who has done field work in Yemen, 
economic factors, rather than religious extremism, provide AQAP with 
influence among locals. Insurgents offer local men ``the promise of a 
rifle, a car and a salary of $400 a month--a veritable fortune in a 
country where nearly half the population lives on less than $2 a 
day.''\86\
---------------------------------------------------------------------------
    \85\ Swift, Christopher. ``Arc of Convergence: AQAP, Ansar al-
Shari'a and the Struggle for Yemen.'' CTC Sentinel. June 21, 2012. 
http://christopher-swift.com/publications/arc-of-convergence-aqap-
ansar-al-sharia-and-the-struggle-for-yemen.
    \86\ Swift, Christopher. ``To Defeat Al-Qaeda, Win in Yemen.'' 
Bloomberg View. June 21, 2012. http://christopher-swift.com/
publications/to-defeat-al-qaeda-win-in-yemen.
---------------------------------------------------------------------------
    AQAP has also given towns new wells, water, and food in exchange 
for the tribal elders' help in recruiting. In areas of the country with 
the most chaotic security environments, AQAP has used a combination of 
armed militias to gain control of territory, gifts of money, and 
weapons to prop up local sheikhs, and sharia courts to prosecute 
criminals and provide some semblance of law and order. ``In doing so, 
the movement exhibits a pragmatic approach that has more in common with 
the Taliban's operations in Afghanistan than it does with Osama bin 
Laden's globalized, decentralized jihad,'' Swift says.\87\
---------------------------------------------------------------------------
    \87\ Ibid.
---------------------------------------------------------------------------
    In mid-2011, as the fight between the Yemeni government and armed 
opposition groups escalated, AQAP moved to seize more territory in 
southern Yemen, and the Yemeni government launched aggressive counter-
assaults.\88\ The United States also resumed its campaign of air and 
drone strikes, which had been halted the previous year. In February 
2012, under pressure from the Obama administration, President Saleh 
signed an agreement to step down. Abd Rabu Mansur Hadi took over as 
president and subsequently gave the U.S. drone program unfettered 
access to targets in Yemen.\89\
---------------------------------------------------------------------------
    \88\ Johnsen, Gregory D. The Last Refuge: Yemen, al-Qaeda, and 
America's War in Arabia. New York: W.W. Norton & Company, 2013.
    \89\ Schmitt, Eric. ``U.S. Teaming With New Yemen Government on 
Strategy to Combat Al-Qaeda.'' The New York Times. February 26, 2012. 
http://www.nytimes.com/2012/02/27/world/middleeast/us-teaming-with-
yemens-new-government-to-combat-al-qaeda.html?_r=0.
---------------------------------------------------------------------------
    With the broad permission granted by Yemen's new president, the 
United States greatly expanded its drone campaign in 2012 and began to 
train and equip the Yemeni military to better combat AQAP.\90\ Since 
2010, U.S. drone strikes in Yemen have killed at least 31 high-level 
al-Qaeda operatives, including al-Awlaki and Samir Khan, the AQAP 
operative believed to have been the driving force behind Inspire 
magazine.\91\
---------------------------------------------------------------------------
    \90\ Ibid.
    \91\ New America Foundation, National Security Studies Program. 
``U.S. Covert War in Yemen.'' Last updated June 9, 2013. http://
yemendrones.newamerica.net/.
---------------------------------------------------------------------------
    Al-Awlaki's death likely reduced the organization's ability to plan 
transnational attacks because he was a key operational planner.\92\ The 
group has not attempted an actual attack on the West since the failed 
2010 cartridge-bomb plot. (A 2012 AQAP bombing plot was, in actuality, 
controlled by Saudi intelligence, which had inserted an informer into 
the group.)
---------------------------------------------------------------------------
    \92\ Schmitt, Eric. ``Intelligence Report Lists Iran and 
Cyberattacks as Leading Concerns.'' The New York Times. January 31, 
2012. http://www.nytimes.com/2012/02/01/world/intelligence-chief-sees-
al-qaeda-likely-to-continue-fragmenting.html?pagewanted=all&_r=0.
---------------------------------------------------------------------------
    With his native English-speaking ability, al-Awlaki was also AQAP's 
chief recruiter of foreigners, particularly those with Western 
connections; the group's foreign recruitment has dried up since his 
death. However, even in death, his voice continues to resonate with 
militants in the West. The surviving Boston bombing suspect, for 
example, admitted to watching al-Awlaki's sermons on-line, though there 
is no evidence that the Boston bombers ever communicated with him.\93\
---------------------------------------------------------------------------
    \93\ Schmitt, Eric, Mark Mazzetti, Michael S. Schmidt, and Scott 
Shane. ``Boston Plotter Said to Initially Target July 4 for Attack.'' 
The New York Times. May 2, 2013. http://www.nytimes.com/2013/05/03/us/
Boston-bombing-suspects-planned-july-fourth-attack.html?- 
pagewanted=all&_r=0.
---------------------------------------------------------------------------
    On July 17, 2013, AQAP confirmed the death of Said al-Shihri, the 
group's deputy commander, in a video posted to jihadist websites. 
Shihri, a Saudi and 6-year resident of the U.S. detention facility in 
Guantanamo Bay, Cuba, had long been reported dead from wounds he 
received from a drone strike in late 2012. The statement said Shihri 
had indeed died in a U.S. drone strike and that ``lax security measures 
during his telephone contacts enabled the enemy to identify and kill 
him,'' though it did not confirm the date of his death.\94\
---------------------------------------------------------------------------
    \94\ ``Al-Qaeda Confirms Death of Yemen Leader in American Drone 
Strike.'' Al-Akhbar English. July 17, 2013. http://english.al-
akhbar.com/content/al-qaeda-confirms-death-yemen-leader-american-drone-
strike.
---------------------------------------------------------------------------
    Shihri's death is another blow to the organization, which as of 
mid-2013 is battered, though not defeated. In the past three years, as 
outlined above, more than 30 al-Qaeda leaders and other senior 
operatives in Yemen have been killed by U.S. drone strikes, according 
to a count by the New America Foundation.\95\ AQAP's only remaining 
leaders appear to be its chief bomb-maker, Asiri; AQAP's leader and 
founder, Nasser al-Wuhayshi; and the man who delivered Shihri's eulogy, 
Ibrahim al-Rubaish, another former Guantanamo detainee.
---------------------------------------------------------------------------
    \95\ New America Foundation, National Security Studies Program. 
``U.S. Covert War in Yemen.'' Last updated June 9, 2013. http://
yemendrones.newamerica.net/.
---------------------------------------------------------------------------
    In June 2012, AQAP elements withdrew from their southern Yemen 
strongholds when Yemeni military forces--with the support of local 
tribesmen and U.S. airstrikes--regained control of cities and towns in 
Abyan and Shabwah provinces.\96\ They have since been reduced to 
carrying out smaller-scale, hit-and-run attacks; nothing close to the 
massive attack in May 2012, when an AQAP suicide bomber blew himself up 
at a military parade rehearsal in Sana'a, killing upward of 100 people, 
mostly soldiers, and injuring more than 200.\97\
---------------------------------------------------------------------------
    \96\ ``Counterterrorism 2013 Calendar: Al-Qa'ida in the Arabian 
Peninsula (AQAP).'' National Counterterrorism Center. http://
www.nctc.gov/site/groups/aqap.html.
    \97\ ``Al-Qaeda Attack on Yemen Army Parade Causes Carnage.'' BBC 
News. May 21, 2012. http://www.bbc.co.uk/news/world-middle-east-
18142695.
---------------------------------------------------------------------------
Western Recruitment
    AQAP has led global online radicalization efforts and has made 
Western recruitment to its cause a priority in its propaganda. This 
``lone wolf'' strategy is spearheaded by AQAP's al-Malahem Media 
Foundation. Written in eloquent English and formatted like a U.S. 
tabloid, al-Malahem's Inspire magazine incites Western youth to join 
the jihad and carry out attacks within their own communities. According 
to the spring 2013 issue of Inspire, ``Lone-Jihad is impossible to 
counter and stop, except when basic cooking ingredients and building 
material become illegal!''\98\
---------------------------------------------------------------------------
    \98\ Almoravid, Abu Abdillah. ``Who and Why?'' Inspire. Spring 
2013, Issue 11. http://info.publicintelligence.net/
InspireSpring2013.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
          Statement of The Jewish Federations of North America
                                September 17, 2013.
The Honorable Peter T. King,
Chairman, Counterterrorism and Intelligence Subcommittee, U.S. House of 
        Representatives, Washington, DC 20515.
The Honorable Brian M. Higgins,
Ranking Member, Counterterrorism and Intelligence Subcommittee, U.S. 
        House of Representatives, Washington, DC 20515.
    Dear Chairman King and Ranking Member Higgins: I write today on 
behalf of The Jewish Federations of North America to applaud you for 
scheduling tomorrow's hearing on the ``Al-Qaeda Threat.''
    As you know last week, in marking the twelfth anniversary of 9/11, 
the leader of al-Qaeda, Ayman al-Zawahiri, issued a message to 
followers and adherents to undertake ``lone-wolf'' attacks in the 
United States. Provocative statements such as this are not new from al-
Zawahiri. On multiple occasions, he has called upon al-Qaeda followers 
and sympathizers to attack Jewish interests in the United States and 
worldwide.
    This focus on ``soft'' Jewish civilian targets is deeply engrained 
in al-Qaeda's method of operation. In February 2002, the Associated 
Press published an English translation of an al-Qaeda training manual 
smuggled out of Afghanistan that directed followers to attack Jewish 
organizations and institutions in every country Jews exist and to carry 
out the attacks in a manner designed to cause mass causalities.
    There have been several deadly attacks and potentially deadly 
attempts targeting the Jewish community in the United States and abroad 
in the intervening years, as set forth in the attached risk 
compilation--from al-Qaeda to extremists across the ideological 
spectrum. At a February 15, 2012 hearing of the Homeland Security 
Committee, Chairman King recognized the ``almost imminent threat posed 
by Hezbollah quite possibly to Jewish houses of worship and religious 
institutions.'' For these reasons, we seek your consideration of the 
risks to Jewish communal security as you hear from and question 
tomorrow's panel of distinguished witnesses.
            Sincerely,
                                        Robert B. Goldberg,
                              Senior Director, Legislative Affairs.

                     Appendix.--September 13, 2013
  risk overview: threats, vulnerabilities, and potential consequences
Existential Threats to Jewish Communal Institutions
    Since 9/11, the FBI, Department of Homeland Security and other law 
enforcement entities have warned the U.S. Jewish community of a number 
of plots by international terrorist organizations, white supremacists, 
prison Islamic radicals, and other home-grown violent individuals 
across the political spectrum. While a number of prominent plots have 
been averted, others became operationalized.
    One regular thread among many terrorist occurrences is the 
symmetrical selection of targets that include both Government/military 
facilities/personnel, and Jewish communal institutions and civilians. 
One large distinction, however, is that the latter category comprises 
soft nonprofits with limited resources and capabilities with which to 
harden their facilities and to train their personnel.
    Additionally, over the past decade, the FBI has reported that 
approximately 70% of religious-based hate crimes have been perpetrated 
against the Jewish community--well above the combined occurrences of 
all other faiths. (Source: Annual FBI Hate Crimes Statistics Reports; 
Link: http://www.fbi.gov/news/stories/2012/december/annual-hate-crimes-
report-released/annual-hate-crimes-report-released).
    December 10, 2012.--Of the 1,480 victims of an anti-religious hate 
crime, 63.2 percent were victims of an offender's anti-Jewish bias--
more than all other categories combined. (Source: FBI Hate Crime 
Statistics, 12/10/12; Link: http://www.fbi.gov/news/stories/2012/
december/annual-hate-crimes-report-released/annual-hate-crimes-report-
released).
    July 20, 2012.--New York police believe Iranian Revolutionary 
Guards or their proxies have been involved so far this year in nine 
plots against Israeli or Jewish targets around the world. According to 
NYPD analysts, ``through its own Revolutionary Guard and Hezbollah,'' 
Iran had ``sharply increased its operational tempo and its willingness 
to conduct terrorist attacks targeting Israeli interests and the 
International Jewish community worldwide.'' (Source: Reuters, 07/20/12; 
Link: http://www.reuters.com/article/2012/07/20/us-iran-hezbollah-
plots-idUSBRE86- J0SW20120720).
    June 5, 2012.--According to Homeland Security Secretary Janet 
Napolitano, ``Jews face special risks that require vigilance.'' She 
also stated that, during her tenure at DHS, threats to the Jewish 
community came from foreign entities, homegrown extremists, and 
domestic hate groups. (Source: The Forward, 06/05/12: Link: http://
forward.com/articles/157280/jews-face-special-risks-napolitano-says/
?p=all).
    February 16, 2012.--With tensions between Iran and the West running 
high, law enforcement officials are concerned Iran or its surrogates 
could mount attacks against Jewish targets inside the United States. 
(Source: CNN, 02/16/12; Link: http://www.cnn.com/2012/02/15/us/iran-
fbi-warning/index.html?iref=allsearch).
    January 9, 2009.--Terrorist analysts report that throughout the 
world, Jewish communities will be specifically at risk from several 
``fatwas'' disseminated through Arab media and jihadist websites, 
including one instructing that ``any Jew is a legitimate target that 
can be struck by Muslims.'' (Source: European Strategic Intelligence 
and Security Center, 01/09/09).
    March 24, 2008.--Al-Qaeda's second-in-command, Ayman al-Zawahiri, 
released an audio tape on which called upon al-Qaeda followers and 
sympathizers to attack Jewish interests worldwide. The tape, part of a 
string of provocative statements by bin Laden and his senior cohorts, 
was regarded by counter terrorism experts as a new and bold escalation 
by al-Qaeda to link the Middle East conflict with immediate and urgent 
violence in the West, including against Jewish targets in the United 
States. (Source: Associated Press, 03/24/08).
    November 24, 2002.--In a ``Letter to America'' Osama bin Laden 
released soon after the 9/11 attacks, to explain his reasoning and 
intent to justify the attacks, he wrote, ``The creation and 
continuation of Israel is one of the greatest crimes, and you are the 
leaders of its criminals.'' ``This is why the American people cannot be 
innocent of all the crimes committed by the Americans and Jews against 
us.'' The letter also made clear that, to bin Laden, civilian 
populations, as with governments, were acceptable (equivalent) targets 
for retaliation. (Source: Guardian (UK), 11/24/02; Full text of the 
letter: http://www.guardian.co.uk/world/2002/nov/24/theobserver).
    June 3, 2002.--Abdul Rahman Yasin, one of the terrorists in the 
first attack on the World Trade Center in 1993, revealed in a CBS 60 
Minutes interview that the World Trade Center was not the terrorists' 
original target. Rather, they initially planned to blow up Jewish 
neighborhoods in Brooklyn. But after scouting Crown Heights and 
Williamsburg, they decided to target the World Trade Center, instead. 
The reasoning: Rather than undertaking multiple small explosions in 
Jewish neighborhoods, they figured that one big explosion in the World 
Trade Center would kill mostly Jews who they believed made up a 
majority of the workforce there, according to Yasin's statements. 
(Source: CBS News 06/02/02; Reuters, 06/03/02).
    February 2, 2002.--Shortly after the 9/11 attacks, al-Qaeda's 
training manual was translated by the Associated Press, which included 
a directive to followers to attack Jewish communal organizations and 
institutions in every country Jews exist and to carry out the attacks 
in a manner designed to cause the most causalities. It specified 
community centers, hospitals, places of worship, and wherever there are 
large gathering places of Jews. (Source: Associated Press, 02/02/02).
Recent Jewish Security Threats
    May 16, 2013.--A 22-year-old Moroccan man has been convicted and 
sentenced to 5 years and 4 months in jail for plotting a terror attack 
against a Milan synagogue. The man was arrested in March 2012 after 
police noted that the suspect had used a Google maps application to 
case security at the synagogue. (Source: The Associated Press, 05/16/
13).
    May 7, 2013.--Israeli airstrikes on Syrian missile stockpiles 
suspected to be destined for Hezbollah raise concern for retaliation 
against Jewish civilians. According to the Washington Post, ``U.S. and 
Middle Eastern officials say any retaliation would probably come in a 
familiar form: Attempted attacks by Hezbollah operatives on Israeli or 
Jewish civilian targets, perhaps far outside the Middle East.'' 
(Source: Washington Post, May 8, 2013; Link: http://
www.washingtonpost.com/world/national-security/western-officials-fear-
retaliation-for-israeli-airstrikes-in-syria/2013/05/07/2989f1a4-b72f-
11e2-92f3-f291801936b8_print.html).
    May 1, 2013.--Bomb threats were phoned in to two different Houston 
synagogues (Congregation Beth Israel and Congregation Or Ami) causing 
their schools to cancel classes, so that the FBI and Houston Police 
Department could search the institutions for explosives. When the 
buildings reopen, it was reported that they will require extra security 
personnel and police presence.
    April 8, 2013.--Ruben Ubiles, 35, who the police say has more than 
50 prior arrests, on charges including robbery, assault, and weapons 
and drug possession, was arrested for the hate-crime burning of a dozen 
Jewish doorway adornments in Williamsburg, Brooklyn, on Holocaust 
Remembrance Day. The ornaments, known as mezuzot, contain scrolls with 
Old Testament verses that are intended to bless and protect the home. 
(Source: New York Times, 04/10/13).
    March 18, 2013.--French President Francois Hollande on Sunday paid 
tribute to the 7 people who last year fell victim to terrorist Mohamed 
Merah, saying he remains committed to the fight against terrorism. A 
self-described al-Qaeda sympathizer, 23-year-old Merah murdered Rabbi 
Jonathan Sandler, his sons Aryeh and Gavriel and Miriam Monsonego at a 
Jewish school, Otzar HaTorah, in Toulouse. Before that, he murdered 
three paratroopers. (Source: Arutz Sheva, 03/18/13: Link: http://
www.israelnationalnews.com/News/News.aspx/166321).
    March 17, 2013.--Marked the 21st anniversary of the March 17, 1992 
terrorist attack that left 28 people dead and 240 wounded at the Israel 
Embassy in Buenos Aires. Two years later (July 1994) 85 members of the 
Argentine Jewish community were killed in an attack on a community 
center. This was the deadliest terror attack in Argentina's history. In 
both cases, the attackers were never caught. (Source: Arutz Sheva, 03/
17/13; Link: http://www.israelnationalnews.com/News/News.aspx/166301).
    March 15, 2013.--An Algerian man convicted of plotting to bomb 
synagogues was sentenced to 10 years imprisonment. According to New 
York City Police Commissioner Raymond Kelly, ``Ferhani posed a real 
threat to New York's Jewish community, eagerly purchasing a hand 
grenade, two guns and 150 rounds of ammunition from an undercover 
officer as part of Ferhani's stated intention to attack and then blow 
up a synagogue in Manhattan, and take out the whole entire building.'' 
(Source: CNN, 03/15/13).
    January 30, 2013.--A new policy paper from the Washington Institute 
for Near East Studies finds that Iran's elite Qods Force and Hezbollah 
militants pose a growing threat to the United States, fueling worries 
that they increasingly have the ability and willingness to attack the 
United States, and, in particular, Jewish targets. Among the most 
likely scenarios, stated the report, ``an attack targeting a location 
affiliated with a Jewish community abroad'', such as the report noted, 
the 1994 bombing of AMIA Jewish community center in Buenos Aires. 
(Source WINES, January 30, 2013; Link: http://
www.washingtoninstitute.org/uploads/Documents/pubs/PolicyFocus123.pdf).
    January 23, 2013.--The Congressional Research Service published a 
comprehensive analysis on the complex threat of American Jihadist 
Terrorism, including particular threats to Jewish communal security: 
(1) The 2005 plot by the group Jamiyyat Ul-Islam Is-Saheeh, to attack 
Jewish institutions, including synagogues, and military recruiting 
offices and military bases, which the report described as the ``most 
prominent post-9/11 example of domestic violent jihadist activity 
inspired in prison;'' (2) The 2009 Newburgh Four case, which involved a 
plot to trigger explosive in front of a synagogue and Jewish community 
center and to shoot down military aircraft; (3) The 2011 grenade plot 
by Ahmed Ferhani, an Algerian, and Mohamed Mamdouth, a naturalized U.S. 
citizen from Morocco, who plotted to blow up prominent synagogues in 
New York City; and (4) The 2012 bombing plot by Amine El Khalifi, a 
Moroccan citizen living in the United States on an expired B2 tourist 
visa, who targeted the U.S. Capitol, a synagogue, and a restaurant that 
was frequented by U.S. military personnel. (Source: CRS, 01/23/13; 
Link: http://www.fas.org/sgp/crs/terror/R41416.pdf).
    January 16, 2013.--The FBI warned the Detroit Jewish community of 
potential risks after discovering in the home of a known white 
supremacist and convicted murderer, Richard Schmidt, 18 firearms 
including assaults weapons, high-capacity magazines, and more than 40 
thousand rounds of ammunition; Nazi paraphernalia; a ``Jewish hit-
list'' of 500 Jewish-owned businesses; and detailed information on the 
leadership of the Jewish Federation of Metropolitan Detroit and 
diagrams of the facility. (Source: U.S. Attorney, Ohio, 01/16/13; Link: 
http://www.justice.gov/usao/ohn/news/2013/16janschmidt.html).
Historic Record of Threats
    December 4, 2012.--A man from Queens accused of plotting to blow up 
a synagogue in Manhattan ended on Tuesday when the man, Ahmed Ferhani, 
pleaded guilty to 10 charges, including conspiracy as a crime of 
terrorism and criminal possession of a weapon as a crime of terrorism. 
He was arrested immediately after making a downpayment in exchange for 
a hand grenade, three semiautomatic pistols and 150 rounds of 
ammunition. (Source: New York Times, 12/04/12; Link: http://
www.nytimes.com/2012/12/05/nyregion/ahmed-ferhani-pleads-guilty-in-
plot-to-blow-up-synagogue.html).
    July 20, 2012.--New York police believe Iranian Revolutionary 
Guards or their proxies have been involved so far this year in nine 
plots against Israeli or Jewish targets around the world. According to 
NYPD analysts, ``through its own Revolutionary Guard and Hezbollah,'' 
Iran had ``sharply increased its operational tempo and its willingness 
to conduct terrorist attacks targeting Israeli interests and the 
International Jewish community worldwide''. (Source: Reuters, 07/20/12; 
Link: http://www.reuters.com/article/2012/07/20/us-iran-hezbollah-
plots-idUSBRE86- J0SW20120720).
    June 22, 2012.--The FBI announced the 11.5-year sentence for 
American Jess Curtis Morton, aka Younus Abdullah Muhammed, for running 
several internet sites in the United States to solicit attacks and 
future threat against Jewish organizations in the United States. His 
co-conspirator lived in Fairfax, VA (less than 20 miles from Capitol 
Hill). The websites Morton ran perpetuated al-Qaeda-produced propaganda 
and included hit lists. (Source: U.S. Attorney's Office/Eastern 
District of Virginia, 06/22/12; Link: http://www.fbi.gov/washingtondc/
press-releases/2012/leader-of-revolution-muslim-sentenced-to-138-
months-for-using-internet-to-solicit-murder-encourage-violent-
extremism?utm_campaign=email-Immediate&utm_- 
medium=email&utm_source=washington-press-releases&utm_content=108401).
    June 20, 2012.--This week, the New York Post described a new 
``Crime Wave'' against Brooklyn's Jewish community when it reported 
several synagogue thefts and anti-Semitic vandalism targeting 
synagogues and Jewish neighborhoods. (Source: New York Post, 06/20/12; 
Link: http://www.nypost.com/p/news/local/brooklyn/
anti_jewish_crime_wave_GNiQRau6jWlgBeqM7ugEBO; Forward, 06/05/12; Link: 
http://m.forward.com/articles/157280).
    June 5, 2012.--According to Homeland Security Secretary Janet 
Napolitano, ``Jews face special risks that require vigilance.'' She 
also stated that, during her tenure at DHS, threats to the Jewish 
community came from foreign entities, home-grown extremists, and 
domestic hate groups. (Source: The Forward, 06/05/12: Link: http://
forward.com/articles/157280/jews-face-special-risks-napolitano-says/
?p=all).
    May 3, 2012.--On the anniversary of the bin Laden raid, the U.S. 
Government released a sampling of documents. Only one pertained to 
approving funding for terrorism--the approval of a request by a 
militant group to purchase and manufacture weapons, and to support 
operations against the Jewish community. (Source: CNN, May 3, 2012; 
Link: http://edition.cnn.com/2012/05/03/world/osama-bin-laden-
documents/index.html).
    April 23, 2012.--Meanwhile, the United States just placed a $10 
million bounty on Hafeez Saeed, the leader of Lashkar-i-Taiba, an al-
Qaeda-affiliated militant group, and the mastermind behind the 2008 
Mumbai, India massacre. A paramount objective of the massacre was an 
attack on that city's Jewish community center and the torture and 
murder of its Jewish civilians. Saeed remains at-large. (Source: Pro 
Publica, 04.03.12; Link: http://www.propublica.org/article/10-million-
bounty-for-alleged-mumbai-plotter-ups-pressure-on-pakistan).
    March 26, 2012.--The livery driver whose two-gun attack on a group 
of Hasidic students on the Brooklyn Bridge shocked the city 18 years 
ago has finally admitted that he targeted them because they were 
Jewish, The Post has learned. Rashid Baz was convicted in 1995 of 
murdering Yeshiva student Ari Halberstam, 16, and trying to kill more 
than a dozen others in a van with a hail of bullets he fired on a 
Manhattan approach to the bridge on March 1, 1994. (Source: New York 
Post, 03/26/2012; Link: http://www.nypost.com/p/news/local/
killer_Jews_my_target_gOgy- Ds9rPP92Z5irlUqK1H).
    March 26, 2012.--According to the Associated Press this morning, 
French authorities are defending criticism that their counterterrorism 
authorities and laws failed in preventing an Islamic terrorist attack 
that killed paratroopers, Jewish children, and a rabbi (teacher) in 
front of a Jewish school in Toulouse, France. The general reaction from 
Europol, and a growing chorus of other European terrorist authorities, 
is that home-grown extremists are hard to track and stop; combating 
individuals acting in isolation will be tough and problematic; and it 
will be hard for police to apprehend them before they attack. (Source: 
Associated Press, 03/26/12).
    February 17, 2012.--The FBI announced the indictment of Amine El 
Khalifi, an illegal immigrant from Morocco, for attempting a suicide 
attack on the Capitol. According to the indictment, El Khalifi had 
first indicated his intention to blow up a Jewish civilian target--a 
synagogue. (Sources: FBI WFO; Link: http://www.fbi.gov/washingtondc/
press-releases/2012/virginia-man-accused-of-attempting-to-bomb-u.s.-
capitol-in-suicide-attack?utm_campaign=email?Immediate&utm_medium=- 
email&utm_source=washington-press-releases&utm_content=72268; Criminal 
Complaint Link: http://www.washingtonpost.com/wp-srv/world/documents/
amine-el-khalifi-criminal-complaint.html).
    February 16, 2012.--With tensions between Iran and the West running 
high, law enforcement officials are concerned Iran or its surrogates 
could mount attacks against Jewish targets inside the United States. 
(Source: CNN, 02/16/12; Link: http://www.cnn.com/2012/02/15/us/iran-
fbi-warning/index.html?iref=allsearch).
    February 15, 2012.--A statement by House Homeland Security 
Committee Chairman Peter King called attention to the ``almost imminent 
threat posed by Hezbollah quite possibly to Jewish houses of worship 
and religious institutions.'' (Source: Hearing: An Examination of the 
President's Fiscal Year 2013 Budget Request for the Department of 
Homeland Security; Link: http://homeland.house.gov/hearing/hearing-
examination-presidents-fy-2013-budget-request-department-homeland-
security).
    February 14, 2012.--With Iran allegedly striking out at Israeli 
citizens and Jewish targets around the world, Israeli and American 
security officials in the United States are on high alert. According to 
Frank Cilluffo, director of the Homeland Security Policy Institute at 
George Washington University in the District of Columbia, the recent 
incidents in India, Georgia, Thailand, and Azerbaijan have ``all the 
hallmarks of a concerted campaign'' that could extend to U.S. soil. As 
such, the NYPD has adjusted its counterterrorism posture to include 
increased presence in recent weeks at Israeli government facilities and 
synagogues. Furthermore, around the country, private security industry 
officials report numerous requests for Jewish institutional security. 
(Source: ABC News; Link: http://abcnews.go.com/Blotter/heightened-
security-us-iran-threat/story?id=15592451).
    February 14, 2012.--In a lead story, the New York Times reported on 
the escalation of threats posed by Iran (and its proxies)--meaning 
violent actions taken against Jewish targets outside of the region. The 
article followed recent plots and attacks that have increased the 
concern of American Jewish leaders for the safety and security of 
Jewish community centers and synagogues within the United States, and 
the article reminds that an attack on the Mumbai Jewish community 
center led to the torture and death of a number of Jewish American 
civilians in 2008. (Source: New York Times, 02/14/12; Link: http://
www.nytimes.com/2012/02/14/world/middleeast/israeli-embassy-officials-
attacked-in-india-and-georgia.html?_r=2&ref=- world&pagewanted=print).
    February 14, 2012.--Convicted arsonist/bomber Omar Bulphred, 26, 
will serve his full 7-year prison term for hate crimes--including the 
firebombing of a Jewish school for children and attempted bombing of a 
Jewish community center--will remain behind bars for his entire 
sentence as he continues to pose a serious problem for Correctional 
Service Canada (CSC). While investigating the fires, police found 
letters in which Bulphred and an accomplice declared jihad and demanded 
the liberation of their ``brothers''--a group of men arrested on 
terrorism charges in Toronto. (Source: The Gazette (Montreal); Link: 
http://www.montrealgazette.com/news/todays-paper/
Hate+crime+convict+refused+early+release/6148040/story.html).
    February 10, 2012.--Nine extremists who ``were well advanced in 
their terrorist planning'' were convicted. ``The men possessed almost 
every famous jihadi publication, including copies of Inspire, an 
English language internet magazine produced by Yemen-based extremist 
cleric Anwar al-Awlaki's group al-Qaeda in the Arabian Peninsula.'' 
According to the prosecution, ``These men were motivated to act as they 
did in large part by extreme jihadist propaganda circulated on the 
internet.'' Convicted for planning a ``Mumbai''-style attack that 
included targeting the Jewish community, one of the group's leaders and 
his brother, ``were bugged claiming that fewer than 100,000 Jews'' died 
in the Holocaust and talking about how Hitler ``had been on the same 
side as the Muslims'' because he understood that ``the Jews were 
dangerous''. (Source: http://www.mirror.co.uk/news/uk-news/british-
terror-gang-that-plotted-to-blow-680112).
    February 9, 2012.--The leader of ``Revolution Muslim'' pleaded 
guilty to using the internet to solicit murder and encourage violent 
extremism against Jews. (Source: The FBI; Link: http://www.fbi.gov/
washingtondc/press-releases/2012/leader-of- revolution-muslim-pleads-
guilty-to-using-internet-to-solicit-murder-and-encourage-violent-
extremism-utm_campaign=email-Immediate&utm_medium=email&utm- 
_source=washington-press-releases&utm_content=69655).
    February 1, 2012.--Four defendants inspired by al-Qaeda have 
admitted planning to detonate bombs--Mumbai-style--at five symbolic 
sites including the U.S. Embassy, the Palace of Westminster (both well-
fortified institutions), and two prominent rabbis from separate 
synagogues. The men reportedly admitted to being inspired by the 
preachings of the radical al-Qaeda extremist Yemeni American imam Anwar 
al-Awlaki and to being in possession of two editions of al-Qaeda 
magazine Inspire for terrorist purposes. (Source: BBC News, link: 
http://www.bbc.co.uk/news/uk-16833032).
    January 25, 2012.--A joint attack by Iran and Hezbollah against 
Jewish targets in Bangkok, Thailand, had been stopped, where the 
operative in custody reportedly confessed to having intended to blow up 
a synagogue and the Israeli Embassy. Moreover, the New York Times story 
reported that Iran and Hezbollah have also planted some 40 terrorist 
sleeper cells around the world, ready to attack Jewish targets if Iran 
deems it necessary to retaliate against efforts to thwart its nuclear 
ambitions. (Source: The New York Times Magazine, 01/25/12; link: http:/
/www.nytimes.com/2012/01/29/magazine/will-israel-attack-
iran.html?scp=1&sq=- 
six%20key%20strikes%20thought%20to%20be%20made%20by%20the%20mossad- 
&st=cse).
    January 13, 2012.--Federal-elected officials from North Jersey and 
across the State pledged resources in the investigation into the 
firebombing of a Rutherford synagogue at a meeting convened to discuss 
safety at Jewish temples Thursday night. (Source: New Jersey On-line; 
Link: http://www.nj.com/bergen/index.ssf/2012/01/
officials_pledge_federal_resources_for_investigation_into_temple- 
_firebombing_bias_crimes.html).
    December 2, 2011.--Homeland Security Director Janet Napolitano and 
Attorney General Eric Holder met with their counterparts from Britain 
and other European partners to discuss issues of points of cooperation 
in fighting terrorism. In seeking this meeting to improve the U.S.-E.U. 
partnership to combat global terrorism, the Secretary pointed to the 
success of shared efforts in aiding the investigation and prosecution 
of American David Headley, the mastermind behind the deadly attack on 
the Mumbai Jewish Community Center just over 3 years ago--November 27, 
2008. (Sources: Associated Press; Link: http://www.cbsnews.com/8301-
201_162-57336080/napolitano-lone-wolf-terror-threat-growing/).
    December 2, 2011.--Jubair Ahmad, 24, a native of Pakistan and 
resident of Woodbridge, VA, pleaded guilty of providing material 
support to Lashkar-e-Tayyiba (LeT), a designated foreign terrorist 
organization. ``By preparing and posting a graphic video that glorified 
violent extremism, Mr. Ahmad directly supported the mission of a 
designated terrorist organization,'' said FBI Assistant Director in 
Charge McJunkin. ``The FBI will track down and disrupt those who 
communicate with terrorist groups for the purpose of recruiting others 
to inflict harm on the U.S. and its interests overseas.'' Ahmad 
considered including images of the Mumbai attack to show the power of 
LeT. This is a reference to LeT's operation against the city of Mumbai, 
India, on Nov. 26, 2008, which resulted in the death of over 160 
people, including a number of Jewish Americans killed at the targeted 
Jewish Community Center. (Source: U.S. Attorney, Eastern District of 
Virginia; Link: http://www.fbi.gov/washingtondc/press-releases/2011/
virginia-man-pleads-guilty-to-providing-material-support-to-terrorist-
organization?utm_campaign=email-Immed- 
iate&utm_medium=email&utm_source=washington-press-releases&utm- 
_content=53207).
    November 14, 2011.--The FBI released hate crimes data for 2010. As 
has been the case since the FBI first began reporting incidents of hate 
crimes, approximately 70% of all religious bias crimes are committed 
against Jewish institutions and civilians in the United States. 
(Source: FBI Hate Crime Statistics: http://www.fbi.gov/about-us/ciis/
ucr/hate-crime/2010).
    November 9, 2011.--The Cold War's most notorious international 
terrorists, Ilich Ramirez Sanchez (aka ``Carlos the Jackal''), went on 
trial in France, on charges of instigating four attacks in 1982 and 
1983. Sanchez's first terrorist strike was an assassination attempt 
against major British philanthropist of Jewish charities, Joseph Sieff. 
Sanchez gained entrance into Sieff's home by gunpoint, and shot the 
past vice-president of the British Zionist Federation at point-blank 
range in the face. (Sources: Associated Press; Link: http://m.ctv.ca/
topstories/20111107/carlos-ilich-ramirez-sanchez-jackal-terror-trial-
france-111107.html and TruTV; Link: http://www.trutv.com/library/crime/
terroristsspies/terrorists/jackal/1.html).
    January 17, 2011.--Five synagogues and a Jewish school in a Jewish 
enclave in Montreal were attacked in a single night. Condemning the 
attack, the Liberal Leader, Michael Ignatieff, remarked, ``Our thoughts 
and prayers are with Jewish communities across Canada that once again 
have been made to feel that their congregations and the children in 
their schools have cause to fear for their safety.'' (Sources: The 
Globe and Mail (Canada), 01/17/11).
    October 29, 2010.--Al-Qaeda in the Arabian Peninsula attempted to 
ship air cargo bombs addressed to Chicago-based synagogues. (Source: 
MSNBC, 10/29/10).
    January 20, 2010.--FBI Director Robert Mueller testified before the 
Senate Committee on the Judiciary that al-Qaeda; self-directed groups 
linked to terror organizations; and self-radicalizing, self-executing 
homegrown terrorists remained determined to strike the country and the 
threat has not diminished. (Source: http://judiciary.senate.gov/pdf/10-
01-20Mueller'sTestimony.pdf, 01/20/10).
    December 28, 2009.--The FBI Year in Review chronicled the U.S. top 
terror cases, including: The arrest of David Coleman Headley, a U.S. 
citizen, for his role in planning the 2008 Mumbai attacks, where six 
Americans (4 Jewish) were killed; the arrest of four radicalized 
individuals for attempting to blow up a Riverdale, New York synagogue 
and Jewish community center; the deadly shooting at the Holocaust 
Museum in Washington, DC; and the attack on an Army recruiting center 
in Little Rock, Arkansas, by an assailant who was also found to be 
targeting Jewish sites in Little Rock, Philadelphia, Atlanta, New York, 
Louisville, and Memphis. (Source: FBI Release, 12/28/09; Link: http://
www.fbi.gov/page2/dec09/review122809.html).
    December 15, 2009.--The House Homeland Security Subcommittee on 
Intelligence, Information Sharing, and Terrorism Risk held a hearing on 
the emergence of violent extremism and domestic terrorism in the United 
States. In her opening remarks, Chairwomen Jane Harman (D-CA) focused 
on two infamous plots and attacks against Jewish communal interests at 
home and abroad: (1) The plot by Jami'yyat Ul-Islam Is-Shaheeh, a 
prison-founded radical Muslim group, to attack prominent synagogues and 
other Jewish iconic sites in the Los Angeles area; and (2) The massacre 
in Mumbai, India, where American David Headley is now accused by 
Federal law enforcement officials of having helped to identify and 
surveil for attack, among others, the Chabad House Jewish community 
center, whose director, Rabbi Gavriel Noach Holtzberg, his wife, unborn 
child, and four others were tortured and killed. (Source: House 
Homeland Security Subcommittee on Intelligence, Information Sharing, 
and Terrorism Risk, 12/15/09; Link: http://homeland.house.gov/Hearings/
index.asp?ID=229).
    September 13, 2009.--Osama bin Laden warned the American people 
over their Government's close ties with Israel. In the tape, bin Laden 
warned, ``If you stop the war, then fine. Otherwise we will have no 
choice but to continue our war of attrition on every front.'' (Source: 
Washington Post, 09/13/09).
    August 17, 2009.--A man was sentenced to 70 months in prison today 
for his role in a domestic terrorism plot to wage war on the United 
States by attacking Jewish synagogues and military bases. Hammad Riaz 
Samana is the fourth member of Jami'yyat Ul-Islam Is-Shaheeh, or JIS, a 
prison-founded radical Muslim group that wanted to make a political 
statement that also had plans to attack the Israeli consulate in Los 
Angeles and El Al Israel Airlines at the Los Angeles International 
Airport. (Source: The Orange County Register, 08/17/09).
    June 16, 2009.--Critical aspects of the nonprofit sector are 
particularly vulnerable and regular targets of terrorist groups and 
radicalized home-grown individuals. A number of incidents make this 
point clear. In remarking on the June 10, 2009, attack at the U.S. 
Holocaust Memorial Museum by a radical right-wing fanatic, Secretary 
Napolitano stated that the attack underscored the need for the 
Nonprofit Security Grant Program, so that high-risk nonprofits can take 
their own security measures. (Sources: Remarks by Secretary Napolitano 
Announcing Fiscal Year 2009 FEMA Preparedness Grants, Release, 06/16/
09).
    June 3, 2009.--The Arkansas man convicted of killing an Army 
recruiter and wounding another had used the popular Google Maps 
application to investigate recruiting centers in at least five States, 
as well as Jewish institutions in Little Rock, Philadelphia, Atlanta, 
New York, Louisville, and Memphis. (Source: ABC News, 06/03/09).
    April 7, 2009.--Two accusatory tactics associated with the current 
rise in right-wing radicalization and the potential for violence are 
aimed at the Jewish community. The first is a belief in anti-Government 
conspiracy theories related to a Jewish-controlled ``one world 
government.''--The second is a prevalence of right-wing extremist 
chatter on the internet that focuses on the perceived loss of U.S. jobs 
in the manufacturing and construction sectors, and home foreclosures 
they attribute to a deliberate conspiracy conducted by a cabal of 
Jewish ``financial elites.'' (Source: Rightwing Extremism: Current 
Economic and Political Climate Fueling Resurgence in Radicalization and 
Recruitment, Office of Intelligence Assessment and Analysis, Department 
of Homeland Security, April 7, 2009.)
    April 4, 2009.--The New York Police Department beefed up security 
at the city's synagogues and other Jewish sites amid escalating 
tensions between Israel and Iran. Concerns that Muslim extremist groups 
might retaliate against civilians in the city's Jewish community if 
Israel were to attack Iran's nuclear facilities prompted the NYPD to 
put together a response plan that includes deploying extra officers, 
including heavily armed ``Hercules Teams,'' to synagogues, Jewish 
community centers, and Israeli diplomatic offices. (Source: Jerusalem 
Post, 04/04/09).
    March 24, 2009.--A British terrorist cell with alleged links to al-
Qaeda discussed bombing revelers at a large central London nightclub as 
well as targeting several synagogues in London and one in Manchester, 
according to prosecutors. One of the defendants, Salahuddin Amin, even 
discussed trying to buy a radio-isotope ``dirty bomb'' from the Russian 
mafia. (Fox News, 03/31/09; European Jewish Press, 03/24/09).
    February 23, 2009.--FBI Director Robert S. Mueller III warned that 
extremists ``with large agendas and little money can use rudimentary 
weapons'' to sow terror, raising the specter that recent attacks in 
Mumbai that killed 170 people (including victims at the Chabad House 
Jewish community center) could embolden terrorists seeking to attack 
U.S. cities. Mueller said that the bureau is expanding its focus beyond 
al-Qaeda and into splinter groups, radicals (who come in through the 
visa waiver program) and ``home-grown terrorists.'' He warned that 
``melting-pot'' communities in Seattle, San Diego, Miami, or New York 
were of particular concern. (Source: Washington Post, 02/23/09).
    February 2, 2009.--According to Michael J. Heimbach, assistant 
director of the FBI's Counterterrorism Division, al-Qaeda and like-
minded individuals are still the country's No. 1 concern in 2009, and 
that there is significant intelligence out there that indicates their 
focus remains on the United States. Threats from Hamas and Hezbollah 
are quite concerning to the United States as well, he stated. In 
addition, he acknowledged that home-grown extremism is still a 
significant focus of the FBI, and that we can't lose sight of the 
domestic terrorism issues, such as White supremacists and neo-Nazi 
group, who need to remain on the FBI's radar. (Source: WTOP (New York), 
02/02/09).
    January 9, 2009.--Terrorist analysts report that throughout the 
world, Jewish communities will be specifically at risk--from several 
``fatwas'' disseminated through Arab media and jihadist websites, 
including one instructing that ``any Jew is a legitimate target that 
can be struck by Muslims.'' (Source: European Strategic Intelligence 
and Security Center, 01/09/09).
    January 6, 2009.--Al-Qaeda's second-in-command, Ayman al-Zawahiri, 
called on Muslims to strike at Jewish targets in the West and around 
the world. (Source: Reuters, 01/06/09).
    January 5, 2009.--Hamas leader, Mahmoud Zahar, called on 
Palestinian sympathizers to target Jews abroad (including their 
children) in response to Israel's incursion into Gaza. (Source: 
Associated Press, 01/05/09).
    May 21, 2009.--The Federal Bureau of Investigation and other 
cooperating law enforcement agencies arrested four Muslim men as they 
attempted to carry out a plot to bomb a synagogue and Jewish community 
center in Riverdale, New York. Law enforcement sources are calling it a 
home-grown terrorist plot. (Source: NBC News; Los Angeles Times, 05/21/
09).
    January 1, 2009.--For the third time in a year, a Jewish pre-school 
was defaced by swastikas and hate speech. Investigators are exploring 
whether they might be related to Israeli's conflict with Hamas 
militants in Gaza. (Source: Ventura County Star, 01/01/09).
    January 1, 2009.--Jewish day schools in Chicago received a bomb 
threat in the mail. The letter was sent to the Chicago offices of the 
Associated Talmud Torahs and the Ida Crown Jewish Academy. (Source: 
WBBM newsradio 780; JTA World Report, 01/01/09).
    September 15, 2008.--Top counterterrorism officials at the U.S. 
Department of State reiterated a growing refrain among American 
intelligence agencies that Hezbollah is emerging as an increased threat 
to the United States (Associated Press, September 15, 2008). The story 
followed reports in August 2008 that deepening ties between Iran and 
Venezuela may lead to the establishment of a new Hezbollah front in the 
Western Hemisphere to carry out abductions and attacks against Jewish 
targets (Source: Los Angeles Times, August 27, 2008). Similar reports 
in June 2008 pointed to warnings raised by intelligence agencies in the 
United States and Canada that Hezbollah sleeper cells are operating 
along the U.S. border with Canada, and are poised to mount terror 
attacks against Jewish targets in the West (Source: ABC News, June 19, 
2008).
    April 9, 2008.--The U.S. House of Representatives Select Committee 
on Intelligence held a hearing on ``Assessing the Fight Against al 
Qaeda.'' On the subject of tactics and targeting al-Qaeda will use in 
the future, counterterrorism experts testified that since 9/11 al-Qaeda 
and its affiliated groups have directed an ``intensified campaign'' 
against Jewish targets. Moreover, since 2004, Osama bin Laden has moved 
the Israeli-American alliance to the center of his justification for 
al-Qaeda's attacks against the West. (Source: U.S. House of 
Representatives Select Committee on Intelligence, 04/09/08; Link: 
http://intelligence.house.gov/Media/Word/Bergen040908.doc).
    March 4, 2008.--Al-Qaeda's second-in-command, Ayman al-Zawahiri, 
released an audio tape on March 24, 2008, which called upon al-Qaeda 
followers and sympathizers to attack Jewish interests world-wide. The 
tape, part of a string of provocative statements by bin Laden and his 
senior cohorts, was regarded by counter-terrorism experts as a new and 
bold escalation by al-Qaeda to link the Middle East conflict with 
immediate and urgent violence in the West, including against Jewish 
targets in the United States. (Source: Associated Press, 03/04/08).
    February 16, 2008.--With known Hezbollah fundraisers and supporters 
in the United States, U.S. counterterrorism authorities have been 
particularly concerned about the threat of Hezbollah sleeper cells 
against synagogues and other potential Jewish targets in the United 
States. On February 14, 2008 the FBI put 101 Nation-wide Joint 
Terrorism Task Forces on alert for potential threats against the Jewish 
community by Hezbollah operatives. (AP, February 14, 2008). A day 
later, the FBI and the Department of Homeland Security sent out a rare 
joint bulletin to State and local law enforcement authorities advising 
them to watch for strikes by Hezbollah against Jewish targets, as well. 
(Source: Los Angeles Times, 02/16/08).
    January 15, 2008.--The Wall Street Journal reported a policy shift 
within the White House (and among its allies) to place greater pressure 
on the Iranian regime through an investigation that centers on the 1994 
bombing of the AIMA Jewish Community Center in Buenos Aires, Argentina. 
In an effort to redefine its Iran policy, the administration's focus on 
the JCC bombing, ``Serves as a model for how Tehran has used its 
overseas embassies and relationships with foreign militant groups, in 
particular Hezbollah, to strike at its enemies.'' (Source: Wall Street 
Journal, 01/15/08).
    May 1, 2007.--Convicted British home-grown Islamic terrorists with 
links to the 2005 London subway bombings were in advanced stages of 
planning, and were targeting synagogues for attack when they were 
arrested. (Source: CNN.com, 05/01/07).
    February 13, 2007.--Osama bin Laden's last known personally-
authorized terror attacks were made against two Jewish synagogues in 
Istanbul. The simultaneous attacks, in 2003, killed 27 people and 
injured more than 300. (Source: Washington Post, 02/13/07).
    The FBI warned Jewish community leaders that Hezbollah operatives 
were conducting surveillance on numerous synagogues and Jewish 
community centers for possible terrorist attacks in the United States. 
(Source: New York Post, 07/19/06).
    October 10, 2006.--Home-grown Islamic militants were convicted of 
plotting terrorist attacks against prominent synagogues and other 
Jewish iconic sites in Los Angeles. FBI Director Mueller reported that 
the group was ready to strike when they were brought down. The plot is 
considered by counterterrorism officials to be the closest to 
operationalization since 9/11. Of particular concern, the groups' 
clandestine terrorist activities were discovered serendipitously during 
a police investigation into a string of gas station robberies that only 
later were connected to the funding of the terrorist operation. 
(Source: Department of Justice Releases, 7/24/08; 12/14/07; 
International Herald Tribune 10/10/06).
    July 28, 2006.--Naveed Haq was found guilty of murder and hate 
crimes in his second trial for a 2006 shooting spree at the Jewish 
Federation of Greater Seattle. On July 28, 2006, Haq, a Muslim 
American, attacked the Federation, a center of Jewish communal life and 
supporter of social welfare, youth, and adult education programs. Of 
the 6 women he gunned down, one was 17 weeks pregnant and another, 
Pamela Waechter, died of her wounds. At trial evidence was presented 
that ``he railed against Jews and U.S.-Israeli policies as he opened 
fire in the Jewish Federation,'' and that in telephone calls recorded 
by the King County Jail, Haq told his mother he was ``a soldier of 
Islam.'' (Source: Associated Press, 12/15/09; The Seattle Times, 12/15/
09; Seattle Post-Intelligencer, 08/06/08; 2008; The Seattle Times, 02/
21/08; 07/29/06).
    May 31, 2005.--Department of Justice convicted an Iraqi-American 
who had obtained illegal machine guns and targeted Jewish communal 
sites in Nashville, Tennessee. (Source: Department of Justice Release, 
10/08/04; Associated Press, 05/31/05).
    April 13, 2004.--Terrorists responsible for the Madrid train 
bombings in March 2004 also were planning additional attacks on a 
Jewish community center outside of Madrid, home to the largest Jewish 
population in Spain, according to evidence gathered in the 
investigation. (Source: New York Times; CNN.com, 04/13/04).
    November 24, 2002.--In a ``Letter to America'' Osama bin Laden 
released soon after the 9/11 attacks, to explain his reasoning and 
intent to justify the attacks, he wrote, ``The creation and 
continuation of Israel is one of the greatest crimes, and you are the 
leaders of its criminals.'' ``This is why the American people cannot be 
innocent of all the crimes committed by the Americans and Jews against 
us.'' The letter also made clear that, to bin Laden, civilian 
populations, as with governments, were acceptable (equivalent) targets 
for retaliation. (Source: Guardian (UK), 11/24/02; Full text of the 
letter: http://www.guardian.co.uk/world/2002/nov/24/theobserver.)
    June 3, 2002.--Abdul Rahman Yasin, one of the terrorists in the 
first attack on the World Trade Center in 1993, revealed in a CBS 60 
Minutes interview that the World Trade Center was not the terrorists' 
original target. Rather, they initially planned to blow up Jewish 
neighborhoods in Brooklyn. But after scouting Crown Heights and 
Williamsburg, they decided to target the World Trade Center, instead. 
The reasoning: Rather than undertaking multiple small explosions in 
Jewish neighborhoods, they figured that one big explosion in the World 
Trade Center would kill mostly Jews who they believed made up a 
majority of the workforce there, according to Yasin's statements. 
(Source: CBS News 06/02/02; Reuters, 06/03/02).
    January 2, 2002.--Al-Qaeda's training manual, translated by the 
Associated Press, directed followers to attack Jewish organizations and 
institutions in every country Jews exist and to carry out the attacks 
in a manner designed to cause mass causalities. (Source: Associated 
Press, 02/02/02).

    Mr. King. Other Members of the subcommittee may introduce 
opening statements for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 18, 2013
    Mr. Chairman, I would like to thank you for holding this hearing on 
AQAP, and I thank the witnesses for appearing today.
    For the past 2\1/2\ years, democracy has been on the march in North 
Africa and the Middle East. Yemen, the poorest country in the Arab 
world, has seen a change in leadership as its former President Ali 
Abdallah Saleh was forced to transfer power to Abd Hadi. Yemen is one 
of the places that has seen its share of unrest--which continues to 
make it ripe for al-Qaeda in the Arabian Peninsula (AQAP) to thrive.
    However, strides made by the Obama administration have made life 
more difficult for AQAP. Through drone strikes, several high-profile 
AQAP senior leaders including Anwar al-Awlaki, have been killed. Even 
though these drone strikes have eliminated senior AQAP leadership, 
these targeted strikes have killed Americans. The administration knows 
this is a reality and the Department of Justice has issued a guidance 
for the use of targeted strikes against Americans abroad.
    Once again, 12 years after 9/11, we fall on the side of security 
which is a vivid reality in the world in which we live. Even though 
AQAP's operations appear to have diminished, it has not prevented the 
organization from restrategizing and remaining a threat to the United 
States. The deaths of al-Awlaki and Khan have been detrimental to its 
publication Inspire magazine. The syntax and grammar is not as amenable 
to an American audience. But that does not prevent the magazine from 
celebrating the Boston bombing or sympathizing with lone wolves.
    Targeted killings also did not prevent AQAP from issuing a threat 
considered credible by U.S. intelligence officials. This threat 
prompted the closure of several embassies in the Middle East and North 
Africa for several days in early August.
    See with AQAP, the game is the same, yet the methods are different. 
AQAP's ability to incite panic and economic devastation still plagues 
the United States. Even though AQAP's large-scale plots--such as the 
Christmas day bombing of 2009--have been unsuccessful, they still 
impact the way we travel and at a significant economic cost. The 
economic cost of terrorism is something that cannot be overlooked. We 
cannot call attacks that do not yield a loss of life unsuccessful when 
we continue to go into debt as a country and when we change our lives 
due to close calls. AQAP knows this and since its capabilities have 
diminished, it can certainly use this as leverage.
    I am not advocating ignoring credible threats and standing in the 
face of danger. These threats can not be ignored. But what also can not 
be ignored is the cost of terrorism and terrorist threats. The methods 
currently used to decrease AQAP's presence and reach to the United 
States still haven't prevented the organization from causing 
devastation to not only our lives but also our economy.
    I look forward to hearing the witnesses' testimony about the 
strength and reach of this organization.
    I yield back.

    Mr. King. We are pleased to have a distinguished panel of 
witnesses before us today on this vital topic: Mr. Frank 
Cilluffo and Ms. Katherine Zimmerman and Mr. Brian Katulis.
    Beginning with Frank Cilluffo who is an old friend and 
testified before this committee a number of times. I say an old 
friend, old friend of the committee because he has always been 
available to any of us whenever we need assistance or 
information.
    He is an associate vice president at the George Washington 
University where he is the director of the Homeland Security 
Policy Institute. The institute is a nonpartisan think tank 
that builds bridges between theory and practice to advance 
homeland security policy and focuses on counterterrorism and 
counter-radicalization efforts, cyber threats and deterrence, 
and the nexus between crime and terrorism.
    Mr. Cilluffo joined the faculty at George Washington in 
2003 from the White House where he served as special assistant 
to the President for homeland security, and prior to his White 
House appointment, Mr. Cilluffo spent 8 years in senior policy 
positions with the Center for Strategic and International 
Studies.
    Mr. Cilluffo, you are recognized for 5 minutes.

   STATEMENT OF FRANK J. CILLUFFO, ASSOCIATE VICE PRESIDENT, 
   DIRECTOR, HOMELAND SECURITY POLICY INSTITUTE, THE GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Cilluffo. Well, thank you, Mr. Chairman, and thank you 
for the kind introduction.
    Ranking Member Higgins, thank you for the opportunity to 
testify before you today.
    I will be brief. There are a lot of issues to cover. But 
when you are looking at the terrorism threat today I think, Mr. 
Chairman, you hit it spot on that the threat has metastasized. 
It comes in various shapes, sizes, flavors, and form ranging 
from al-Qaeda senior leadership, which is still entrenched in 
federally-administered tribal areas led by Ayman al-Zawahiri to 
its many affiliates, including al-Qaeda in Iraq, which has been 
resurgent, to Boko Haram in Nigeria, Ansar al-Dine in Mali, al-
Shabaab in Somalia, and of course the focus of today's hearing, 
al-Qaeda in the Arabian Peninsula in Yemen.
    If you have noticed, these are all in under-governed 
spaces, and you are talking about huge swaths of territory and 
land. So I think that anyone who thinks that since the death of 
Osama bin Laden, yes, he may be dead, but the witch lives on. 
Unfortunately it comes in various forms.
    I also think it is important that now, when all eyes are 
fixed on Syria, that we not forget that we have other threats 
out there, including one that just a month ago had a very 
active threat stream. So I think it is important to keep our 
eye on the ball.
    Firstly, why al-Qaeda in the Arabian Peninsula? As was 
noted by Ranking Member Higgins, this is the group that has 
been perhaps the most active threat against the U.S. homeland.
    This isn't could-have, should-have, would-have. This is a 
group that has actually been engaged in multiple attempts on 
not only U.S. targets overseas, but also the U.S. homeland. 
Many of those were discussed, with Abdulmutallab in 2009 along 
with a number of other active threat streams.
    It is also home to the world's most dangerous and 
innovative bomb makers in Ibrahim al-Asiri. These guys don't 
grow on trees. They are very unique in terms of the value that 
they play, not only in terms of building out their own 
capabilities, but also to be able to train the next generation.
    If you were to put, rack and stack, the most dangerous 
terrorists on a list I think he would be on the top of 
anybody's list. He has done so in such a way that he has 
devised and improvised explosive devices that can circumvent 
our security. This is absolutely critical, important, and 
something that we need to be very cognizant of.
    I think also in addition to AQAP, I think their greatest 
hallmark has been Inspire magazine and the role that it plays 
in radicalizing and lone-wolf jihadists, especially in the 
West. There have now been 11 copies, 11 editions of Inspire 
magazine, and you can go back through dozens and dozens of 
cases where in Anwar al-Awlaki and Samir Khan and the original 
authors played a very significant role in inspiring people to 
act, not only in the United States but also in the United 
Kingdom and elsewhere.
    You actually saw a dip after al-Awlaki and Khan's death in 
terms of the quality of the production. Unfortunately, post the 
terrorist attack in Boston you saw an increase again in the 
quality. I would argue it is definitely being driven by an 
English speaker who of course makes this significant. So they 
have reached out to the West and they have done so 
successfully.
    It is also currently led by Nasir al-Wahishi, who is a 
long-time confidant of Osama bin Laden. That obviously gives 
him some potential additional resolve in terms of taking on the 
mantle of al-Qaeda in the broader scheme of things, but also 
very directly.
    There was a lot of discussion after al-Awlaki's death. Is 
the group going to look local? Is it going to continue to focus 
global?
    I think it is not an either-or proposition. It is both. 
Unfortunately, it is playing a more significant role in the 
broader tapestry that makes up the al-Qaeda environment.
    In addition to Wahishi being named the No. 2 in al-Qaeda, 
you have also seen al-Qaeda in the Arabian Peninsula coordinate 
their activities with numerous affiliates in the past, most 
notably al-Shabaab in Somalia, but others as well. I think this 
is important because in addition to their own role they serve 
as--they can foster the intent in others to attack the U.S. 
homeland. I think you are starting to see that, the sharing of 
trade craft.
    You are starting to see a conflation of these al-Qaeda 
organizations. So that is one thing to keep our eye on.
    I am actually beyond my time. But I hope to get to some of 
the responses afterwards. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cilluffo follows:]
                Prepared Statement of Frank J. Cilluffo
    Chairman King, Ranking Member Higgins, and distinguished Members of 
the committee, thank you for the opportunity to testify before you 
today. The decision to step back and take a hard look at al-Qaeda in 
the Arabian Peninsula (AQAP) at a time when all eyes are fixed on Syria 
is a prudent one. It is far too easy to lose sight of key pieces of the 
big picture when the heat of a particular crisis draws our focus.
    Yet to do so would be a real mistake. Notwithstanding the 
importance of Syria as a threat to (U.S.) National, regional, and 
international security--and as a situation that terrorists may seek to 
exploit, there is a broader range of forces and factors that pose 
serious and on-going threats to the United States. One critical example 
is the terrorist group AQAP which is currently the al-Qaeda affiliate 
that poses the greatest threat to the U.S. homeland.
                            why aqap matters
  <bullet> AQAP is the most active of al-Qaeda's affiliate groups. AQAP 
        has directly targeted the U.S. homeland as well as U.S. 
        interests abroad on multiple occasions.
  <bullet> AQAP (and Yemen) is home to one of the world's most 
        dangerous and innovative bombmakers who has actively tried and 
        shown himself to be able to circumvent U.S. countermeasures 
        intended to thwart his improvised explosive devices.
  <bullet> AQAP has invested significantly in encouraging 
        radicalization and ``lone wolf'' home-grown attacks, including 
        Inspire magazine. AQAP's efforts in this regard propagate the 
        ideology that underpins al-Qaeda as a movement, and provide the 
        ``how-to'' do-it-yourself in terrorist tactics, techniques, and 
        procedures.
  <bullet> AQAP is currently led by Nasser al-Wuhayshi, formerly a 
        direct confidant of Osama bin Laden, who was recently named the 
        No. 2 figure within al-Qaeda writ large. The No. 2 leadership 
        slot is symbolically important but also operationally so, 
        particularly as the boundaries between al-Qaeda components 
        (core and affiliates) fade away and their activities converge.
  <bullet> AQAP has for some time assumed a leadership role within al-
        Qaeda as a whole, and has cooperated with multiple al-Qaeda 
        affiliates. AQAP's leadership position offers a conduit to 
        foster intent in others to attack the U.S. homeland and U.S. 
        interests.
    AQAP was established in 2009 by the merger of Yemeni al-Qaeda with 
Saudi al-Qaeda elements that were driven out of the Kingdom. The 
influence of Yemeni al-Qaeda was felt long before, however, and pre-
dated 9/11. Bear in mind that Yemen, the birthplace of Osama bin Laden, 
was the host country of the terrorist attack on the U.S.S. Cole in 
2000, in which 17 U.S. sailors perished. Since its creation, AQAP has 
demonstrated ample evidence of intent to attack the U.S. homeland and 
U.S. interests, including the 2009 Christmas day airliner bomb attempt 
by ``underwear bomber'' Umar Farouk Abdulmutallab the 2010 cargo/plane 
bomb attempt in which explosives were concealed in printer cartridges; 
and the spring 2012 concealed explosives plot.\1\ The first two of 
these attempted attacks were overseen by AQAP's former external 
operations leader Anwar al-Awlaki. AQAP has managed to attract Western 
recruits or others with the ability to travel, to facilitate such 
attacks. In addition to Abdulmutallab, examples include American Sharif 
Mobley, who is in the custody of the Yemeni government following his 
shooting of two Yemeni security guards, and British national Minh Qhang 
Pham, who was indicted on terrorism charges in New York in 2012.
---------------------------------------------------------------------------
    \1\ Reuters, ``Foiled Plot Shows Militants Seek Detection-Proof 
Bombs,'' May 7, 2012. http://www.reuters.com/article/2012/05/07/us-usa-
security-plot-idUSBRE84612820120507.
---------------------------------------------------------------------------
    Most recently, this August (before all eyes turned to Syria and the 
regime's use of chemical weapons on its own people there), there was 
much discussion of a threat stream emanating from Yemen, where AQAP is 
based. A spate of articles appeared in the press reporting on a so-
called ``conference call'' between al-Qaeda Senior Leadership (AQSL) 
figure Ayman al-Zawahiri and a dozen chiefs of al-Qaeda affiliates 
including AQAP's Nasser al-Wuhayshi.\2\ The intelligence suggested that 
a major terrorist plot directed against Western targets was afoot and 
prompted a range of countermeasures including a U.S. decision to shut 
temporarily 19 embassies and consulates. The plot is said to have 
involved ``a new generation of liquid explosive, currently 
undetectable,'' which U.S. officials described as ``ingenious.''\3\
---------------------------------------------------------------------------
    \2\ Eli Lake, Josh Rogin, ``Exclusive: Al Qaeda Conference Call 
Intercepted by U.S. Officials Sparked Alerts,'' The Daily Beast (August 
7, 2013), http://www.thedailybeast.com/articles/2013/08/07/al-qaeda-
conference-call-intercepted-by-u-s-officials-sparked-alerts.html.
    \3\ Rhonda Schwartz and James Gordon Meek, ``Al Qaeda Threat: 
Officials Fear `Ingenious' Liquid Explosive,'' ABC News (August 5, 
2013) http://abcnews.go.com/Blotter/al-qaeda-threat-officials-fear-
ingenious-liquid-explosive/story?id=19871892.
---------------------------------------------------------------------------
    In addition to these various demonstrations of intent to attack, 
AQAP has also evidenced a record of innovation in terror tradecraft. 
AQAP's lead bomb-maker Ibrahim al-Asiri personifies this, as the 
mastermind behind the devices used in the 2009 attempted assassination 
of the Saudi Interior Minister, the 2009 Christmas day attack, the 2010 
cargo printer bomb, and plots that involve surgically implanted 
explosives.
    Over and above his own considerable expertise, al-Asiri has been 
training the next generation of bomb-makers.\4\ AQAP has also expressed 
an interest in attacks using biological warfare agents, including 
ricin.\5\
---------------------------------------------------------------------------
    \4\ Andrew Scarpitta, ``Terrorist Deck of Cards: Leaders of Al 
Qaeda affiliates are clubs, '' The Washington Times--Communities 
(September 9, 2013) http://communities.- washingtontimes.com/
neighborhood/simply-world/2013/sep/9/terrorist-deck-cards-clubs/
    \5\ Eric Schmitt and Thom Shanker, ``Qaeda Trying to Harness Toxin 
for Bombs, U.S. Officials Fear,'' New York Times (August 12, 2011) 
http://www.nytimes.com/2011/08/13/world/middleeast/
13terror.html?pagewanted=all&_r=0.
---------------------------------------------------------------------------
    Encouraging radicalization and ``lone wolf'' home-grown attacks has 
been a further hallmark and focus of AQAP. Cases of this type inspired 
by AQAP--and Anwar al-Awlaki in particular--include the attack on Fort 
Hood in 2009 by Major Nidal Hasan, the attack on a military recruiting 
center in Arkansas in the same year by Carlos Bledsoe, the 2010 attack 
on a British parliamentarian by student Roshonara Choudhry, and the 
Boston marathon bombing earlier this year.
    AQAP ``bridge figure'' Anwar al-Awlaki possessed an almost 
unmatched ability to recruit and inspire new and existing members to 
al-Qaeda's cause and ideology. Though killed in a drone strike in 2011, 
al-Awlaki's voice lives on including in the many radical and violent 
``sermons'' that he recorded in multiple media formats--and continues 
to resonate.
    Ideology is the lifeblood that sustains al-Qaeda, and instruments 
such as Inspire magazine are intended to fuel the fire, including the 
``home-grown'' component. Although the original authors and publishers 
of Inspire (al-Awlaki and colleague Samir Khan) are now deceased, the 
magazine continues and its production values have improved recently. 
Immediately following the death of al-Awlaki and Khan, there was a 
highly noticeable degradation of Inspire; the more recent issues of 
Inspire, including the 11th issue released after the Boston marathon 
attack, once again demonstrate high production quality and appear to be 
written by a native English speaker.
    The linkages between AQAP and other al-Qaeda affiliates and 
terrorist groups are another source of significant concern. As 
mentioned, current AQAP leader al-Wuhayshi is the overall No. 2 in al-
Qaeda.\6\ He is also directly connected to Osama bin Laden, having 
served as his secretary until 2001. For him, the battle may be 
personal; being a direct protege of bin Laden may add an extra layer of 
resolve and determination to his actions. Other important links exist, 
however, beyond al-Wuhayshi's connection with AQSL. These include AQAP 
ties to al-Shabaab in Somalia, as discussed by convicted terrorist 
leader Ahmed Warsame in his guilty plea;\7\ and a reported AQAP role in 
the attack on the U.S. mission in Benghazi.\8\
---------------------------------------------------------------------------
    \6\ Barbara Starr, ``US official: Al Qaeda core chief picks number 
two from Yemeni affiliate,'' CNN (August 5, 2013) http://
security.blogs.cnn.com/2013/08/05/us-official-al-qaeda-core-chief-
picks-number-two-from-yemeni-affiliate/.
    \7\ See FBI press release on Warsame plea deal at http://
www.fbi.gov/newyork/press-releases/2013/guilty-plea-unsealed-in-new-
york-involving-ahmed-warsame-a-senior-terrorist-leader-and-liaison-
between-al-shabaab-and-al-qaeda-in-the-arabian-peninsula-for-providing-
material-support-to-both-terrorist-organizations.
    \8\ UPI, ``AQAP Eyed for Benghazi Role,'' May 3, 2013. http://
www.upi.com/Top_News/Special/2013/05/03/AQAP-eyed-for-Benghazi-role/
UPI-39181367594594/.
---------------------------------------------------------------------------
                        aqap in broader context
    Though AQAP occupies a vaunted place within the larger al-Qaeda 
hierarchy (which, as mentioned above, is itself something of a misnomer 
as the boundaries between core and affiliates of al-Qaeda are fading 
away and operational and ideological activities converge), the 
organization is by no means the only important threat that the United 
States faces at this time. As evidenced by the above reference to Ayman 
al-Zawahiri, even AQSL is now reinvigorated and reappearing. Indeed 
just last week, on the day after the twelfth anniversary of the 9/11 
attacks, Zawahiri released an audio message calling for further attacks 
on the United States, intended to ``bleed America economically by 
provoking it to continue in its massive expenditure on its 
security.''\9\
---------------------------------------------------------------------------
    \9\ Reuters, ``Al Qaeda calls for attacks inside United States'' 
(September 13, 2013) http://www.reuters.com/article/2013/09/13/us-
qaeda-zawahri-idUSBRE98C05820130913.
---------------------------------------------------------------------------
    Although the primary threat vector no longer emanates from AQSL 
alone, the threat streams coming from al-Qaeda affiliates and those 
inspired by al-Qaeda are many and varied. At the group level, these 
include: Al-Qaeda in the Islamic Maghreb (AQIM), Boko Haram in 
Nigeria,\10\ and Ansar Dine in Mali.\11\ In Africa and the Middle East 
alone, there are still multiple al-Qaeda affiliates that continue to 
thrive, most notably in the Sahel and in Somalia.\12\ Indeed, there is 
an arc of Islamist extremism that stretches across Africa from east to 
west, through the Sahel and the Maghreb.\13\
---------------------------------------------------------------------------
    \10\ Omar S. Mahmood, ``Boko Haram in Northern Nigeria: No Easy 
Fix,'' HSPI Issue Brief (April 3, 2013) http://www.gwumc.edu/hspi/
policy/HSPI%20Issue%20Brief%2018%20- Boko%20Haram.pdf.
    \11\ Rida Lyammouri, ``Northern Mali: Armed Groups, State Failure, 
and Terrorism,'' HSPI Issue Brief (May 30, 2013) http://www.gwumc.edu/
hspi/policy/HSPI%20Issue%20Brief%20- 20%20Northern%20Mali.pdf.
    \12\ Navanti Group, ``Somalia's Al-Shabaab: Down But Not Out,'' 
HSPI Issue Brief (August 27, 2013) http://www.gwumc.edu/hspi/policy/
HSPI%20Issue%20Brief%2022%20Somalia%20- Al%20Shabaab.pdf.
    \13\ Frank J. Cilluffo, ``The Future of Homeland Security: Evolving 
and Emerging Threats,'' Testimony Before the U.S. Senate Committee on 
Homeland Security & Governmental Affairs (July 11, 2012) http://
www.gwumc.edu/hspi/policy/Testimony%20-%20SHSGAC%20Hearing%20-
%2011%20July%202012.pdf. Frank Cilluffo, Joseph Clark, and Clinton 
Watts, ``Pardon the Pivot: What about Africa?'' HSPI Issue Brief (March 
6, 2013) http://www.gwumc.edu/hspi/policy/HSPI%20Issue%20Brief%2017%20-
%20What%20About%20Africa.pdf. Navanti Group, ``Origins and Dimensions 
of Instability in Post-Qaddafi Libya,'' HSPI Issue Brief (July 30, 
2013) http://www.gwumc.edu/hspi/policy/
HSPI%20Issue%20Brief%2021%20Instability%20Post-Qaddafi%20Libya.pdf.
---------------------------------------------------------------------------
    The latest and most concerning hot spot to emerge is undoubtedly 
Syria. Outgoing CIA Deputy Director Michael Morell has identified Syria 
as ``the greatest threat to U.S. national security.''\14\ Former FBI 
Director Robert Mueller echoed the point immediately prior to 
completing his term of service and leaving office; he ``warned that an 
increasing flow of U.S. citizens heading to Syria and elsewhere to wage 
jihad against regional powers could end up in a new generation of home-
grown terrorists.''\15\ Just one returning fighter with lethal intent 
and competence could cause serious harm. In Syria alone, there are 
thousands of foreign fighters--including from 14 European countries, 
Chechnya, China, North Africa, the Balkans, Australia, and North 
America.\16\
---------------------------------------------------------------------------
    \14\ ``CIA Official Calls Syria Top Threat to U.S. Security,'' The 
Wall Street Journal (August 6, 2013) http://online.wsj.com/article/
SB10001424127887323420604578652330222498920.html.
    \15\ Carlo Munoz, ``FBI's Mueller warns of new generation of 
homegrown terrorists,'' The Hill (August 23, 2013) http://thehill.com/
blogs/defcon-hill/operations/318539-fbis-mueller-warns-of-new-
generation-of-homegrown-terrorists-.
    \16\ Sharon L. Cardash, Frank J. Cilluffo, Jean-Luc Marret, 
``Foreign Fighters in Syria: Still Doing Battle, Still a 
Multidimensional Danger,'' Fondation pour la Recherche Strategique--
Note no. 24/13 (August 2013) http://www.frstrategie.org/barreFRS/
publications/notes/2013/201324.pdf. See also Frank J. Cilluffo, Jeffrey 
R. Cozzens, and Magnus Ranstorp, ``Foreign Fighters: Trends, 
Trajectories & Conflict Zones,'' Joint Report of the George Washington 
University Homeland Security Policy Institute and the Swedish National 
Defence College (October 1, 2010) http://www.gwumc.edu/hspi/policy/
report_foreignfighters501.pdf.
---------------------------------------------------------------------------
    At the same time, a veritable witch's brew of jihadists exists in 
Pakistan including, for example: The Haqqani network, Lashkar-e-Taiba 
(LeT), Tehrik-i-Taliban Pakistan (often dubbed the ``Pakistani 
Taliban''), Harkat-ul-Jihad al-Islami (HuJI), Jaish-e-Mohammed, and the 
Islamic Movement of Uzbekistan. We have seen in the past and continue 
to see substantial evidence of cooperation and collaboration between 
these latter groups and al-Qaeda. Though some of these groups may be 
more regionally or locally focused, they increasingly ascribe and 
subscribe to al-Qaeda's goals and the broader global jihad, with U.S. 
and Western targets increasingly in their crosshairs.\17\
---------------------------------------------------------------------------
    \17\ Cilluffo, ``The Future of Homeland Security: Evolving and 
Emerging Threats'' (July 11, 2012) http://www.gwumc.edu/hspi/policy/
Testimony%20-%20SHSGAC%20Hearing%20-%2011%20July%202012.pdf.
---------------------------------------------------------------------------
    Ungoverned and under-governed spaces such as the Federally 
Administered Tribal Areas (FATA) in Pakistan and Afghanistan, Yemen, 
the Sahel, and Somalia pose a potent challenge. Here, failed, failing, 
or weak states offer a propitious climate for jihadists to regroup, 
train, plan, plot, and execute attacks. Former head of U.S. Africa 
Command (AFRICOM) General Carter Ham warned, while still in office last 
year, that AQIM (operating in southern Algeria, northern Mali, and 
eastern Mauritania; and spreading elsewhere in the Sahel), plus al-
Shabaab in Somalia, and Boko Haram in Nigeria, ``are seeking to 
coordinate and synchronize their efforts.'' General Ham characterized 
each of these groups as ``by itself, a dangerous and worrisome 
threat''; but he was particularly concerned by the emerging trend of 
them sharing ``funds, training, and explosive material.''\18\
---------------------------------------------------------------------------
    \18\ David Lerman, ``African Terrorist Groups Starting to 
Cooperate, U.S. Says'' Bloomberg (June 25, 2012) http://
www.bloomberg.com/news/2012-06-25/african-terrorist-groups-starting-to-
cooperate-u-s-says.html.
---------------------------------------------------------------------------
    Compounding the challenges posed the ecosystem described above is 
the so-called ``lone wolf'' who self-radicalizes and prepares to commit 
violence without directly reaching out to al-Qaeda or others for 
support and guidance. The term lone wolf is a bit of a misnomer, 
however, since individuals in this category have at least been 
inspired, goaded, and in some cases facilitated by external forces--
which in turn blurs the line between the foreign and domestic. In such 
cases, the mission of prevention is all the harder because there may be 
little for law enforcement or counterterrorism professionals to pick up 
on ahead of time, when we are still left of boom. The mission remains 
critical, though, as evidenced by the discovery of more than 60 ``home-
grown'' jihadi terrorism plots since September 11, 2001.
    In short, the system is still blinking red, and the United States 
would be extremely ill-advised to think or act otherwise. In a report 
released just last week, the Bipartisan Policy Center assessed that al-
Qaeda and affiliates are in ``some 16 different theaters of operation--
compared with half as many as recently as five years ago.'' Among the 
``sites of revival and resuscitation'' is Iraq.\19\ Nor can we take our 
eye off the ball of state-sponsored terrorism, such as that perpetrated 
by the government of Iran and proxies such as Hezbollah. Although 
state-sponsored terrorism is beyond the scope of this hearing, it will 
undoubtedly demand significant attention.\20\
---------------------------------------------------------------------------
    \19\ Anna Mulrine, ``9/11 Commission leaders push for changes in US 
terrorism fight,'' The Christian Science Monitor (September 11, 2013) 
http://www.csmonitor.com/USA/Military/2013/0911/9-11-Commission-
leaders-push-for-changes-in-US-terrorism-fight-video. Peter Bergen, 
Bruce Hoffman, Michael Hurley, and Erroll Southers, ``Jihadist 
Terrorism: A Threat Assessment,'' Bipartisan Policy Center Report 
(September 2013) http://bipartisanpolicy.org/sites/default/files/
Jihadist%20Terrorism-A%20Threat%20Assesment_0.pdf.
    \20\ Frank J. Cilluffo, ``The Iranian Cyber Threat to the United 
States,'' Testimony Before the U.S. House of Representatives, Committee 
on Homeland Security, Subcommittee on Counterterrorism and 
Intelligence; and Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies (April 26, 2012) http://
www.gwumc.edu/hspi/policy/
Iran%20Cyber%20Testimony%204.26.12%20Frank%20Cilluffo.pdf. See also: 
Cilluffo, ``A Line in the Sand: Assessing Dangerous Threat to Our 
Nation's Borders'' (November 2012) http://www.gwumc.edu/hspi/policy/
testimony11.16.12.pdf; and Frank J. Cilluffo, ``Cyber Threats from 
China, Russia, and Iran: Protecting American Critical Infrastructure,'' 
Testimony Before the U.S. House of Representatives, Committee on 
Homeland Security, Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies (March 20, 2013) http://
www.gwumc.edu/hspi/policy/
Meehan_Cilluffo%20Testimony%20March%202013.pdf.
---------------------------------------------------------------------------
       implications for u.s. counterterrorism policy versus aqap
    The United States has invested hundreds of millions of dollars in 
support of counterterrorism measures directed against al-Qaeda in 
Yemen, but the need for direct U.S. counterterrorism engagement in the 
country persists. Below I address four elements that should be central 
to and included in U.S. counterterrorism efforts against AQAP; but the 
list is not meant to be comprehensive.
1. Drones and Special Operations
    The bulwark of our strategy has been a sustained drone campaign 
informed by solid intelligence. As I have written with my colleague 
Clint Watts: ``Light-footprint drone and special operations force (SOF) 
missions specifically focused on short-term tactical counterterrorism 
objectives can help avoid the long-term quagmire of Yemeni insurgencies 
while immediately degrading AQAP's ability to strike the U.S.''\21\ 
While in itself insufficient and of itself not a perfect option (since 
the possibility of ``blowback'' or backlash effects cannot be entirely 
eliminated), the described tools have proven to be both powerful and 
effective.
---------------------------------------------------------------------------
    \21\ Frank J. Cilluffo and Clinton Watts, ``Yemen & Al Qaeda in the 
Arabian Peninsula: Exploiting a Window of Counterterrorism 
Opportunity,'' HSPI Issue Brief (June 24, 2011) http://www.gwumc.edu/
hspi/policy/issuebrief_yemenaqap.pdf.
---------------------------------------------------------------------------
    As I have also stated elsewhere, ``targeted attacks on AQ's 
leadership in Pakistan severely disrupted the terror group's ability to 
plan and execute terror attacks abroad.'' Applied to Yemen, this same 
tactic and strategy has yielded substantial counterterrorism advances 
from a U.S. perspective. The threat from AQAP has not disappeared, of 
course; but the terrorist group has been forced to look over its 
shoulder constantly--which diverts the adversary's limited amounts of 
energy and resources into self-preservation, and away from plots and 
planning against the United States and its allies. If there is an 
alternative policy course that could produce an equally favorable 
outcome, the critics have yet to specify it. Meantime, the specified 
course of action allows us ``to lay the groundwork and move toward a 
long-term Yemen strategy . . . ''.\22\
---------------------------------------------------------------------------
    \22\ Ibid. See also Frank Cilluffo and Clinton Watts, ``Countering 
the Threat Posed by AQAP: Embrace, Don't Chase, Yemen's Chaos,'' 
Security Debrief (July 14, 2011) http://securitydebrief.com/2011/07/14/
countering-the-threat-posed-by-aqap-embrace-don%E2%80%99t-chase-
yemen%E2%80%99s-chaos/.
---------------------------------------------------------------------------
    Although the balance of power between government and al-Qaeda 
forces in Yemen has vacillated over time, the ``Arab Spring'' of 2011 
toppled Yemeni President Saleh and created a window of opportunity that 
al-Wuhayshi and associates exploited successfully. Yemeni government 
forces pushed back in 2012, reversing the territorial gains made by the 
Islamists the previous year. But the militants remain in-country, 
though now they are scattered and interspersed throughout Yemen rather 
than heavily concentrated in a few locations. In addition, the 
adversary has prioritized the building of anti-drone capabilities.\23\ 
In some ways, therefore, the current situation is more dangerous and 
more difficult to address than in past.
---------------------------------------------------------------------------
    \23\ Washington Post (September 3, 2013) http://
articles.washingtonpost.com/2013-09-03/world/41723879_1_u-s-drone-
campaign-al-qaeda-commanders-unmanned-aircraft.
---------------------------------------------------------------------------
2. Robust Intelligence Collection
    Robust intelligence collection vis-a-vis terrorist threats must 
always be a priority, in part because the yield of such collection 
efforts informs both strategy and a wide-range tactics (including 
operations, counter-measures, etc.). In the wake of leaks, AQAP--which 
was already a difficult intelligence target--has become an even greater 
collection challenge for the United States. Post-leaks, AQAP has 
improved its operational security and changed its practices; think 
tradecraft, communications, and planning.
    Whether AQAP remains poised to deliver on the plot that came to 
light this August is yet to be seen. However, the terrorist group has 
demonstrated and continues to demonstrate significant ability and 
intent to do harm to the United States and its interests. Some have 
even speculated that the August plot was simply a test of U.S. systems, 
meant to inform future attack. Whatever the case, AQAP has proven that 
it has the capacity to attain global reach, as the source of active 
threat to the United States on more than one occasion. Against this 
background and despite the level of challenge it entails, it is 
imperative to redouble U.S. efforts to obtain robust intelligence on 
this threat--with special emphasis accorded to AQAP's bomb-makers and 
others involved in external operations.
3. Aviation Security and Thwarting Terrorist Travel
    AQAP has demonstrated a persistent interest in carrying out attacks 
against and using the global aviation system. With each successive 
plot, they have attempted to improve their tradecraft and develop new 
devices and techniques to bypass our security measures. Given this, it 
is imperative that TSA and its foreign partners remain nimble at 
anticipating new types of threats and rapidly developing the means to 
detect them.
    Given AQAP's focus on finding Western operatives to carry out 
attacks, it is also important that intelligence information is used to 
inform the risk-based screening of travelers, both by expediting low-
risk travelers through programs such as PreCheck and by providing extra 
scrutiny for higher-risk travelers. The Passenger Name Record (PNR) 
information that Customs and Border Protection (CBP) receives from 
travelers coming from Europe is vital in carrying out such risk-based 
screening. CBP and TSA have also been successful since the cargo planes 
plot of October 2010 at improving risk-based screening of international 
air cargo, through their joint Air Cargo Advance Screening (ACAS) pilot 
project.
4. U.S.-Based Efforts to Combat Violent Islamist Extremism
    As noted earlier, AQAP has been focused not only on carrying out 
its own attacks but also on radicalizing individuals and encouraging 
them to act on their own and carry out attacks in their home countries. 
The biggest element missing from U.S. statecraft on counterterrorism 
relates to our efforts--which have been lacking--to counter and defeat 
the jihadist ideology. The result is that the terrorist narrative lives 
on and continues to attract and inspire those who wish us harm.
    The State Department's Center for Strategic Counterterrorism 
Communications is doing some good work overseas in this area in foreign 
languages. But it is not enough. A systemic strategic communications 
effort is needed, aimed at exposing the hypocrisy of our adversaries' 
words versus their deeds. Nor domestically have we figured out how to 
address the issue of on-line violent Islamist extremism. Although this 
challenge appeared on White House radar years ago and a strategy to 
address ``on-line violent extremist radicalization'' was promised by 
the White House in 2011, this significant and complex undertaking was 
instead treated in a cursory blog post earlier this year.\24\
---------------------------------------------------------------------------
    \24\ Frank J. Cilluffo and Sharon L. Cardash, ``It's the Ideology, 
Stupid,'' The National Interest (June 3, 2013) http://www.gwumc.edu/
hspi/policy/It%27s%20the%20ideology,%20stupid.pdf. Quintan Wiktorowicz, 
``Working to Counter Online Radicalization to Violence in the United 
States,'' The White House Blog (February 5, 2013) http://
www.whitehouse.gov/blog/2013/02/05/working-counter-online-
radicalization-violence-united-states.
---------------------------------------------------------------------------
                               conclusion
    The bottom line is that we must not take our foot off the gas pedal 
when it comes to U.S. counterterrorism efforts. Now is not the time to 
offer our adversaries time and space in which to expand and entrench, 
or further regroup and reconstitute.
    This admonition is all the more important as the United States 
prepares to conclude the combat role of its military forces in 
Afghanistan in 2014. The decision on whether to retain or remove U.S. 
and allied forces from Afghanistan raises a host of strategic issues. 
Strictly from a tactical counterterrorism perspective however, U.S. 
withdrawal is a concern, just as it was in Iraq.\25\
---------------------------------------------------------------------------
    \25\ Frank J. Cilluffo and Sharon L. Cardash, ``Baghdad Surprise?'' 
HSPI Commentary (August 20, 2010) http://www.gwumc.edu/hspi/policy/
commentary17_BaghdadSurprise.pdf.
---------------------------------------------------------------------------
    Indeed, nature abhors a vacuum; and there is no shortage of actors 
hostile to the United States who presently seek to exploit a range of 
ungoverned and under-governed spaces worldwide (failed and failing 
states), as well as transitional circumstances such as those that 
prevail in Egypt.\26\ Accordingly, along with our allies, we must 
continue to target the leaders of foreign terrorist organizations, and 
their military and operational planners.
---------------------------------------------------------------------------
    \26\ Frank J. Cilluffo and Sharon L. Cardash, ``Tumult in the 
Middle East: When and Where Will the Next Shoe Drop?'' HSPI Commentary 
(February 17, 2011) http://www.gwumc.edu/hspi/policy/
commentary021_mideast.pdf.
---------------------------------------------------------------------------
    AQAP is just one of many organizations that demand the attention of 
U.S. law enforcement and intelligence officials as well as our military 
forces. Al-Qaeda, its affiliates, and those inspired by al-Qaeda's 
ideology have by no means been defeated.\27\ The United States must 
therefore meet the challenge posed by its adversaries with equal 
determination, patience, and resolve.
---------------------------------------------------------------------------
    \27\ Katherine Zimmerman, ``The Al Qaeda Network: A New Framework 
for Defining the Enemy,'' A Report by AEI's Critical Threats Project 
(September 2013) http://www.criticalthreats.org/sites/default/files/
pdf_upload/analysis/Zimmerman_the_al_- 
Qaeda_Network_September_2013.pdf.
---------------------------------------------------------------------------
    Thank you once more for the opportunity to testify before you 
today. I look forward to trying to answer any questions that you may 
have.

    Mr. King. Thank you, Mr. Cilluffo.
    Our next witness, Katherine Zimmerman, is a senior analyst 
and the al-Qaeda movement's team lead for the American 
Enterprise Institute's Critical Threats Project. Her work is 
focused on al-Qaeda's affiliates in the Gulf of Asia region, 
and associated movements in West and in Northern Africa. She 
specializes in the al-Qaeda in the Arabian Peninsula and al-
Qaeda's affiliate in Somalia, al-Shabaab.
    Recently, Ms. Zimmerman released a new report entitled 
``The al-Qaeda Network: A New Framework for Defining the 
Enemy,'' which informs American policy and decision makers on 
the composition of the al-Qaeda network, and raises concerns 
with the lack of evolution in U.S. counterterrorism policy to 
target the whole network.
    Ms. Zimmerman, thank you for being here today, and you are 
recognized. Thank you.

 STATEMENT OF KATHERINE L. ZIMMERMAN, SENIOR ANALYST CRITICAL 
       THREATS PROJECT, THE AMERICAN ENTERPRISE INSTITUTE

    Ms. Zimmerman. Mr. Chairman, Ranking Member Higgins, thank 
you for including me in this important hearing on the threat to 
the--about the United States homeland from AQAP. I would like 
to highlight my understanding of AQAP's role in the al-Qaeda 
network presented in my prepared testimony.
    America's failure to understand the complexities of the al-
Qaeda network as it has evolved over the years has led only to 
tactical successes on the battlefield. The strategy to disrupt 
the network by killing senior leaders in a core group is based 
on a faulty understanding that overemphasizes al-Qaeda core 
centrality to the network.
    There is no single group at the heart of the al-Qaeda 
network today. Instead, the network strength now lies in 
interwoven connections between regional al-Qaeda groups, as 
well in the ties between those groups and the core. The al-
Qaeda network has evolved and our strategy must change with it.
    AQAP does pose the most direct threat to the U.S. homeland 
from al-Qaeda. But it must be examined in the context of the 
entire network. The most significant change occurred in 2009 
when AQAP created a new model for the role of groups in the al-
Qaeda network. It focused its efforts on the far war against 
the United States, and it began to foster relationships with 
other groups.
    AQAP is the first known example of an affiliate or an 
associate directing an attack against the U.S. homeland, an 
effort the group has continued to prioritize. It also provides 
training to, and shares resources with al-Qaeda groups in a 
manner that is characteristic of Osama bin Laden's group in the 
1990s and 2000s.
    The previous model for the al-Qaeda network held that 
franchises were subordinated to a core, conventionally 
understood to be the al-Qaeda leadership in Pakistan. Al-Qaeda 
core maintains command and control over its regional affiliates 
and directed external operations. This model no longer holds 
true.
    Al-Qaeda's expansion in 2011 and 2012 is explained as 
fallout from the weakening of the core group. But there is an 
alternative explanation.
    The Arab Spring and bin Laden's death in 2011 served as a 
catalyst for change in the network. Other affiliates adapted to 
AQAP's model and cultivated intergroup connection spanning the 
region. These connections facilitate broader coordination and 
cooperation within the al-Qaeda network and it increases 
overall resiliency.
    Today AQAP's prominence in the al-Qaeda network, or the 
appointment of its leader to the No. 2 position in al-Qaeda, 
should not be interpreted to mean that AQAP has risen to 
replace the core group in Pakistan, or that it is directing the 
network. There are three main points to emphasize.
    First, there is no group at the heart of the network. It is 
not centrally organized or directed. The senior leadership in 
Pakistan maintains an advisory role and provides strategic 
guidance, but it no longer issues directives.
    Therefore, operations specifically targeting a single 
group, including AQAP, would have a limited overall effect. 
Such a strategy has allowed al-Qaeda's affiliates in Iraq, 
Syria, and West Africa to expand virtually unchecked, and has 
ignored the growth of associates across North Africa, 
especially in Libya.
    Second, the lateral connections, relationships among al-
Qaeda core, its affiliates and associates, create an interwoven 
structure. The structure is what gives the network its 
strength. Al-Qaeda groups are able to interact without running 
relations through a central node, creating a much more 
dispersed network.
    Finally, the entire al-Qaeda network, including groups 
operating solely at the local level, must be considered when 
devising a strategy to counter it because of the existence of 
the interwoven structure. Any additional connections through 
added individuals or added groups strengthens the overall 
network.
    Al-Qaeda today bears little resemblance to the network in 
2001. Yet America's strategy to counter it remains largely 
unchanged. The network is global, and therefore the United 
States needs a comprehensive global strategy.
    Al-Qaeda extends beyond the commonly-known affiliates, 
AQAP, al-Qaeda in Iraq, among others, to local groups that 
operate at the grassroots level. These local groups understand 
local grievances and respond to shifts in popular sentiment on 
the ground. Any strategy to counter the al-Qaeda network must 
recognize the role of these groups.
    Including them as part of the network does not necessarily 
lead to the conclusion that the United States must deploy 
forces or invest heavily in military assets where the al-Qaeda 
network is active. But it does require that policymakers invest 
in a substantial effort to develop a global strategy with local 
solutions.
    Mr. Chairman and Ranking Member Higgins, if I could leave 
you with one take-away from my testimony and research, the view 
that this is no longer George Bush's al-Qaeda, but we are still 
fighting with George Bush's tactics. The enemy has transformed, 
and if we want to win our strategy must transform with it. 
Thank you.
    [The prepared statement of Ms. Zimmerman follows:]
              Prepared Statement of Katherine L. Zimmerman
                           September 18, 2013
    The United States continues to face a threat from the al-Qaeda 
network 12 years after declaring war against it. America's failure to 
understand the complexities of the terrorist network as it has evolved 
over the years has led only to tactical successes on the battlefield. 
The strategy to disrupt the al-Qaeda network by killing senior 
leadership in a ``core group'' is based on a faulty understanding that 
overemphasizes that group's importance and the current intentions of 
affiliates to attack the United States. This strategy has been 
ineffective in dismantling the network overall. Al-Qaeda today bears 
little resemblance to the network in 2001, yet America's strategy to 
counter it remains largely unchanged.
    The al-Qaeda network has moved away from a centrally organized 
network over the years. Al-Qaeda's strength and resilience now lies in 
the latticed interconnections between regional al-Qaeda groups, as well 
as in the ties between those groups and the center. The most 
significant inflection point occurred in 2009 when al-Qaeda's Yemen-
based affiliate, al-Qaeda in the Arabian Peninsula (AQAP), established 
a new model for the role of groups in the al-Qaeda network. AQAP 
focused its efforts on the far war against the United States and began 
to foster relationships with other groups. The Arab Spring and Osama 
bin Laden's death in 2011 served as a catalyst for change in the 
network: Other affiliates, too, adapted to AQAP's model and cultivated 
inter-group connections spanning the region. These connections 
facilitate broader coordination and cooperation within the al-Qaeda 
network, and have increased its overall resiliency.
    Targeting individuals or a specific group within the al-Qaeda 
network will not be effective alone. Such a strategy has allowed al-
Qaeda's affiliates in Iraq, Syria, and West Africa to expand virtually 
unchecked and has ignored the growth of associated groups across North 
Africa, especially in Libya. The al-Qaeda network is global and 
operates on a global level. Many al-Qaeda groups operate solely on the 
local level, but they strengthen the broader network. The United 
States, therefore, needs a comprehensive global strategy to counter al-
Qaeda that is tailored down to the local level.
Case Study: Al-Qaeda in the Arabian Peninsula
    The most direct threat to the U.S. homeland today emanates from 
AQAP, which has attempted to attack the United States homeland at least 
three times since its establishment in January 2009. The affiliate is 
also behind the threat stream that prompted the unprecedented closure 
of over 20 American diplomatic posts across the Middle East and North 
Africa.
    AQAP's prominence in the al-Qaeda network should not be interpreted 
to mean that AQAP has risen to replace the core group in Pakistan or 
that it is directing the network in some way. It must be interpreted 
within the broader context of the al-Qaeda network. AQAP is an 
extremely capable terrorist group that is a member of a network of 
other groups all operating in similar manners. Its prominence is a 
reflection of its capabilities and its prioritization of conducting 
attacks against the United States, not the subordination of other 
groups to AQAP.
                               background
    A January 2009 video announced the establishment of AQAP as a 
merger between al-Qaeda's Yemeni and Saudi branches. The video 
identified four AQAP leaders: Two former Guantanamo detainees (Said al 
Shihri and Mohamed al Awfi) and two escaped Yemeni prisoners (Nasser al 
Wahayshi and Qasim al Raymi). Saudi al-Qaeda operatives, including at 
least five former Guantanamo detainees who had gone through Saudi 
Arabia's rehabilitation program, had fled to Yemen in the late 2000s to 
escape the crackdown on al-Qaeda in the Kingdom. They began operating 
with al-Qaeda in Yemen, which was on the path to being reconstituted 
after having been essentially neutralized in 2002-2004. The February 
2006 escape of 23 al-Qaeda operatives from a Sana'a prison, including 
Wahayshi and Raymi, revitalized al-Qaeda in Yemen.
    AQAP's rapid ascendancy in Yemen profited from the expertise of 
individuals who had been active in the al-Qaeda network for years and 
from the relatively free environment in which these individuals could 
operate. The senior echelon of AQAP's leadership structure had decades 
of combined experience. Many of the senior leaders had trained at al-
Qaeda's al Farouq training camp or elsewhere in Afghanistan, some were 
members of Osama bin Laden's direct human network, and nearly all had 
been active in the al-Qaeda network before the 9/11 attacks. Yemen's 
weak central government, then headed by President Ali Abdullah Saleh, 
did not exert direct control over its territory and in August 2009 
dedicated scarce security resources to fighting the sixth iteration of 
a rebellion in the north.\1\ The Yemeni government also prioritized 
putting down a rising secessionist movement in the south over 
counterterrorism operations against AQAP. The permissive security 
environment along with the leadership's experience facilitated al-
Qaeda's full reconstitution in Yemen in 2009.
---------------------------------------------------------------------------
    \1\ For more on the al Houthi wars, see Christopher Boucek, ``War 
in Saada: From Local Insurrection to National Challenge,'' Carnegie 
Endowment for International Peace, April 2010, http://
carnegieendowment.org/files/war_in_saada.pdf.
---------------------------------------------------------------------------
    The group continued the small-scale attacks that al-Qaeda in Yemen 
had been carrying out. But it also began to focus on external 
operations against Saudi and American targets. AQAP's first major 
external operation targeted the Saudi deputy interior ministry in 
August 2009. Ibrahim al Asiri, the group's top bombmaker, designed an 
explosive device that was concealed as a suppository in his brother's 
body. The remotely-detonated bomb failed to kill the Saudi official. A 
second plot to hit Saudi targets failed in October when a firefight 
with Saudi border patrolmen killed Yousef al Shihri and Raed al Harbi, 
who were smuggling explosives in to Saudi Arabia.\2\ AQAP became the 
first affiliate to target the U.S. homeland in December that year. 
Asiri modified the design for Umar Farouk Abdulmutallab, who conducted 
the December 2009 attack. Asiri concealed Abdulmutallab's bomb in his 
underwear. The device passed successfully through airport security, but 
failed to detonate.\3\ The attack shone a spotlight on the al-Qaeda 
affiliate and within a month, the U.S. designated AQAP, Wahayshi, and 
Shihri under Executive Order 13224.\4\
---------------------------------------------------------------------------
    \2\ ``Killed Militants Planned `Imminent' Attack: Saudi,'' Agence-
France Press, October 19, 2009, http://www.google.com/hostednews/afp/
article/ALeqM5jPLO7NB9gaJCikLRqTXEklkdMAHQ.
    \3\ For further analysis, see Chris Harnisch, ``Christmas Day 
Attack: Manifestation of AQAP Shift Targeting America,'' AEI's Critical 
Threats Project, December 29, 2009, http://www.criticalthreats.org/
yemen/christmas-day-attack-manifestation-aqap-shift-targeting-america.
    \4\ Philip Crowley, ``Designations of Al-Qa'ida in the Arabian 
Peninsula (AQAP) and Senior Leaders,'' U.S. Department of State Press 
Statement, January 19, 2010, http://www.state.gov/r/pa/prs/ps/2010/01/
135364.htm.
---------------------------------------------------------------------------
    The al-Qaeda affiliate was capable of maintaining two lines of 
operations by 2010. It continued to pursue attacks on American targets, 
evidenced by the October 2010 parcel plot. It also increased its focus 
on fighting the Saleh government, which, under U.S. and international 
pressure, had begun to intensify its operations against AQAP.\5\ The 
retraction of the Yemeni central state into the capital, Sana'a, due to 
the political unrest in winter 2011 opened up space for AQAP. The group 
fielded an insurgent arm operating under the name ``Ansar al Sharia'' 
in spring 2011 that seized and held territory in south Yemen. AQAP 
briefly governed in certain areas, but more significantly, expanded its 
area of operations outside of its historical terrain. AQAP continues to 
have a presence in many of these regions, though it has not held 
territory since spring 2012. Its operatives have also regularly 
targeted Yemeni political and military officials for assassination, a 
strategy employed in 2010 and resumed as of 2012.
---------------------------------------------------------------------------
    \5\ James Gallagher, ``Al-Qaeda in the Arabian Peninsula in 2010: 
The Intensification of the Near War,'' AEI's Critical Threats Project, 
March 8, 2011, http://www.criticalthreats.org/yemen/aqap-2010-
intensification-near-war-march-8-2011.
---------------------------------------------------------------------------
    AQAP poses the most direct threat to the U.S. homeland out of the 
al-Qaeda network. It incorporated lessons learned from the experience 
of al-Qaeda in Iraq in building popular support when its insurgent arm, 
Ansar al Sharia, tried its hand at governance in 2011 and 2012 (though 
it ultimately failed). It has responded to shifting conditions on the 
ground and has attempted to appeal to Yemen's various anti-government 
groupings. It has innovated in the design of its explosive devices and 
repeatedly attempted, with success, to penetrate American National 
security defenses. Though the affiliate is extremely capable in its own 
right, it must be examined in the context of the entire al-Qaeda 
network.
New Model for al-Qaeda Affiliates and Associates *
---------------------------------------------------------------------------
    * Al-Qaeda affiliates are groups that have publicly pledged 
allegiance to the al-Qaeda emir and have in turn received public 
recognition as part of al-Qaeda by the al-Qaeda emir. Al-Qaeda 
associates are groups that exhibit a sufficient number of 
characteristics common within the al-Qaeda network such as shared 
resources, overlapping fighter or leadership networks, a common 
signature, and ideological alignment with al-Qaeda.
---------------------------------------------------------------------------
    A major inflection point for the al-Qaeda network occurred with the 
establishment of AQAP. The Yemen-based affiliate created a new model 
for the role of groups in the al-Qaeda network by the end of 2009. The 
previous model held that groups in the network were subordinated to a 
``core'' group. That core group, which was the al-Qaeda leadership in 
Pakistan, maintained command and control over its regional affiliates 
and directed external operations. AQAP is the first known example of an 
affiliate or an associate directing an attack against the U.S. 
homeland, an effort the group has continued to prioritize. It also 
provided training and shared resources with al-Qaeda associates in a 
manner characteristic of bin Laden's group in the 1990s and early 
2000s. The new model indicates that the network is no longer centrally 
organized or directed, but continued relations between the ``core'' and 
AQAP indicate a continued advisory role for the central group.
    The December 2009 attack on Detroit-bound Northwest Airlines Flight 
253 was the first attack from the al-Qaeda network on the U.S. homeland 
directed by an affiliate, as previously mentioned. U.S. court documents 
related to the case against the underwear bomber, Umar Farouk 
Abdulmutallab, provide the details of the plot.\6\ Abdulmutallab sought 
out Yemeni-American cleric and AQAP senior operative Anwar al-Awlaki in 
Yemen, and, after getting in touch through an intermediary and 
submitting a letter to al-Awlaki, spent 3 days with the cleric. Al-
Awlaki connected him to the bombmaker, Ibrahim al Asiri, who explained 
the plan. Abdulmutallab received specialized training on the explosive 
device and basic military training at one of AQAP's training camps. He 
then received orders from al-Awlaki to detonate the bomb over U.S. 
airspace and Asiri provided him with the bomb itself. Osama bin Laden 
mentioned the AQAP-directed attack in a message directed at President 
Barack Obama, but did not claim credit for it.\7\ AQAP's deputy leader, 
Said al Shihri, claimed credit for the attack in February 2010.
---------------------------------------------------------------------------
    \6\ ``Umar Farouk Abdulmutallab Government's Sentencing 
Memorandum,'' United States District Court, Eastern District of 
Michigan, Southern Division, February 10, 2012, http://
www.washingtonpost.com/wp-srv/world/documents/umar-farouk-abdul-
mutallab-sentence-brief.pdf.
    \7\ The bin Laden statement, an audio statement that runs just over 
a minute, was released through al Jazeera on January 24, 2010 and then 
through the al Fajr forum on February 16, 2010. ``Bin Laden Warns US of 
More Attacks,'' al Jazeera, January 24, 2010, http://www.aljazeera.com/
news/middleeast/2010/01/201012415287209336.html; ``Al-Fajr Releases Bin 
Laden Message to Obama,'' SITE Intelligence Group, February 16, 2010. 
Available by subscription through www.siteintelgroup.com.
---------------------------------------------------------------------------
    The Yemen-based affiliate has attempted to attack the U.S. homeland 
at least two more times since December 2009. It shipped two explosive 
devices disguised as printer cartridges in October 2010. The bombs were 
only discovered with the assistance of Saudi intelligence. AQAP tried 
again in May 2012 when it innovated on the underwear-bomb design. That 
plot was uncovered and thwarted by American and foreign intelligence 
agencies. It is likely that AQAP leadership still seeks to attack the 
U.S. homeland.
    AQAP has fostered relations with other groups in the al-Qaeda 
network. (See figure 1.) It has an established relationship with al-
Shabaab, al-Qaeda's affiliate in Somalia. It provided explosives and 
basic military training to at least one al-Shabaab operative in 2010 
and 2011.\8\ AQAP also facilitated al-Shabaab's communications with al-
Qaeda ``core,'' though al-Shabaab also appeared to have a line of 
communications that ran outside of Yemen as well.\9\ Multiple sources 
document the movement of fighters across the Gulf of Aden.\10\ The Arab 
Spring presented AQAP with the opportunity to develop additional 
relationships. It purportedly supported the establishment of an al-
Qaeda-linked cell in Egypt under the leadership of Mohamed Jamal Abu 
Ahmed by sending him fighters and funding.\11\ Mohamed Jamal, a former 
member of the Egyptian Islamic Jihad, knew AQAP leaders Nasser al 
Wahayshi, Adil al Abab, and Qasim al Raymi.** The Wall Street Journal 
reported that Jamal's group was connected to the September 11, 2012 
attack on the U.S. consulate in Benghazi, Libya.\12\
---------------------------------------------------------------------------
    \8\ ``United States of America vs. Ahmed Abdulkadir Warsame,'' 
United States District Court, Southern District of New York, July 5, 
2011, http://graphics8.nytimes.com/packages/pdf/world/
Warsame_Indictment.pdf.
    \9\ Brian Bennett, ``Al-Qaeda's Yemen Branch Has Aided Somalia 
Militants, U.S. Says,'' Los Angeles Times, July 18, 2011, http://
articles.latimes.com/2011/jul/18/world/la-fg-bin-laden-somalia-
20110718.
    \10\ Martin Plaut, ``Somalia and Yemen Swapping Militants,'' BBC, 
January 17, 2010, http://news.bbc.co.uk/2/hi/8463946.stm, Casey Coombs, 
``African Militants Learn from al-Qaeda in Yemen,'' Global Post, 
September 10, 2012, http://www.globalpost.com/dispatch/news/war/
conflict-zones/120907/al-qaeda-arabian-peninsula-yemen-somalia-al-
shabaab-gulf-aden.
    \11\ ``State Security Prosecution Present Nasr City Cell File to 
Public Prosecutor for Transfer to the Criminal Court,'' Youm7, February 
6, 2013 [Arabic], http://www1.youm7.com/News.asp?NewsID=935561&.
    ** Mohamed Jamal had been imprisoned under Hosni Mubarak's regime, 
but was released in 2011. He was arrested in 2012 and is incarcerated 
in Egypt.
    \12\ Siobhan Gorman and Matt Bradley, ``Militant Link to Libya 
Attack,'' Wall Street Journal, October 1, 2012, http://online.wsj.com/
article/SB10000872396390444549204578020373- 444418316.html. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Nasser al Wahayshi, AQAP's emir, was also in direct contact with 
Abdelmalek Droukdel, AQIM's emir, and the al-Qaeda core leadership in 
Pakistan, in addition to al-Shabaab's leadership. Two separate letters 
recovered in a document cache in Timbuktu, Mali, reveal Wahayshi's 
counsel to Droukdel.\13\ In his first letter, dated May 21, 2012, 
Wahayshi congratulated Droukdel on his progress in Mali and compared 
AQIM's relationship with Ansar al Din (an ethnically Tuareg militant 
Islamist group) with AQAP's Ansar al Sharia. He advised Droukdel that 
AQIM could generate support by providing basic services and fulfilling 
daily needs, like food and water. In his second letter, dated August 6, 
2012, Wahayshi explained AQAP's loss in south Yemen against the Yemeni 
security forces and cautioned Droukdel against declaring an emirate 
when he would not be able to fulfill the role of a state.*** Wahayshi 
also mentioned he held communications from the core group for Droukdel.
---------------------------------------------------------------------------
    \13\ Rukmini Callimachi, ``Yemen Terror Boss Left Blueprint for 
Waging Jihad,'' Associated Press, August 9, 2013, http://
bigstory.ap.org/article/yemen-terror-boss-left-blueprintwaging-jihad. 
The letters are available here: http://hosted.ap.org/specials/
interactives/_international/_pdfs/al-qaida-papers-how-to-run-a-
state.pdf.
    *** Osama bin Laden offered Wahayshi similar advice, but it appears 
to have been ignored in Yemen.
---------------------------------------------------------------------------
    Today, AQAP continues to seek to attack the United States and to 
nurture lateral connections with other groups in the al-Qaeda network. 
It is believed that a credible threat stream from the Arabian 
Peninsula, where AQAP operates, instigated the closure of diplomatic 
posts across North Africa and the Middle East. Like other groups in the 
al-Qaeda network, AQAP preferenced its local fight against the Yemeni 
government during the Arab Spring, but it was also able to sustain a 
second operational line devoted to attacking the United States. Other 
al-Qaeda groups follow the model established by AQAP today, though many 
have yet to develop the capabilities to conduct an attack against the 
United States and to support such efforts.
    The implications for this new model for al-Qaeda groups are far-
reaching when studying the al-Qaeda network. First, there is no group 
at the heart of the network. The core group in Pakistan maintains a 
mediatory or advisory role, but it no longer issues directives. 
Therefore, operations specifically targeting a single group, including 
AQAP, would have a limited overall effect on the network. Second, the 
lateral connections--relationships between al-Qaeda groups--create a 
latticed structure that adds to the resiliency of the network. This 
latticed structure is what gives the network its strength. And finally, 
the entire al-Qaeda network, including groups operating solely at the 
local level, must be considered when devising any strategy to counter 
the network because of the existence of the latticed structure.
                    countering the al-qaeda network
    The strategy in place to counter al-Qaeda today remains largely 
consistent with that adopted by the Bush administration in 2001. That 
strategy emphasizes the killing of senior leadership in the core group 
as the means by which to disrupt the network. Under this strategy, the 
United States also pursues localized train-and-assist programs to 
enable local militaries to counter the growth of al-Qaeda-linked 
groups. The network model around which this strategy was designed is 
one that holds there is a central group at the heart of the network. In 
2001, this group was the one Osama bin Laden led directly, and it is 
often referred to as al-Qaeda core. The Obama administration grouped 
AQAP in with this central group after the December 2009 attack and 
began targeting both AQAP and al-Qaeda core senior leadership. The same 
occurred after the Tehrik-e-Taliban Pakistan's (TTP) May 2010 Times 
Square bombing. The recent appointment of AQAP's emir Wahayshi to 
ma'sul al 'amm (general manager or al-Qaeda's No. 2 position), has even 
led to assertions that AQAP has replaced the core group.
    The United States has been extremely successful at killing al-
Qaeda, AQAP, and TTP senior leadership. The United States has killed 
four of the top five al-Qaeda leaders in Pakistan in the past 3 years, 
including Osama bin Laden, Sheikh Said al Masri, Atiyah Abd al Rahman, 
and Abu Yahya al Libi.\14\ In Yemen, it has killed senior leader Anwar 
al-Awlaki, USS Cole bombers Abdul Munim al Fathani and Fahd al Quso, 
AQAP senior operative Mohamed Said al Umdah, spiritual leader Adil al 
Abab, and deputy leader Said al Shihri. The same is true for the TTP. 
AQAP and the TTP have both been able to regenerate leadership, limiting 
the long-term impact of U.S. operations. Al-Qaeda core is decimated, 
but such an effect required the dedication of significant U.S. military 
and intelligence assets and resources, and still, there are al-Qaeda 
senior operatives active today that are capable of leading the group. 
Partners' successes against al-Qaeda groups have been mixed, but 
overall, the network has expanded since the outbreak of the Arab 
Spring.
---------------------------------------------------------------------------
    \14\ Leon E. Panetta, ``The Fight against al-Qaeda: Today and 
Tomorrow,'' (speech at the Center for New American Security, 
Washington, DC) November 20, 2012, www.defense.gov/Speeches/
Speech.aspx?SpeechID=1737.
---------------------------------------------------------------------------
    The strategy to counter AQAP relies on American direct action 
operations targeting AQAP leadership and on Yemeni counterterrorism 
operations to combat the group on the ground. As noted, U.S. targeted 
strikes have killed a number of AQAP's leaders. America's partner in 
Yemen has had limited success. Yemeni troops, partnered with local 
militias, re-captured territory under AQAP's control in the beginning 
of 2012. Yemen's security forces have not, however, been able fully 
clear the territory of AQAP's local network. They are also riven with 
low-level instances of insubordination, which may limit their overall 
effectiveness. Many of the conditions that created a permissive 
environment in Yemen remain in place, including grievances against the 
central government and local conflict over access to resources such as 
water. It is not clear that this strategy will be effective against 
AQAP.
    America's tactical successes against al-Qaeda have not succeeded in 
weakening the overall network and probably will not have the desired 
effect. Instead, al-Qaeda is more expansive than it was at the 
beginning of 2011 and of 2001. Al-Qaeda's affiliate in Iraq has 
resurged and is conducting operations in both Iraq and Syria, for 
example.\15\ It also supported the establishment of Jabhat al Nusra, 
al-Qaeda's Syrian affiliate. The strengthening of these affiliates has 
strengthened the overall network. The targeting of a single group or 
select senior leadership has not disrupted the network, and only in 
Pakistan has it effectively weakened the al-Qaeda group. The failure to 
understand properly how the al-Qaeda network is operating today has 
confused U.S. strategy to counter it.
---------------------------------------------------------------------------
    \15\ Jessica D. Lewis, ``Al-Qaeda in Iraq Resurgent: The Breaking 
the Walls Campaign Part 1,'' The Institute for the Study of War, 
September 11, 2013, http://www.understandingwar.org/report/al-qaeda-
iraq-resurgent.
---------------------------------------------------------------------------
    Al-Qaeda has evolved since 2001 and the network today is much more 
complex and resilient. The heart of the network is now its latticed 
structure, which is composed of the interconnections among al-Qaeda 
core, the affiliates, and the associates.\16\ The relationships among 
al-Qaeda groups facilitate inter-group cooperation and the sharing of 
resources. The network is global, and therefore the United States needs 
a comprehensive global strategy to counter it. Al-Qaeda groups operate 
on the local level, though, and have proven to be responsive to minute 
shifts in local conditions. America's strategy to counter al-Qaeda must 
not only be global, but it also must be tailored locally to respond 
directly to the local conditions. Only then will the United States be 
able to neutralize effectively the threat from the al-Qaeda network.
---------------------------------------------------------------------------
    \16\ See Katherine Zimmerman, ``The al-Qaeda Network: A New 
Framework for Defining the Enemy,'' AEI's Critical Threats Project, 
September 10, 2013, http://www.criticalthreats.org/al-qaeda/zimmerman-
al-qaeda-network-new-framework-defining-enemy-september-10-2013.
---------------------------------------------------------------------------
             looking forward: the al-qaeda network in 2014
    Afghanistan is extremely important to al-Qaeda and the global jihad 
movement because of its history. The mujahideen's fight against the 
Soviets was the birth of the global jihad movement and brought together 
the future senior leaders of what would come to be known as al-Qaeda. 
Osama bin Laden's first major alliance was with the Pashtun warlord 
Jalaluddin Haqqani, who offered sanctuary to bin Laden's forces and 
shared in bin Laden's vision. There, bin Laden founded al-Qaeda and he 
would return in 1996 to Haqqani's sanctuary with the Taliban's approval 
when he lost favor in Sudan.
    President Barack Obama announced plans to draw down forces in 
Afghanistan and said that U.S. troop levels would be at 34,000 by 
February 2014. The American force posture in Afghanistan in the second 
half of 2014 and beyond remains unclear, and the bilateral security 
agreement discussions for a long-term American military presence in 
Afghanistan are formally suspended. Regardless of its shape, the 
reduced American military footprint will limit U.S. counterterrorism 
operations capabilities in the Afghanistan-Pakistan theater. 
Considerations extend beyond America's own military capabilities to 
those of the Afghan government: It must be able to sufficiently govern 
its territory to prevent civil war, the return of the Taliban, or 
significant power vacuums.\17\ If not, there is the risk that progress 
made in Afghanistan will be reversed.
---------------------------------------------------------------------------
    \17\ ``Why We Must Win in Afghanistan,'' American Enterprise 
Institute, October 17, 2012, http://www.aei.org/issue/foreign-and-
defense-policy/why-we-must-win-in-afghanistan/.
---------------------------------------------------------------------------
    Retreat from Afghanistan in any form will be a victory for al-Qaeda 
and will feed into its propaganda. Al-Qaeda's objective in Afghanistan 
has been to defeat the American military the way that the mujahideen 
defeated the Soviet military in 1989. The Soviet-supported Afghan 
government, under Mohammed Najibullah, faced a continued insurgency and 
collapsed in 1992, opening the space for the eventual rise of the 
Taliban. It is probable that today's insurgency in Afghanistan would 
continue after the withdrawal of American and international troops and 
would challenge the survival of the Afghan government. Afghanistan's 
political elite is also increasingly consumed by the upcoming 
presidential elections in April 2014, the outcome of which will 
determine the longevity of the country's constitutional system.\18\ 
These conditions set the stage for the possible return of al-Qaeda to 
Afghanistan.
---------------------------------------------------------------------------
    \18\ Mara Tchalakov, ``The Northern Alliance Prepares for Afghan 
Elections in 2013,'' The Institute for the Study of War, August 23, 
2013, http://www.understandingwar.org/report/northern-alliance-
prepares-afghan-elections-2014.
---------------------------------------------------------------------------
    Al-Qaeda's return to Afghanistan would have a resounding effect on 
the network. Al-Qaeda associates in Afghanistan such as the Islamic 
Movement of Uzbekistan, weakened by the American and international 
military presence, would probably resurge and destabilize the region. 
Jalaluddin Haqqani's son, Sirajuddin, who heads the Waziristan-based 
Haqqani network, would likely seek to regain territory in Khost, 
Paktika, and Paktia provinces in Afghanistan and would almost certainly 
maintain his group's partnership with the Afghan Taliban, possibly 
positioning the Haqqani network to extend beyond its previous 
territories. The Haqqani network would also probably maintain its ties 
with al-Qaeda given the Haqqanis' ideological sympathies and trajectory 
of supporting the group over the past 25 years.\19\ Such a relationship 
may translate to support for al-Qaeda in Haqqani-controlled territory. 
The al-Qaeda-run training camps in Afghanistan in the 1990s churned out 
leaders of militant Islamist groups in Algeria, Tunisia, and Libya, 
among others. Today, these groups are members of the al-Qaeda network. 
Though freedom of movement for al-Qaeda operatives is more limited now 
than in the past, the resumption of militant training and religious 
indoctrination in Afghanistan would be a significant boost to the 
overall al-Qaeda network.
---------------------------------------------------------------------------
    \19\ Vahid Brown and Don Rassler, Fountainhead of Jihad: The 
Haqqani Nexus, 1973-2012 (London: C. Hurst and Co. Ltd., 2013) 243.
---------------------------------------------------------------------------
                               conclusion
    The United States still faces a significant threat from the al-
Qaeda network. One of the reasons for this is that American strategy to 
counter al-Qaeda did not change as the network evolved. Tactical 
successes in Yemen or Pakistan will not lead to victory, and may be 
reversed should pressure on groups be removed. Understanding the 
latticed structure that forms the heart of the al-Qaeda network will 
more fully develop a picture of how the entire network is operating. 
Locally focused al-Qaeda groups, currently dismissed and at times 
ignored, are extremely important to the al-Qaeda network because of how 
they support the efforts of such groups as AQAP. Any strategy to 
counter the al-Qaeda network must recognize the role of these local 
groups in strengthening the network. Including them as part of the 
network does not necessarily lead to the conclusion that the United 
States must deploy forces or invest heavily in military assets where 
the al-Qaeda network is active. It does require that policymakers 
invest in a substantial effort to develop a global strategy with local 
solutions to counter the entire al-Qaeda network.
    We must fully understand the al-Qaeda network, and then, and only 
then, will we be in the position to craft a strategy to defeat it.

    Mr. King. Thank you very much.
    Our next witness, Mr. Brian Katulis is a senior fellow at 
the Center for American Progress where his work focuses on U.S. 
and National security policy in the Middle East and South Asia. 
Excuse me.
    Mr. Katulis has served as a consultant with--no reflection 
on Mr. Katulis--served as a consultant to numerous Government 
agencies, private corporations, and non-Government 
organizations in more than 2,000 countries including Iraq, 
Pakistan, Afghanistan, Yemen, Egypt, and Colombia. From 1995 to 
1998 he worked in the West Bank, Gaza Strip, and Egypt for the 
National Democratic Institute of International Affairs.
    We welcome your testimony. Thank you.

STATEMENT OF BRIAN KATULIS, SENIOR FELLOW, CENTER FOR AMERICAN 
                            PROGRESS

    Mr. Katulis. Great. Thank you, Mr. Chairman. I think you 
will hear that the panel today is in violent agreement on most 
issues. So what I wanted to do was highlight four points from 
my written testimony.
    First, at the outset I want to highlight that more than a 
decade after the 9/11 attacks it is my assessment that the 
United States still lacks the overall ability to assess 
strategically whether the Government is properly matching 
resources to meet the threats posed by these various terrorist 
networks.
    This picks up from a point that Katherine just made in her 
testimony that despite the great work by our military personnel 
and people serving in our intelligence agencies, and despite 
the tremendous leaps and advances in technology and our ability 
to target financial networks and other things. It has been a 
stunning revolution.
    The United States still lacks this overall strategy that 
anticipates the emergence of new threats and nimbly changes our 
approach to adapt to these new networks. These networks are 
very adaptive. I think Congress has a very important role in 
pressing the Executive branch in this area to help the Nation 
become even more secure.
    In sum, I think the United States still lacks clear metrics 
that can help senior policymakers assess whether the current 
strategic focus of U.S. efforts to protect the homeland has the 
right priorities, objectives, and tactics.
    The USCT efforts against al-Qaeda in Yemen is a prime 
example of a series of tactical efforts producing some 
successes, some failures. But all of these efforts are nested 
in an overall weak strategy lacking sufficient focus on the 
long-term investments needed to produce sustainable security. 
So that is the first point.
    Second point is mostly to echo much of what Frank and 
Katherine said about AQAP, and then what you, Mr. Chairman and 
Mr. Higgins said in your opening testimonies about AQAP. It is 
the most dangerous organization. It is a hybrid form in that it 
has both local goals and the goal of attacking the United 
States and international targets. It is very dangerous for the 
reasons that we have all mentioned here.
    It maintains a very strong regional focus, particularly 
against the governments of Yemen and Saudi Arabia. In addition 
to the actions it has undertaken against Saudi Arabia and 
Yemen, AQAP, as Frank mentioned, has served as a key 
interlocutor with a number of all al-Qaeda terrorist branches 
like al-Shabaab and AQIM, al-Qaeda in the Maghreb.
    So this is the second point, to agree that this assessment 
is correct. There is not much disagreement about where AQAP is.
    I think the third point I want to stress is more of an 
assessment on U.S. efforts against AQAP. I think since 2009 the 
United States has been increasingly involved in an air campaign 
against AQAP using a range of measures, air strikes in Yemen 
that escalated in 2012 up to about 54 according to some Open 
Source information.
    Again, this policy has had several tactical successes in 
eliminating key al-Qaeda in the Arabian Peninsula leaders. In 
fact the recent shift towards regional plots by AQAP, as 
evidenced by the recent regional embassy closures this summer, 
suggest a possible degradation of AQAP's capabilities to mount 
plots outside of the Middle East. A possible degradation of 
that ability, but I think AQAP still remains dangerous.
    The main point I want to stress here is that I think we 
have a series of tactics focused on kinetic measures. That our 
policy in Yemen needs to focus more on what we can do to help 
the Yemenis help themselves, in building institutions, in 
building a stronger government so that they themselves are 
carrying this fight much more effectively, and eliminating 
threats in the long run.
    That is where I think over the last 12 years in Yemen, in 
Iraq, in Afghanistan the United States has fallen short. That 
is where I think we need a more holistic assessment.
    In closure, and the final point, fourth point I want to 
make is more towards the future and what we are likely to see 
in the region. AQAP, as I mentioned, is a hybrid organization 
that has this dual focus on international targets and regional 
targets.
    However, what we have seen in the last 2 years in the 
upheaval in the Middle East, the proliferation of jihadist 
militant groups, presents I think a potential recruitment 
problem for AQAP and core al-Qaeda. In particular, Syria's 
civil war has provided a magnet for both jihadist funding and 
recruitment. The lawlessness in the Sinai in Egypt should 
concern all of us.
    There is a bigger picture going on here. AQAP, I think, is 
facing some stresses because of that. It is facing greater 
competition from other jihadist groups for potential recruits. 
This competition may both serve to harm and help American 
interests by drawing jihadi funding and recruitment away from 
AQAP and towards more regionally-focused targets. But it could 
also spin out in ways that continue to present a threat for the 
United States in the long run.
    In sum, and I will close here, is that our discussion on 
counterterrorism needs to be nested also in this complicated 
discussion about the broader upheaval in the Middle East 
because it needs to be much more interlinked to how these 
societies build their governments and build a much more 
capable, functioning security system for themselves.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Katulis follows:]
                  Prepared Statement of Brian Katulis
                           September 18, 2013
    Mr. Chairman and Members of the subcommittee: More than 12 years 
after the September 11 attacks, and 2\1/2\ years into the Middle East 
uprisings, the United States continues to face dangerous threats on a 
daily basis from that region of the world. Complicated security and 
political dynamics present new challenges for U.S. National security in 
the Middle East, and new threats posed by a number of Islamist 
terrorist networks affiliated with al-Qaeda in transition have emerged 
across the region.
    That is why it is important to take opportunities such as today's 
hearing to step back from the daily events, assess the security 
implications of the recent changes in the Middle East, and focus in on 
the overall status of the al-Qaeda network and the particular threats 
posed by al-Qaeda in the Arabian Peninsula, or AQAP.
    At the outset, it is worth noting that more than a decade after the 
September 11 attacks transformed the way we as a Nation view these 
threats, the United States still lacks the overall ability to assess 
strategically whether the Government is properly matching resources to 
meet the threats posed by these various terrorist networks.
    The United States has invested in many new sophisticated means to 
collect intelligence against a range of terrorist networks, and it has 
substantially enhanced its capabilities to take action against these 
networks through various kinetic actions, targeting financial networks, 
and countering propaganda produced by terrorist groups. The use of new 
technologies and weapons systems by the United States has been a 
stunning revolution. The U.S. Government has become more capable in 
reacting and responding to new threats.
    But the United States still lacks an overarching strategy that 
anticipates the emergence of new threats and adapts nimbly to fast 
changes within terrorist networks. America's ability to assess the 
overall strategy to counter terrorist networks around the world remains 
limited and hampered by bureaucratic challenges. In sum, the United 
States still lacks clear and discernible metrics that can help senior 
policymakers assess whether the current strategic focus of all U.S. 
Government efforts to protect the homeland from terrorist attacks has 
the right priorities, objectives, and tactics to reinforce the 
strategy. The U.S. counterterrorism efforts to respond to the threats 
posed by AQAP in Yemen is a prime example of a series of tactical 
efforts producing some successes and some failures, but all of these 
efforts are nested in a weak overarching strategy lacking sufficient 
focus on the long-term investments necessary to help produce 
sustainable security.
    current state of al-qaeda and al-qaeda in the arabian peninsula
    Since 2008, al-Qaeda's core organization in Pakistan has suffered a 
series of severe losses, including the death of founder Osama bin Laden 
at the hands of U.S. forces in 2011. These continuing losses have 
sufficiently harmed the group such that, according to the U.S. director 
of national intelligence's March 2013 worldwide threat assessment, core 
al-Qaeda ``is probably unable to carry out complex, large-scale attacks 
in the West.''\1\ As a result, the major threats posed by al-Qaeda are 
increasingly less about the core organization that attacked the United 
States on September 11, 2001, and more related to a series of local and 
regional organizations sharing a common ideology.
---------------------------------------------------------------------------
    \1\ James R. Clapper, ``Worldwide Threat Assessment of the US 
Intelligence Community,'' March 13, 2013, available at http://
www.dni.gov/files/documents/Intelligence%20Reports/
2013%20ATA%20SFR%20for%20SSCI%2012%20Mar%202013.pdf.
---------------------------------------------------------------------------
    The most dangerous of these more local organizations is AQAP, which 
represents a hybrid of the transnational core al-Qaeda organization on 
the one hand and largely regional groups like al-Qaeda in the Islamic 
Maghreb, or AQIM, or the Islamic State of Iraq and al-Sham, or ISIS. 
Whereas core al-Qaeda remains focused on global strategic goals, groups 
such as AQIM and ISIS focus primarily on national or regional 
objectives. By contrast, AQAP pursues both local goals and attacks 
against the United States and other international targets.
    One possible reason for this hybrid focus is a stronger 
organizational tie between AQAP and core al-Qaeda. Yemen served as a 
core al-Qaeda communications hub prior to the 9/11 attacks. Before 9/
11, al-Qaeda elements attacked the U.S.S. Cole in Aden in October 2000. 
AQAP's leader, Nasir al-Wuhayshi, had served as bin Laden's personal 
secretary and was in Afghanistan prior to the fall of the Taliban in 
2001. He was also part of the February 2006 jailbreak in Yemen that 
preceded the formation of AQAP, and was tapped this summer to serve as 
core al-Qaeda's ``general manager'' by Ayman al-Zawahiri.\2\
---------------------------------------------------------------------------
    \2\ Eric Schmitt and Mark Mazzetti, ``Qaeda Leader's Edict to Yemen 
Affiliate Is Said to Prompt Alert,'' The New York Times, August 5, 
2013, available at http://www.nytimes.com/2013/08/06/world/middleeast/
qaeda-chiefs-order-to-yemen-affiliate-said-to-prompt-alert.html.
---------------------------------------------------------------------------
    The 2006 jailbreak is a seminal moment that contributed to the 
eventual creation of AQAP. Along with Wuhayshi, 22 other jailed al-
Qaeda members escaped. By September 2006, al-Qaeda in Yemen, or AQY, 
was conducting large-scale suicide terrorist attacks against Yemeni oil 
facilities. In 2008, AQY conducted a series of attacks against Western 
diplomatic and Yemeni government facilities, including an attack with 
multiple car bombs outside the U.S. embassy that killed 13 in September 
2008.\3\
---------------------------------------------------------------------------
    \3\ National Counterterrorism Center, ``Al-Qa'ida in the Arabian 
Peninsula (AQAP),'' available at http://www.nctc.gov/site/groups/
aqap.html.
---------------------------------------------------------------------------
    In January 2009, AQY merged with the remnants of the al-Qaeda 
organization in Saudi Arabia that had been conducting attacks in the 
Kingdom since 2003 to form AQAP. During the last 4 years, AQAP has come 
to form the most direct terrorist threat to the United States, as 
direct threats to U.S. homeland security from Pakistan reduced in part 
due to the aggressive counterterrorism efforts pursued since 2008 
there.
    In the past 4 years, AQAP has attempted multiple attacks against 
the United States, including the Christmas 2009 underwear bomb plot 
against a U.S.-bound airliner, the October 2010 parcel bomb plot, and 
most recently last summer's shutdown of U.S. diplomatic facilities 
across the Middle East. This threat has prompted the United States to 
become directly involved in Yemen, conducting an active campaign 
against AQAP in coordination with the Yemeni government and other 
governments in the region.
    Moreover, AQAP has sought to foment ``lone wolf'' attacks in the 
West via propaganda such as the English-language Inspire on-line 
magazine. AQAP ideologues like Anwar al-Awlaki and Inspire have been 
implicated in several attacks, including the 2009 Fort Hood shooting 
and the 2013 Boston Marathon bombing.\4\ Despite the elimination of al-
Awlaki and Inspire editor-in-chief Samir Khan in a U.S. airstrike in 
September 2011, AQAP's desire to spread violence to the West by 
encouraging attacks by individuals heretofore unaffiliated with 
terrorist organizations remains. This approach has also been encouraged 
by core al-Qaeda leader Zawahiri in his latest tape recording.\5\
---------------------------------------------------------------------------
    \4\ Caitlin Dewey, ``Al-Qaeda's Inspire Magazine Celebrates Boston 
Bombings,'' The Washington Post, May 31, 2013, available at http://
www.washingtonpost.com/blogs/worldviews/wp/2013/05/31/al-qaedas-
inspire-magazine-celebrates-boston-bombings/.
    \5\ James Gordon Meek, ``al-Qaeda Leader Calls for Followers to Aim 
Lower in Attacks,'' ABC News, September 13, 2013, available at http://
abcnews.go.com/Blotter/al-qaeda-leader-calls-followers-aim-lower-
attacks/story?id=20250860.
---------------------------------------------------------------------------
    AQAP maintains a strong regional focus--particularly against the 
governments of Yemen and Saudi Arabia. Yemeni and Saudi officials have 
been the targets of AQAP attacks since the group's formation in 2009, 
most notably an attempt against Saudi Arabia's then-counterterrorism 
chief Prince Mohammed bin Nayef. Saudi intelligence also played a 
crucial role in disrupting a May 2012 AQAP plot to bomb a U.S.-bound 
airliner with an improved underwear explosive.\6\ The threats posed by 
AQAP produced incentives for several countries in the region to work 
more closely with the United States on counterterrorism efforts, most 
notably Saudi Arabia, which hosts a drone base from which the United 
States conducts operations against AQAP in Yemen.\7\
---------------------------------------------------------------------------
    \6\ Sudarsan Raghavan, Peter Finn, and Greg Miller, ``In Foiled 
Bomb Plot, AQAP Took Bait Dangled by Saudi Informant,'' The Washington 
Post, May 9, 2012, available at http://articles.washingtonpost.com/
2012-05-09/world/35456649_1_underwear-bomb-bomb-plot-al-qaeda.
    \7\ Greg Miller and Karen DeYoung, ``Brennan Nomination Exposes 
Criticism on Targeted Killings and Secret Saudi Base,'' The Washington 
Post, February 5, 2013, available at http://www.washingtonpost.com/
world/national-security/brennan-nomination-opens-obama-to-criticism-on-
secret-targeted-killings/2013/02/05/8f3c94f0-6fb0-11e2-8b8d-
e0b59a1b8e2a_story.html.
---------------------------------------------------------------------------
    Beyond direct action against the Saudi and Yemeni governments, AQAP 
has also served as a key interlocutor with other al-Qaeda-linked 
terrorist branches. For instance, AQAP has provided weapons and 
training to Somalia's al-Shabaab group according to the guilty plea of 
Ahmed Warsame.\8\ AQAP leader Wuhayshi has also been in contact with 
the leaders of AQIM according to documents found in Mali following the 
French intervention against jihadist forces there in January 2013.\9\
---------------------------------------------------------------------------
    \8\ FBI, ``Guilty Plea Unsealed in New York Involving Ahmed 
Warsame, a Senior Terrorist Leader and Liaison Between al-Shabaab and 
al Qaeda in the Arabian Peninsula, for Providing Material Support to 
Both Terrorist Organizations,'' Press release, March 25, 2013, 
available at http://www.fbi.gov/newyork/press-releases/2013/guilty-
plea-unsealed-in-new-york-involving-ahmed-warsame-a-senior-terrorist-
leader-and-liaison-between-al-shabaab-and-al-qaeda-in-the-arabian-
peninsula-for-providing-material-support-to-both-terrorist-
organizations.
    \9\ Bill Roggio, ``Wuhayshi Imparted Lessons of AQAP Operations in 
Yemen to AQIM,'' Long War Journal, August 12, 2013, available at http:/
/www.longwarjournal.org/archives/2013/08/wuhayshi_imparts_les.php.
---------------------------------------------------------------------------
    Outside of its obvious role in Yemen, AQAP has played little role 
in the on-going political transitions in the region. A number of other 
jihadist groups have played more direct roles in North African states 
such as Libya, Tunisia, and Egypt. AQAP's influence there is likely 
limited to advice and possible support. In Yemen, AQAP has sought to 
take advantage of the chaos and uncertainty surrounding the transition 
from the Saleh regime to take and hold territory. However, this effort 
has been met with a U.S.-supported Yemeni government counteroffensive 
that has in part reversed AQAP's gains. AQAP's wider regional role has 
therefore been limited, which is somewhat expected given its previous 
focus on Saudi Arabia, Yemen, and the West.
                assessment of u.s. efforts against aqap
    The United States became directly involved in efforts against AQAP 
in December 2009, when the Obama administration launched a cruise 
missile strike against AQAP targets in order to prevent ``an imminent 
attack against a U.S. asset.''\10\ (This strike is also believed to 
have unfortunately killed dozens of civilians.) The U.S. air campaign 
against AQAP began in earnest in May 2011, when the United States 
launched the first of 14 airstrikes in Yemen that year. Subsequently, 
the United States conducted 54 airstrikes in Yemen in 2012 and 23 thus 
far in 2013.\11\
---------------------------------------------------------------------------
    \10\ Brian Ross and others, ``Obama Ordered U.S. Military Strike on 
Yemen Terrorists,'' ABC News, December 18, 2009, available at http://
abcnews.go.com/Blotter/cruise-missiles-strike-yemen/story?id=9375236.
    \11\ New America Foundation, ``U.S. Covert War in Yemen,'' New 
America Foundation, available at http://yemendrones.newamerica.net/ 
(last accessed September 2013).
---------------------------------------------------------------------------
    This policy has scored several tactical successes in eliminating 
key AQAP leaders and helping the Yemeni government reverse AQAP's 
battlefield advances. In addition to al-Awlaki and Khan, U.S. 
airstrikes in Yemen have killed a number of AQAP leaders from Abdul 
Munim Salim al-Fatahani, Fahd al-Quso, and Muhammad Saeed al-Umda in 
2012,\12\ to Saeed al-Shehri, then AQAP's second-in-command, and Qaeed 
al-Dhahab in 2013.\13\ In addition to their roles in AQAP, Fatahani and 
Quso were both believed to have been involved in the Cole bombing, and 
Quso likely was involved in supporting the 9/11 hijackers as well. Umda 
was believed to have been involved in the 2002 attack on the oil tanker 
Limburg.
---------------------------------------------------------------------------
    \12\ Bill Roggio, ``AQAP Operative Killed in Recent Drone Strike in 
Yemen,'' The Long War Journal, February 3, 2012, available at http://
www.longwarjournal.org/archives/2012/02/aqap_operative_kille.php; Hakim 
Almasmari, ``Senior al Qaeda Operative Killed By Airstrike in Yemen,'' 
CNN.com, May 7, 2012, available at http://www.cnn.com/2012/05/06/world/
africa/yemen-airstrikes; Reuters, ``FBI Chief in Yemen as Drone Kills 
AQAP Leader,'' April 24, 2012, available at http://www.reuters.com/
article/2012/04/24/us-yemen-idUSBRE83N0X- B20120424.
    \13\ Alexander Marquardt, ``al-Qaeda Leader Gets Lazy, Killed in 
Drone Strike, Terror Group Says,'' ABC News, July 17, 2013, available 
at http://abcnews.go.com/blogs/headlines/2013/07/al-qaeda-leader-gets-
lazy-killed-in-drone-strike-terror-group-says/; Al-Arabiya, ``Al-Qaeda 
Confirms Death of Yemen Leader Qaeed al-Dhahab,'' September 15, 2013, 
available at http://english.alarabiya.net/en/News/middle-east/2013/09/
15/Al-Qaeda-confirms-death-of-Yemen-leader.html.
---------------------------------------------------------------------------
    The recent shift toward regional plots, as evidenced by the 
regional embassy closures this summer, suggests a possible degradation 
of AQAP's capability to mount plots outside the Middle East.
    These tactical successes, however, are not reinforced by a broader, 
more coherent U.S. policy to promote Yemen's transition to democracy 
under President Abdo Rabu Mansour Hadi. There is an inherent tension 
between the long-term objective of supporting a transition to a stable 
democracy in Yemen and the short-term imperative of preventing 
terrorist attacks against the United States and our allies and partners 
in the region. This short-term imperative is being at a quicker speed 
than the more difficult problem of transitioning a developing country 
from authoritarianism to democracy. This transition cannot be 
accomplished at a pace that will solve the immediate and pressing 
security challenge presented by AQAP.
    However, it is possible for the United States to try and better 
link these short- and long-term policies. Doing so will be difficult, 
but offers a chance to translate recent tactical success into long-term 
stability. President Hadi has recently outlined the progress made in 
Yemen's political transition,\14\ and should be commended and supported 
as the transition continues. Encouraging Yemen's National Dialogue to 
be as inclusive as possible to include Southern Yemenis and those 
outside the capital, Sanaa, will be important, as will ensuring the 
Yemeni government meets its commitments on human rights and democratic 
reforms.
---------------------------------------------------------------------------
    \14\ Abdu Rabu Mansour Hadi, ``Distancing the Past for a Brighter 
and Democratic Future,'' Yemen Times, September 15, 2013, available at 
http://yementimes.com/en/1711/opinion/2887/Distancing-the-past-for-a-
brighter-and-democratic-future.htm.
---------------------------------------------------------------------------
    Of particular importance going forward will be support for security 
sector reform. Despite some progress in purging the security services 
of Saleh loyalists,\15\ developing an effective and professional 
security sector capable of tackling AQAP with minimal U.S. support will 
likely take time.
---------------------------------------------------------------------------
    \15\ Holger Albrecht, ``The Security Sector in Yemen'' (Washington: 
United States Institute of Peace, 2013), available at http://
www.usip.org/sites/default/files/PB142-Security-Sector-in-Yemen.pdf.
---------------------------------------------------------------------------
    In short, the United States should make every effort to sync up the 
imperatives of its short-term fight against AQAP with the long-term 
goal of a stable and developing Yemeni democracy that is able to 
provide for its own security. This effort will be difficult, but not 
impossible.
                       next phase of u.s. policy
    The withdrawal of U.S. forces from Afghanistan next year is 
unlikely to have a major impact on either core al-Qaeda or AQAP. 
Assuming a bilateral security agreement between the United States and 
Afghanistan is concluded, U.S. forces will remain in Afghanistan to 
conduct operations against core al-Qaeda if and when necessary. 
However, core al-Qaeda is less important today than before its 
evisceration began in 2008. Branch al-Qaeda organizations such as AQIM 
and ISIS are likely to prove greater challenges to U.S. interests even 
if they do not directly target the U.S. homeland.
    AQAP is a hybrid organization that maintains a dual focus on 
international targets such as the U.S. homeland and more local and 
regional goals such as fighting the Yemeni and Saudi governments. It 
will therefore rightly receive more attention from U.S. policymakers 
than AQIM, ISIS, or the myriad jihadist groups operating in Egypt's 
Sinai Peninsula. While these groups operate in regions with equally 
good prospects for serving as a terrorist ``safe haven,'' they do not 
as yet present the same direct threat to the U.S. homeland or regional 
interests as AQAP.
    However, the proliferation of jihadist militant groups does present 
a potential recruitment problem for AQAP and core al-Qaeda. In 
particular, Syria's civil war has provided a magnet for both jihadi 
funding and recruitment. Increased lawlessness in the Sinai may prove a 
more attractive prospect for militants than fighting in Yemen, 
particularly in the wake of the Muslim Brotherhood's ouster from power 
in Egypt, and AQIM's activities in North Africa present another 
possible syphon of recruits and funding. In short, AQAP is facing 
greater competition from other jihadist groups for potential recruits. 
Paradoxically, this competition may both serve and harm American 
interests by drawing jihadi funding and recruitment away from AQAP, the 
only non-core al-Qaeda organization that directly targets the U.S. 
homeland, and toward various other groups that pose threats both to 
U.S. regional interests and the citizens of the region itself.
    While it remains appropriate for U.S. policy to concentrate on the 
threat posed by AQAP, policymakers should begin re-evaluating the 
threat posed by al-Qaeda to take into account its evolution from the 
core organization that attacked the United States on 9/11. AQAP serves 
as an example of al-Qaeda's transition from a core organization based 
in Afghanistan and Pakistan with grandiose global objectives to a 
series of largely independent but mutually supportive branch offices 
with a more local and regional focus. These movements still pose a 
threat to the United States and its allies, but the nature of these 
threats are constantly changing.
    These changes and transitions within terrorist networks such as 
AQAP require a more strategic and nimble policy approach by the United 
States. The Middle East has entered a difficult and complicated period 
of transitions, one that will likely be prolonged and will present new 
challenges for U.S. security. Syria's civil war, on-going unrest in 
Egypt, Iran's role in supporting terrorist groups around the region, 
and the unsettled security situations in Yemen and Libya all present 
substantial challenges to U.S. security.
    During the last 12 years, the United States has increased its 
capabilities to identify, target, and act against a range of terrorist 
networks operating in the Middle East. What it has not succeeded in 
doing is helping the countries and governments of the region develop 
their own institutions that possess sufficient capability and political 
legitimacy to produce the long-term gains necessary ultimately to 
defeat the threats posed by groups like al-Qaeda in the Arabian 
Peninsula.

    Mr. King. Thank you, Mr. Katulis. I thank all the witnesses 
for the testimony.
    I think one thing that struck me is that the three of you 
come from such different perspectives yet all share the belief 
that AQAP and al-Qaeda and its affiliates and the whole al-
Qaeda organization is so extremely dangerous to the United 
States. I agree with you. Probably many Members on this 
committee would agree with you. But I don't know if the 
American people share that knowledge at all.
    Without getting into the whole Syria debate because I 
realize that is separate, but one of the reasons why I think 
people objected so much to Syria is that they are war-weary. 
They just somehow feel this is going on for so many years.
    Quite frankly, without making this partisan, I wish the 
White House would talk more about what a real threat al-Qaeda 
is rather than saying bin Laden is dead and we are back to a 
pre-9/11 stage because in many ways I think it is more 
dangerous than it was before 9/11.
    I guess I am asking for advice from you on how do we get 
that out to the public? Is the burden on us as elected 
officials, as people in the public eye? Without sounding like 
we are war-mongers and we just want a war never to end? I mean 
that is another expression that is used a lot, we can't have 
endless wars. This is almost as close to one as we are going to 
have, I think, certainly in our lifetimes and certainly over 
the next 5, 10 years.
    Do you have any thoughts to that, as to how we can generate 
public intentions so we don't walk around and worry about being 
attacked every moment, but also realizing that we have an enemy 
that is 24/7 trying to find ways to kill us in many forms. I 
guess we will just go down the line.
    Frank, Mr. Cilluffo.
    Mr. Cilluffo. Thank you, Mr. Chairman. I think you raise a 
very significant set of issues that is playing out not only in 
respect to Syria, but on a whole host of different matters.
    I think first and foremost it is being as transparent as we 
can be in terms of conveying the facts. Keep in mind, they are 
the ones who declared war, it is not the other way around. So 
as much as we can convey the information as clearly in a way 
that is not emotional but factually-based I think we have a 
responsibility, not just the Executive branch but the 
Legislative branch and those of us who study these issues. I 
think that is critically important as well.
    Let me also suggest that I am very concerned that in a 
recent environment that the terrorists are learning from some 
of the leaks that continue to leak, like a sieve, from 
Washington. Most notably, they are going to alter their trade 
craft, whether it is their communications, whether it is their 
planning, and even their operations, I would argue, and I am 
probably in the minority on this panel here.
    Think of suppressive fire. We can wait until the threat 
emanates and is in front of us or we can keep the adversary 
looking a little bit over their shoulder so they have less time 
to plot, train, and execute attacks. We need to continue to 
keep our foot, to one extent or another, on the gas pedal.
    Let me also just underscore one thing that I think is the 
greatest missing dimension of our counterterrorism state craft 
since 9/11. This is to paraphrase a campaign manager for Bill 
Clinton. I am not suggesting I am talking to you guys, but in 
this case it is the ideology, that is stupid.
    We have not gotten our arms around the ability to push 
back, expose, unpack the hypocrisy that al-Qaeda espouses. That 
is what makes AQAP unique. It is 11 editions of Inspire, and 
case after case after case after case will show that Anwar al-
Awlaki played a role in some of the home-grown cases, as well 
as the foreign fighters.
    I think Brian was spot-on. When you look at Syria you have 
got thousands of Western foreign fighters fighting along in 
Syria right now. What happens when they go home?
    In the past you had seen AQAP was the first organization 
that truly went out of their way to try to recruit 
``cleanskins,'' as they would be referred to, those with the 
ability to travel freely. That is a big issue.
    It is a very significant issue. Quite honestly we still 
have an awful lot to do. Part of that is just as much as we can 
without getting into emotion just laying out the facts and let 
the American people decide based on that.
    Mr. King. Ms. Zimmerman, don't worry about the time because 
there are only two of us so take whatever time you need to 
answer.
    Mr. Cilluffo. I have never had an unspoken thought.
    Mr. King. No, no.
    Ms. Zimmerman. Thank you.
    I think that what I want to draw out is that, though we may 
be war-weary, al-Qaeda is still attempting to attack the United 
States, and that the strategy to counter it doesn't need to be 
solely based on a military strategy.
    This draws on some of what Brian brought up in his 
testimony that al-Qaeda groups thrive in areas of lower, poor 
governance, and are able to take advantage of grievances 
against the Government or local administrations, and are able 
to find traction where basic services are not being provided.
    You can look at south Yemen in 2011, in the spring of 2011, 
as a very good example of how AQAP was able to be down on the 
ground at the local level and address basic grievances of the 
population and actually start taking control of territory. In 
the end it wasn't successful, but that example shows how al-
Qaeda is attempting to take advantage of gaps in governance and 
gaps in basic services to build popular support.
    I want to point you also to a letter from AQAP's leader to 
the leader of al-Qaeda's leader in Maghreb, which advised him 
and counseled him not to declare a state because then you have 
to provide all the goods and services of a state, but to be 
almost a state. That way the people would turn to you, but you 
are not to blame if you fail. I think that what we are seeing 
is al-Qaeda groups applying lessons learned, as Frank 
mentioned, and growing from there.
    So we can start to counter al-Qaeda by countering issues in 
governance, in human rights and on the softer side where there 
is much broader appeal for the American people.
    Mr. King. How possible is that in Yemen, for instance, 
under the current government or the immediately previous 
government?
    Ms. Zimmerman. The current government is still very weak 
from its transition. But there is a lot of popular support 
still and hope for change. The National Dialogue, which is a 
process that has brought together opposition groups is actually 
wrapping up today, and final reports are due tomorrow from 
different various working groups that will move forward the 
transition process.
    What Yemen needs, though, is a much longer-term investment 
from partners. It has long-term socioeconomic issues that are 
coming to the floor now and that are only going to grow worse. 
Unemployment rate, natural resources drawing down, these are 
issues that are going to come up in the next 5 to 10 years, and 
there doesn't seem to be a plan to address them.
    So, some of the underlying challenges besides the terrorism 
problem in Yemen will come to the floor. As it has in the past, 
will likely distract the government from pursuing our interests 
in AQAP.
    Mr. King. Mr. Katulis.
    Mr. Katulis. On your initial question about this challenge, 
I share your concern. I think there is no substitute for 
Presidential leadership on this. I share your view on that as 
well.
    But what I worry about in the last 6, 7 years, what I see 
up here is less of a bipartisan focus on how we can educate the 
American public about these threats. When you think about that 
decade post-9/11, and here it is both parties, different 
figures have been--you could blame them for this.
    But I think often times Americans, ordinary Americans just 
see rancor, whether it is related to the budget negotiations or 
other things. Quite frankly, even the security issues. We have 
had a lot on that front.
    I think Members of Congress, Senators and others, who are 
internationally-minded have a special responsibility to go out 
and educate the American public that these are long-term 
trends. Because if you look at both Republicans and Democrats, 
there are strands within both parties that say who cares? Let's 
wash our hands of this and let's go home. There really needs to 
be a much more focused effort. Educating much in the same way I 
think we have all said here.
    These are long-term challenges. If no one else will do this 
if the United States is not engaged in this.
    One last point on that is in my travels in the Middle East, 
and I go once a month or so, and in my discussions with senior 
U.S. officials, including military officials, they make the 
point that what we do here at home as we address issues like 
our budget and problems here at home, or if we don't.
    The perception of deadlock, the perception that we can't 
get anything done on those things that matter most to our own 
citizens here at home, it has an impact on our power, on our 
ability to actually shape those countries in the Middle East 
that we want to say we are a leader. It sends a very negative 
message.
    Here again I am not assigning blame to anyone here. Here it 
is just the sense that there has been this rancor and it spills 
over overseas. It has this impact on if--our soft power, if you 
will.
    If 10 or 15 years ago there was great admiration for our 
democracy and our ability to get things done in our economic 
system, when I go to Egypt, when I go to Yemen, when I go to 
these places, people have tuned out because they see a lot of 
division and they see the United States not leading anymore.
    Yes, it comes back to our commander-in-chief and our 
President and how he talks about it in part. But it is also a 
broader point about our system and the special role that we all 
play in trying to foster a dialogue that I think keeps America 
engaged in these problems in the world.
    Mr. King. I wish there were some people here that were 
listening to you right now. I have a few of them in mind. But 
in any event--not Mr. Higgins.
    With that I yield, sir. Blaming both parties. Yield to the 
Ranking Member.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Katulis, you had indicated that there is a competition, 
in essence, between al-Qaeda in the Arabian Peninsula and 
fighters that are gravitating toward both Iraq and Syria 
because of the instability there. So these are--but the other 
issue I--you know there has been a lot of talk the last couple 
of weeks about whether or not to strike militarily on Syria and 
what the consequence of that is.
    You know if you look at the situation in Syria where you 
have--it is the last minority-led regime in the Middle East. 
First was Lebanon, then Iraq and now Syria. You tip that 
balance, Syria is probably 65 percent to 75 percent Sunni.
    The opposition is really not that of a freedom and 
democracy movement. Its best fighters are al-Qaeda affiliates 
and Islamic extremists bent on creating an Islamist state in 
Syria.
    I understand fundamentally that al-Qaeda thrives in failed 
states. Well, the whole region is failed, I mean it is a mess. 
So in--you know whatever we do anybody that tells you they know 
what the result of that is we should be skeptical of. Because 
you know whether it is in Afghanistan we helped the Mujahideen 
defeat the Soviets in 1989. Then the Mujahideen basically 
facilitated the transfer of bin Laden from the Sudan in 1996 to 
Afghanistan, which created really the global jihadist movement. 
That is something that it could be said that we helped 
facilitate. Unknowingly, perhaps, but we did.
    I was taken by your suggestions that America and our 
standing in the world is compromised when the rest of the world 
sees that America is not functioning well, or is in a state of 
dysfunction. I think that is particularly true today with 
social media.
    You know none of these movements would be occurring in any 
of these places without the tools of collaboration and social 
media, Facebook, Twitter, and everything else. But those tools 
are used not only for organizational purposes, but they are 
also used for aspirational purposes as well.
    The rest of the world can see how they are not living. If 
the United States is strong and prosperous and providing 
opportunities for all of its people, that, to me, is the most 
powerful influence in terms of people rising up and challenging 
the regimes that have kept them oppressed.
    So I know I kind of said a lot there without a question, 
but I would like each of you to kind of comment on that.
    Mr. Katulis. Well, if I could just start out by saying 
almost 2 years ago, that 2\1/2\ years ago I testified before 
the subcommittee early in what some people called the Arab 
Spring. I never called it the Arab Spring, I called it the 
uprisings because we were uncertain about which way it would 
go.
    Now it is more than 2 years into this. The uprisings have 
hit its terrible 2's or 3's. I have a 3-year-old, I can attest 
to that. It is very complicated. I wouldn't be completely 
negative.
    One thing you said that struck me, and I will just 
respectfully disagree, is that the whole region is a mess. Yes, 
a good bit of it is. But in places like Tunisia and even in 
places like Yemen which are deeply complicated and there are 
lots of threats there, what Katherine said about the National 
Dialogue is spot-on. Those sorts of footholds are essential.
    I think what I was trying to say in my first point we as a 
country have lacked an overarching strategy that actually 
defines what we would like to see in the long term in this 
region of the world. We have been hesitant to do that. George 
W. Bush didn't do it. Barack Obama has not done it.
    We often define in the negative. We are going to disrupt, 
dismantle, and defeat terrorist networks. We need to continue 
to do that. But it doesn't actually tell the American public or 
tell ourselves what it is we actually need to help these 
societies create.
    Now, we can't do it for them. That is the trickier part. 
But I think, I fear that we see complexity and see problems in 
places like Syria, and I completely agree with I think 
everything you said on Syria.
    But I think we also still need to stay engaged and we need 
to actually figure out what is the long-term solution because 
what we are seeing in many of these places, especially in 
Syria, is the collapse of a state system potentially. Or at 
least it is creating these demographic, social, economic, and 
political pressures. All of these are linked together. That is 
one thing I wanted to stress is that the terror threat is not 
dis-linked at all to the political situation in these 
countries.
    In fact, places like Tunisia where you have an Islamist 
government, and many of these Islamists that are in power have 
common ideologies with some of these radical terrorist groups. 
But I do think that those non-radical groups that are in 
government now have some potential for marginalizing those 
radical groups, some potential.
    But this is going to take decades. We ourselves can't shape 
and determine what will happen. But I think we can have a big 
influence if we actually work with others and work with 
countries in the region to figure out how to--what is our end-
goal, which is what we are lacking right now.
    Mr. Cilluffo. Mr. Higgins, just to build on a couple of the 
points, because I think you raised a number of fundamental 
issues that go far beyond counterterrorism, but also touch on 
what is the U.S. role in the world. One thing I think we also 
need to acknowledge and recognize is U.S. credibility in the 
world once we start coming up with red lines and the like, not 
only with respect to Syria, but to others as well. So there are 
no very simple or easy questions here.
    On the counterterrorism side, I think we really have to 
have the hard question of asking what is truly in the U.S. 
National interest. Here is where I am going to be a little 
hawkish.
    I agree with everything that Brian and Katie raised and I 
am fans of their work. But at the end of the day we have got 
limited resources. We have got all sorts of problems brewing, 
including in our own country. We have got economic crises and 
challenges that we are going to have to get very focused in 
terms of what is in our greatest National interest.
    So I still think that while I realize we will never kill 
and capture our way to victory, the kinetic instrument is still 
important. What we can't afford to do is get pulled into 
quagmires that are going to be long-term insurgencies that will 
actually foster what it is we are trying to prevent.
    So short of that what are our limited options? I would 
argue we do have a responsibility, especially if you have got a 
threat directly facing the United States. Take some of the 
operational and military leadership of terrorist organizations.
    I think that some of our soft, light-footprint-type special 
operations and light-footprint capabilities are critical to 
include drones which kind of get lost. Drones is a means to an 
end. It is a vehicle. It is not the end-state in itself. I will 
be the first to say that that is in itself insufficient. But at 
the end of the day, you also need to focus on the greatest 
National interest that is facing you at that time.
    I would also argue sometimes short-term interests, if we 
move away after we address those could foster and pay us back 
in a very different kind-of way long-term if we don't continue 
to keep our eye on the ball.
    So one thing on social media, keep in mind that many of 
these countries don't even have access given their regimes 
given that a, because they may not have access to smartphones 
and in other cases where regimes are not permitting some of 
their citizens access to information. So that does cut both 
ways.
    Clearly you have others co-opting and exploiting 
situations. Take Egypt, the intent may have been very different 
than what we see today. So who is in a position to seize and 
move in and take advantage of these vacuums? That is something 
we need to be thinking about and thinking about strategically.
    On Syria there are no easy--there are no good solutions if 
you ask me. But this is not a hearing on Syria, so I will shut 
up.
    Ms. Zimmerman. I will be brief. I think that the point that 
I want to draw out here is the narrative that it doesn't matter 
what is happening in the rest of the world because we here at 
home are safe, and we need to deal with our own budget and 
economic issues.
    No one can dismiss that the United States has its own 
domestic policy decisions to make. But I do want to push back 
on the idea that what is happening in Syria, what is happening 
in Egypt, some of the unrest that has started happening in 
Tunisia following the coup or the ousting of Morsi in July in 
Egypt, those do start to have an effect on the U.S. security 
because they set the long-term risk for Americans. Where they 
create conditions on the ground that let extremism thrive in a 
way that we haven't seen before.
    That will, in the next few decades, come back to the United 
States in the same way that the ungoverned space that we saw in 
Afghanistan and Jahim permitted al-Qaeda to train. It was 10 
years later that we saw al-Qaeda thrive at the beginning of 
2001 and conduct the 9/11 attacks.
    That is the message that I think has been missed in recent 
years is that for Americans we do very much depend on global 
security for our own National security and that the two are not 
entirely disconnected. Thank you.
    Mr. King. You mentioned earlier that Inspire magazine had 
been particularly effective in recruiting Americans. Samir 
Khan, who actually went to East Meadow High School right near 
my home, was American. He not just spoke English, he spoke 
American English, assumed to have a unique ability to impact 
young Americans, obviously young Muslim Americans.
    I know that Inspire magazine has come back. But is it at 
the same level as it was in the Samir Khan, as far as being 
able to make that unique appeal to Americans as he seemed to 
have, and al-Awlaki, who was an American citizen, seemed to 
have?
    Mr. Cilluffo. I think that is a great question, Mr. 
Chairman. I would have said immediately following his death 
some of the editions that came out were grammatically wrong. 
They were very poor quality production. But what we saw post 
the Boston terrorist attack was at the same level, at least 
from a production standpoint.
    I think what you are starting to see is in addition to the 
attempt to radicalize and recruit Westerners and Americans and 
others, they are getting much more focused on also terrorist 
tactics, techniques, and procedures. So the TTPs that basically 
are providing the how-to, do-it-yourself terrorism. That is a 
concern as well.
    So it is teaching operational security. It is teaching how 
to not get pulled up by the law enforcement authorities, 
whether local or Federal. So I think you are starting to see a 
bit more focused on TTPs. That does require--that is a concern, 
maybe of a different kind of level.
    So I was thinking post al-Awlaki and Samir Khan that that 
would have been the end of Inspire as we saw it. Unfortunately, 
there is a very fluent English speaker, whether American, 
British, Australian, Canadian, I am not sure, but clearly 
someone who is fluent not only in the language but also 
culturally in our country. So it is a concern.
    Again, I underscore almost every case of homegrown Islamist 
or jihadi-based terrorism had an al-Awlaki connection, at least 
from an inspirational perspective. You also see that in the 
United Kingdom. So it is a concern.
    Mr. King. Anybody else want to comment on this?
    Mr. Cilluffo, in your testimony, and again, each of you can 
comment on this. You mentioned about the impact of leaks and 
the operational impact, the changes we have seen in al-Qaeda 
affiliates. Would you care to expand on that?
    Mr. Cilluffo. Mainly to underscore its significance. Think 
of it as having the playbooks of an offensive and defensive 
coordinator, if you are thinking football. That is pretty 
dangerous.
    I was very concerned, not only in terms of how they can 
alter their operational security and trade craft from a 
communicating and planning perspective. But perhaps one of the 
most eye-opening documents was what al-Qaeda in the Arabian 
Peninsula and others in the broader al-Qaeda community are 
doing to try to protect themselves from drones.
    The level of specificity that was in that document is quite 
damning. Obviously now the adversary knows what we know that 
they know, and that has big potential operational implications. 
I might underscore in that same document and in other 
reporting, all the principal foreign terrorist organizations 
also highlighted just how significant drones were. They were 
scared, very much so, about the efficacy of them.
    Ms. Zimmerman. I just want to echo that, but I wanted to 
add a little bit more. We have seen reporting from I believe it 
was Washington Post that specifically said that AQAP changed 
the way that it was communicating following the leaks this 
summer. That shows a reaction from the groups to our method, an 
adoptiveness that we have yet to actually overcome.
    There is an idea that we will always have superior 
technology. But it will have to meet--be superior all the time 
if we are going to be able to glean the intelligence that we 
need. It needs to be unknown to the enemy, which means unknown 
to the public.
    The other point is actually in Inspire magazine where 
initially the editors had sought questions and solicited 
articles using encryption software. At some point in the middle 
of the 11 issues there was a message in Inspire magazine saying 
that they were no longer asking because the encryption software 
was not working.
    I have not been able to tie that to any specific 
information, but clearly the organization was very careful 
about seeing reflections of its own internal communications in 
the public sphere. So we need to be very aware of how the enemy 
is watching what we are doing as well.
    Mr. Katulis. Just real quick, these tools are essential for 
keeping America safe. When I mentioned the leaps in technology 
that we have seen in the last few years, that is what I was 
talking about. You talk to people who work in the intelligence 
community who work this day-in and day-out. These leaks are 
damaging beyond belief.
    The one point I wanted to stress was in addition to those 
tools for collecting information, one place where I feel there 
is still a weakness after more than 12 years of being deeply 
engaged in the Middle East is our ability to actually collect 
human intelligence on these organizations.
    We have become much more sophisticated in our technology, 
and that is a good thing. We should protect that as much as 
possible.
    But it is still stunning to me the lack of depth of 
knowledge, the lack of Arabic speakers--and it takes a while, I 
speak Arabic myself--inside of the community. People that can 
embed themselves and understand not only the terrorist 
organizations, but also I think some of these Islamist groups 
that some of them are actually in power in some of these 
countries, and understanding the linkages, at least 
ideologically and in terms of heritage.
    I am not saying that they are all linked together, but I 
think there was a bit of naivete about the Muslim Brotherhood 
and other things. Yes, they are separate and distinct from al-
Qaeda. Yes, Ayman Zawahiri was arguing against the Muslim 
Brotherhood. But they do share a lineage, and there was a lack 
of depth, I think, inside of the U.S. Government of 
understanding just what the nature of these organizations were. 
I think it is something we should continue to press them on.
    Mr. Cilluffo. I hate to jump in because I already spoke too 
much. But to pick up on two very important points I think Brian 
raised, I mean human is critical in any counter. Only a human 
source is going to know when and where and why. So I think a 
human source, human enabled by technology, sure, but I think as 
much as we can invest there, critical.
    But the bigger point being, think back to the Cold War. You 
had every war college. Everyone I knew was taking Russian in 
college. You had war colleges. You had whole institutions 
devoted to understanding the KGB, understanding the Soviets and 
understanding their mindset and what made them tick.
    You don't see that today in the counterterrorism 
environment--either universities like ours and think tanks and 
institutions I think are feeling some of that. But not at the 
level of training that next generation, educating that next 
generation with the linguistic skills all the way through to 
understanding cultures, regions, and the like.
    I just wanted to bring up one other point because I am very 
concerned about the leaks. But the flip side is, as both you, 
Mr. Chairman and Ranking Member Higgins brought up, we also 
have a responsibility to have a dialogue with the American 
people.
    So we need transparency, but we need to do it in a 
calibrated, smart kind of way. We have a responsibility to 
communicate with the American people on many of these issues.
    But we also have to realize that it is not just the 
American people who are reading and learning. In fact, I would 
argue many more non-Americans are learning from some of this 
information, and that includes obviously our enemies.
    Mr. King. Mr. Higgins.
    Mr. Higgins. Yes. Just a couple things that have been said 
as well, U.S. credibility is on the line. You get yourself 
involved in a quagmire that really creates a long-term 
insurgency. I think Iraq is very instructive. We had a 
situation within 3 weeks we took out a bad guy, you know, 
without question a bad guy, Saddam Hussein.
    We issued the death-if-ication order, and dissolved the 
Iraqi army and basically said to 100,000 Iraqis there is no 
place for you in Iraqi society anymore. They said, oh really? 
They created the Sunni insurgency. We are right in the middle 
of a situation that you know Iraq today is as violent as it was 
in the worst time of our American occupation there in 2006 and 
2007.
    I see Syria going in the exact same direction.
    Now, Assad, obviously a brutal, murderous dictator, much 
like his father. You know you take him out and you again have 
an opposition whose dominant influences are al-Qaeda and 
Islamic extremists. What do they start to do? Ethnic cleansing. 
Then we are responsible for that stuff that is going on and we 
are supposed to stop that as well.
    So let me just say this, you know generally speaking. You 
know I don't view America's credibility--I don't have an 
answer, and there are no black-and-whites. There is a lot--
there are no straight lines. There is a lot of grey and a lot 
of confusion and a lot of other things there.
    But you know, at what point does the Arab Muslim 
civilization take responsibility for their own future? Because 
you know this has been going on for 14 centuries between Shiite 
and Sunnis as to who the rightful successor to the Prophet 
Mohammad is. Okay.
    What they are saying, there are 250 million people in the 
Arab Muslim world, half of which are under the age of 25. So 
the response to all those kids is there is no future for you. I 
think there are certain things that Americans clearly don't 
understand about that part of the world.
    You know unlike our society we have a victim's mentality. 
We feel empathy and sympathy for victims. There it is 
survivor's mentality. They shouldn't have been there. They must 
have been doing something wrong.
    You know I think these are obviously complicated 
situations. But our ability to help in places that want to be 
and can be helped is greatly undermined by having spent $2 
trillion in Iraq and Afghanistan. Those places are no better 
than they were the day we entered those places. But they have 
seriously undermined the United States' ability to do other 
things domestically and internationally as well.
    So I just--you know there are no--again, there are no 
black-and-whites here. I think, you know, comparisons to what 
was going on to Europe. I heard the Secretary of State's point 
that this is our Munich moment. That is insulting. That is 
insulting.
    You know Hitler was an awful guy who was leading a very 
prosperous country with the largest army in the world, was 
about to conquer--wanted to conquer Europe and potentially the 
world. Assad is clearly a bad guy presiding over one of the 
poorest countries in the world and having a hard time hanging 
on.
    You know we can't--history is not always applicable to what 
is going on contemporarily in the Middle East and in the 
Arabian Peninsula, so.
    Mr. Katulis. If I could react here again, I actually agree 
with a lot of what you said there. I think the region more than 
2 years ago it just started a phase that is going to go on for 
a long period of time, a struggle for political legitimacy, a 
fragmentation and fracturing of power, of a way of doing 
business, essentially, for the last century when the Ottoman 
Empire collapsed.
    Yes, our ability to shape all of these things is quite 
limited. I think there should be a great deal of humility based 
on our experiences in Iraq and Afghanistan, and lessons learned 
from all of that.
    But it is my view that if the lesson is simply, don't get 
involved in any sort of way, or get involved in the way--take 
your example of Syria. Where I think we are at on Syria is that 
we simply lack a coherent strategy. That is why we have seen 
this sort of whipsaw the last couple of weeks.
    We have had a series of tactics and tactical reactive 
measures bit-by-bit, dribs and drabs. Arm a little bit of the 
opposition here, engage a little bit diplomatic with the 
political opposition there.
    I think if this, whatever has happened in the last couple 
of weeks, is offered a moment, it is an opportunity to further 
press the administration so that they are not jamming you up on 
the Hill for a quick vote on an authorization of use of force. 
But it is separate, as Frank said, from the topic of our 
hearing.
    But it is essential to press them for what their strategy 
is. Going back to the point I was saying, what is your end-goal 
and what are those means that you are going to us to accomplish 
that?
    You may end up hearing, Mr. Higgins, a lot of sympathetic 
voices to your view inside of the administration because I 
think there is that reticence there. But then, we should all 
ask ourselves is, what will this serve U.S. interests in the 
long run?
    I think what we are trying to say is no more nation-
building and going in with boots on the ground. You listen to 
Frank especially. All of us are saying that. But how can we get 
others to help them help themselves?
    The picture you painted of the Syrian opposition is, I 
think, essentially correct. But there are others that 
Ambassador Ford and others have been trying to work with. So 
how do we get them to fight this fight for themselves that 
leads it to some sort of conclusion?
    Last point I would want to make, and you had mentioned this 
on Iraq and Syria, very brief point, is that increasingly I 
think we need to look at those challenges at interlinked.
    As the problem is either violence in Iraq and the uptick 
that you mentioned in your statement there I think is directly 
related to what is going on. You see the terrorist groups, al-
Qaeda in Iraq and Asham in Syria. They are becoming much more 
cohesive and coordinated.
    It is not a problem, in my view, for U.S. National security 
interests yet. They don't represent the threat that AQAP 
represents yet. But we all, I think, have talked about the 
adaptive nature of these networks.
    We should keep a close eye on it. We should make sure that 
whatever we are doing, how modest and marginal it is with the 
Syrian opposition, we are also collecting information on the 
morphing of these networks.
    Mr. Cilluffo. Underscoring your begging to touch a third 
rail, but in addition to what is going on in the Middle East, 
Sunni-Shia, you also have minority Christians that we need--we 
have a responsibility to protect their right to faith, as well 
as obviously Israel and Judaism and every other religion. So I 
just put that on the table.
    One other thing that I think some of us sometimes forget, 
and that is with respect to Afghanistan. Keep in mind the 
likelihood that we would have seen other big acts after 9/11, I 
would argue, would have been quite high had we not taken 
certain actions.
    So it is difficult to disprove double negatives. But at the 
end of the day, if we didn't degrade that capability, don't 
think that we would not have witnessed--there was a lot of 
blood, sweat, and tears and of course treasure as well. But at 
the end of the day, I think lives were saved. That doesn't mean 
I am not putting one cost of life over another, but it is just 
something to keep in mind.
    One other factor with respect to Pakistan and Afghanistan 
today is there is another terrorist group that has just touched 
the homeland. We all said that they didn't, but Tehrik-i-
Taliban, the Pakistani Taliban, that our Times Square bomber in 
the fine city of New York was a TTP actor.
    So, it is not just AQAP. You do have a witch's brew of 
folks operating out of Pakistan, Lashkar-e-taiba, Islamic 
Movement of Uzbekistan. I mean it is a mess. So, at the end of 
the day let's not forget that that could change should we not 
have a presence.
    Ms. Zimmerman. I just want to add here and say that today 
the United States actually lacks options that it had 2 years 
ago in Syria because of its inaction. That the original 
opposition was secular, and that it was predicted by many 
individuals studying the region that should the United States 
fail to take action, Arab regimes would and that they would end 
up supporting religions networks, which is what happened.
    So the secular opposition didn't receive the original 
support. That allowed Islamist movement to gain strength in a 
way that could have--may have been prevented. I am not saying 
that it would have been.
    The other point is that though the fight against Assad, 
whichever side you fall on in the military strength, his 
continued presence in Syria means that the Free Syrian Army, 
which is the secular group fighting Assad, is continued--will 
be continued to be distracted in fighting him rather than in 
fighting Jabhat al-Nusra, al-Qaeda's affiliate in Syria.
    So by removing Assad you advance at least the local 
grouping that you would expect to see fight the al-Qaeda 
affiliate on the ground there. I think that that idea is being 
missed in all of this dialogue about what to do.
    So when you look at our option I do think that we need to 
think longer-term than we have been. The United States people 
tend to think short-term. But we are now on our back foot in 
Syria in a way that we might not have been.
    The same way that we are in Yemen when AQAP was announced 
in 2009, the group al-Qaeda in Yemen had already started to 
resurge in a way, but no serious counterterrorism operations 
were conducted against it until right after the Christmas day 
attack. So we have seen this happen again and again, and I do 
think that we need to be more prescient when we decide on 
policy.
    Mr. Higgins. Thank you very much.
    George Mitchell was appointed special envoy to Northern 
Ireland under previous administration. The chairman was a 
leading Congressional figure in the eventual Good Friday 
Accord. But he wrote a book called ``Making Peace'' about his 
experiences there. He practically lived there at the later 
stages of that negotiation.
    But he made a very profound point saying that in all world 
conflict--and a lot of people thought that the situation 
between Catholics and Protestants in Northern Ireland was 
intractable, that nobody was going to be able to resolve it.
    They said exhaustion, exhaustion, is a huge variable in 
conflict-resolution. You know you think about what those 
parties had to do. You know the Protestants and the Catholics 
had you denounce violence, and they had you give up their arms. 
There was an international tribunal that witnessed the 
destruction of those arms.
    That makes sense to me that other countries, the United 
States, Great Britain get involved in conflict resolution in 
that part of the world because you know what? Those people, 
both sides are invested in it. You know what they did? They 
were able to marginalize the extremists because there was a 
consensus that this is what we want to be prospectively.
    I just think that in the Arab Muslim world, whether it is 
the Palestinians, they are so committed to the conflict. They 
are so committed to the struggle. There is no sense of what 
they want to be.
    I think unless and until you have--I am not even looking 
for a constitution. I am looking for a preamble that basically 
is a unifying vision as to what these places want to become. 
Then and only then, whether it is Syria, Iraq, or anywhere 
else, can they expect international help to help them achieve 
something that is consistent with our American values.
    So you know I just think that you know George Mitchell's 
admonishment that exhaustion is a huge variable in all this 
stuff, exhausting can't be imposed from the outside. It has to 
be experienced from within. That is it.
    Mr. King. AQAP was probably the most aggressive as far as 
going forward scientifically, whether it is doctors trying to 
enflame farms, whether it was the cylinder-type explosives that 
they placed on the airplane.
    First of all, are they as aggressive today as they were 
then? Are they sharing any of that with anyone else in the al-
Qaeda nexus?
    Mr. Cilluffo. Mr. Chairman, I think it would be very naive 
to think that he has not, Ibrahim al-Asiri shared that with 
others within al-Qaeda and the Arabian Peninsula and beyond al-
Qaeda in the Arabian Peninsula, notably al-Shabaab. There have 
been some indictments that have identified some of that.
    Again, when we talk about people with unique skills, he is 
at the very, very top of the list, and ruthless. I mean the 
first time he attempted to use this improvised explosive device 
he sent his own brother to try to kill Muhammad bin Nayef, the 
Saudi prince.
    So I think that is a significant concern and it is a lot 
more sophisticated than what you see in Inspire, for example, 
of how to build an IED in your mother's kitchen. This is not 
that level. This is at a much higher level.
    Again, has successfully circumvented some of the security 
countermeasures that are put in place, which again underscores 
just how important intelligence is, whether technical means, 
but especially I would argue human intelligence.
    Mr. King. How about AQAP's relationship with Boko Haram or 
AQIM or we are seeing in Libya the variation of groups in 
eastern Libya? How far are their tentacles spreading, AQAP's?
    Ms. Zimmerman. I think the first point is our information 
on that is limited because there hasn't been that much 
correspondence recovered. We had great insight into al-Qaeda in 
Iraq because of the U.S. military presence there. The insight 
that we have into AQAP's relationships abroad comes either from 
uncovered documents in Mali or from U.S. indictments.
    I want to focus on the letters published by the Associated 
Press from AQAP's leader, Naser al-Wuhayshi, to the leader of 
al-Qaeda in the Islamic Maghreb, Abumallah Tricktel. Those two 
letters went to insight both into how the AQAP has envisioned 
its role in sharing counsel with other affiliates that actually 
mirrors the counsel that bin Laden shared with AQAP.
    But also that that relationship is geographically very 
far--when you look at the distance between Algeria and Yemen, 
that is a long way for correspondents to travel. It is unclear 
whether it is electronic or--and whether these are printed or 
how they were moved across the region, but that it is certainly 
a connection there that shows the breadth of the al-Qaeda 
network.
    There are allegations that AQAP has helped to fund some 
camps in Libya, and again these are allegations and cannot be 
proved in any way in the Open Source--or have been proved, to 
my knowledge. But what we do see is that AQAP has set itself up 
to start funding and financing and training and building up 
local groups who share maybe not al-Qaeda's global ideology, 
but the local idea of radical Islam, you know in order to 
further the message.
    This is actually the same thing that bin Laden was doing in 
the 1990s. When you look at that it is very concerning to see a 
group pushing its message and pushing its capabilities abroad.
    Mr. Cilluffo. Mr. Chairman, just to underscore, I think 
Katie laid that out perfectly. But I also think fundamentally 
the way we need to think about al-Qaeda today is different than 
it was just a few years ago. There is a lot of swapping--a lot 
of utility infielders that are being swapped between, among, 
and across these various organizations.
    They are fellow travelers. Whether it is both operationally 
and ideologically, clearly they are attempting to co-opt local 
grievances to achieve their broader global jihadi objectives. 
But I think just the way we think about al-Qaeda you have seen 
a conflation. You have actually seen many of these 
organizations that you couldn't come up with an org chart in 
the same old hierarchical kind of way you could because many of 
them criss-cross.
    Many of them are fighting in conflict zones in various 
places. They are meeting one another, whether it is Syria today 
or whether it was Iraq or whether it was Yemen or whether it 
was Somalia or whether it was Mali or whether it is you name 
the jihadi hotspot of the moment.
    They are fellow travelers to one extent or another. The one 
thing I would underscore with AQAP and this is probably a very 
bad analogy, but they are kind of the Kevin Bacon of al-Qaeda. 
I mean they really are. They have connected with a lot of 
different organizations in the past.
    So I think we have got to stop thinking about it in the 
traditional hierarchical approach. It is relatively flat. In 
the military they are achieving what we would in the United 
States refer to as commander's intent. So we got intentions 
coming from on high, but it is ultimately up to those closer to 
the pointy end of the spear to execute. That is what you are 
seeing now.
    You have got the intent, the aspirational objectives. But 
when you are talking about operations it is local. They are 
fighting in similar conflict zones. They are getting to know 
one another. That is unfortunately where we are.
    Mr. Katulis. If I could just add one perspective connected 
to a point I was trying to make at the start of my testimony of 
this adaptive nature of AQAP and how it impacts our approach. 
When I said that we are not still properly matching resources 
to meet threats, I think we are constantly behind the curve. It 
is almost the nature of the threat that that would be the case.
    But if you look at--and you mentioned Afghanistan, I think 
in 2010 we were spending $120 billion or $130 billion as a 
country in Afghanistan. By that time I think the assessment of 
most counterterrorism analysts is that the threats had 
migrated. The central threat to the homeland security had 
migrated to AQAP.
    What I think we are all trying to say, and I think we 
largely agree here, is these threats migrate and adapt quite a 
lot. We are still in a transformative moment. I fear that U.S. 
Government policy is not nimble enough at adapting to these new 
threats in Syria, Sinai Peninsula again.
    We are very good. I think we have done a very good job in 
the last 2 years in kinetic strikes against al-Qaeda in the 
Arabian Peninsula. It has had an impact.
    We didn't talk much about the embassy closures a bit, but I 
do think it limited their ability. It didn't de-fang it 
completely. But the overarching point is it is almost 
perplexing to me as an American citizen, 12 years after 9/11 we 
still don't have a good read on the metrics of whether we are 
winning or losing this thing.
    We don't have--and that, I think, contributes, Mr. 
Chairman, to your question about educating the American public. 
That contributes to the general confusion and disinterest 
because of the complexity of this. But the lack of overarching 
strategy and metrics is I think a big challenge here.
    Mr. King. Before we leave, any points that any of you want 
to make before we end the hearing? Anything that hasn't been 
brought out that you want to bring out that you think is 
important?
    Mr. Cilluffo. If you can keep, Mr. Chairman, your 
leadership role in bringing these issues to the American people 
and to Government and assuming that role, I would appreciate 
that. So thank you.
    Mr. King. Thank you. Okay. I will end on that note. That is 
a great one.
    Mr. Cilluffo. Thank you.
    Mr. King. Brian, thank you.
    With that, the hearing stands adjourned.
    [Whereupon, at 3:24 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
